<html>
<title> - FORCE MULTIPLIERS: HOW TRANSPORTATION AND SUPPLY CHAIN STAKEHOLDERS ARE COMBATTING HUMAN TRAFFICKING</title>
<body><pre>[Senate Hearing 115-282]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-282
 
                 FORCE MULTIPLIERS: HOW TRANSPORTATION
                   AND SUPPLY CHAIN STAKEHOLDERS ARE
                      COMBATTING HUMAN TRAFFICKING

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and Transportation
    
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
                             


                Available online: http://www.govinfo.gov
                
                
                
                
                           _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-786 PDF             WASHINGTON : 2018                       
 
 
 
 
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                      
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 12, 2017....................................     1
Statement of Senator Thune.......................................     1
    Letter from Call to Freedom..................................   137
    Testimony from Chelsea.......................................   139
    Statement from Tiffany Wlazlowski Neuman, Vice President, 
      Public Affairs, NATSO......................................   139
    Statement from Nancy L. Rivard, President, Airline 
      Ambassadors International..................................   141
Statement of Senator Nelson......................................     3
    Prepared statement...........................................     3
Statement of Senator Blunt.......................................   143
Statement of Senator Schatz......................................   145
Statement of Senator Fischer.....................................   147
Statement of Senator Cortez Masto................................   150
Statement of Senator Klobuchar...................................   153
Statement of Senator Cantwell....................................   153
Statement of Senator Capito......................................   155
Statement of Senator Sullivan....................................   157
    Ten City Study by Laura T. Murphy, Loyola University and 
      Covenant House entitled ``Labor and Sex Trafficking Among 
      Homeless Youth.............................................   159
    Article dated April 17, 2017 from the New York Times 
      entitled, ``Homeless Youth at High Risk of Human 
      Trafficking'' by Tariro Mzezewa............................   166
Statement of Senator Young.......................................   168

                               Witnesses

Keeli Sorensen, Director, Government Relations and Public Policy, 
  Polaris........................................................     4
    Prepared statement...........................................     6
Esther Goetsch, Coalition Build Specialist, Truckers Against 
  Trafficking....................................................   120
    Prepared statement...........................................   122
Samir Goswami, Technical Consultant, Technology Solutions to 
  Trafficking in Global Supply Chains, Issara Institute..........   123
    Prepared statement...........................................   125
Tomas J. Lares, Executive Director, Florida Abolitionist; and 
  Chairman, Greater Orlando Human Trafficking Task Force.........   131
    Prepared statement...........................................   133

                                Appendix

Response to written questions submitted to Keeli Sorenson by:
    Hon. Dan Sullivan............................................   173
    Hon. Bill Nelson.............................................   174
    Hon. Richard Blumenthal......................................   174
    Hon. Catherine Cortez Masto..................................   174
Response to written questions submitted to Esther Goetsch by:
    Hon. Dan Sullivan............................................   175
    Hon. Bill Nelson.............................................   176
    Hon. Richard Blumenthal......................................   178
    Hon. Catherine Cortez Masto..................................   178
Response to written questions submitted to Samir Goswami by:
    Hon. Richard Blumenthal......................................   183
    Hon. Catherine Cortez Masto..................................   184
Response to written questions submitted by Hon. Bill Nelson to 
  Tomas J. Lares.................................................   223


                           FORCE MULTIPLIERS:



                     HOW TRANSPORTATION AND SUPPLY



                   CHAIN STAKEHOLDERS ARE COMBATTING



                           HUMAN TRAFFICKING

                              ----------                              


                        WEDNESDAY, JULY 12, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Nelson, Blunt, 
Fischer, Sullivan, Capito, Young, Cantwell, Klobuchar, Baldwin, 
and Cortez Masto.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning. Thank you all for being here. 
Today we are going to hear from some remarkable leaders who are 
working on the ground to combat human trafficking and to help 
victims.
    Human trafficking is a heinous crime that often hides in 
plain sight. The coercion that traffickers use to manipulate 
victims is not just happening overseas; it occurs right here in 
the United States. As the National Human Trafficking Hotline 
details, cases of human trafficking are annually reported in 
each of the 50 states and Washington, D.C. It is estimated that 
human trafficking is a $150 billion industry globally.
    Our hearing today will explore the role of transportation 
providers, who are fighting the growth of trafficking in the 
United States, and their ongoing efforts to reduce forced labor 
in the global economy. Our witnesses have been asked to testify 
about the challenges and successful strategies in combatting 
this horrible crime.
    Human trafficking takes on many different forms, and the 
perpetrators use a variety of tools to recruit and control 
their victims. Victims of human trafficking are often lured 
with false promises of well-paying jobs, stability, or 
education. Others are manipulated by people that they trust.
    Because the ways in which humans are exploited differ 
greatly, the responses needed to disrupt and eradicate 
trafficking also differ. Solutions involve cooperation among 
industry, the government, and NGOs. No single entity can tackle 
this problem alone.
    In the Senate, my colleagues Senators Cornyn, Grassley, and 
Klobuchar have been working on legislation, including the 
Abolish Human Trafficking Act of 2017, which increases the 
scope of training, targets organized perpetrators, and improves 
the national strategy to combat human trafficking. As a 
cosponsor of this legislation, I hope to see it move quickly 
through the Senate.
    Our committee also plays a role in helping solve this 
problem. The FAA Extension Act, signed into law last year, 
included a provision requiring enhanced training for flight 
attendants to recognize and respond to potential human 
trafficking victims.
    This week, Senator Klobuchar and I will introduce 
complementary bills that would create a lifeline--lifetime ban, 
I should say, for commercial driver's license holders convicted 
of a crime related to human trafficking and improve education 
and outreach efforts regarding trafficking prevention within 
the transportation sector.
    I anticipate that both of these measures will be on the 
Committee's next markup agenda.
    As we'll hear from our witnesses today, greater knowledge, 
understanding, and awareness are essential for any forward 
movement in combatting this crime.
    Ms. Goetsch, from Truckers Against Trafficking, will 
discuss her group's work to educate, equip, and mobilize the 
trucking industry to combat trafficking as part of their 
regular jobs.
    As consumers, many of us are unaware, I should say, of the 
potential victims who may come knocking on our door. As Ms. 
Sorensen, from Polaris, will testify, these victims can often 
be found in traveling sales crews, domestic work, and 
commercial cleaning services, just to name a few.
    We also may not realize that forced labor might have been 
used to harness the seafood we regularly enjoy. Mr. Goswami 
will testify about the Issara Institute's efforts to assist 
those who are trapped at sea and oftentimes working without 
food or pay. He will discuss Issara's efforts to work with 
corporate partners who want to ensure their supply chain, not 
only for seafood, but for all the goods that they sell is free 
from forced labor.
    There is also some significant work being done on the 
ground in my home state of South Dakota. Organizations such as 
Call to Freedom and Pathfinder are working to identify gaps in 
services for human trafficking victims and provide housing and 
support for victims to regain their lives and independence.
    Other organizations in my state, such as Native Hope, are 
on the ground working to educate and expand awareness during 
events in South Dakota. They are also working with state and 
tribal law enforcement to assist vulnerable communities often 
targeted for trafficking. I commend the efforts of these 
organizations and their leaders.
    I am encouraged by the partnerships and innovative 
solutions that our witnesses will highlight today. I want to 
thank you all for being here and for the advocacy and work that 
you're engaged in.
    So I will turn now to Ranking Member Nelson for any opening 
statement that he would like to make.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    This is a widespread problem that we need to put all the 
potential solutions on the table. We're going to look today at 
how transportation, technology and the supply chain can help 
prevent the incidence of trafficking. Unfortunately, in my 
state, we know all too well the consequences.
    According to the trafficking hotline, Florida ranks third 
in the country for the number of cases reported in 2016. The 
Florida Department of Children and Families also said Florida 
received more than 1,800 reports alleging the trafficking. 
That's a 54 percent increase over the year before.
    Obviously, this is shocking, but the stories are even 
worse, especially when we look at the fact that many victims of 
trafficking are women and children. Minors may be targeted 
because they've run away from home or have substance abuse 
problems. The traffickers promise these kids all kinds of 
things--money, clothes, drugs, housing--and they have no idea 
the price that they're going to pay.
    Since the traffickers prey on desperate and vulnerable 
people, they seek out places where people won't notice, where 
it can be difficult to intervene, but then help comes from some 
unusual places. A Florida truckdriver was traveling through 
Virginia two years ago at a gas station, and he saw an old RV 
that stuck out, and he noticed suspicious behavior that made 
him concerned for a minor female. He called the police. Later 
he learned that the woman he spotted was a trafficking victim. 
She had been coerced from Iowa, held against her will, tortured 
and raped. His quick thinking and attention definitely saved 
her life.
    Groups like the Truckers Against Trafficking train truck 
drivers to spot signs of trafficking and report the concerns to 
the hotline. Last Congress, the FAA bill included a provision 
which Senator Klobuchar championed to require that all flight 
attendants receive training on how to recognize and respond to 
trafficking. This Congress, I joined the Chairman and Senator 
Klobuchar on legislation to improve our response in the 
transportation sector by increasing awareness, training, and 
providing a new penalty to discourage trafficking.
    I want to thank all of our witnesses for being here. I want 
to thank Mr. Lares, who came all the way from Florida to speak 
on the work he does to combat human trafficking in the Orlando 
area.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Mr. Chairman, thank you for calling this hearing.
    Human trafficking is a horrific crime.
    It is a widespread problem that requires us to put all solutions on 
the table.
    Today, we will look at how transportation, technology and the 
supply chain can help prevent and respond to incidents of human 
trafficking.
    In Florida, we unfortunately know the consequences of human 
trafficking all too well.
    According to the human trafficking hotline, Florida ranks third in 
the country for the number of cases reported in 2016.
    The Florida Department of Children and Families also said Florida 
received more than 1,800 reports alleging human trafficking.
    That's a 54 percent increase over the year before.
    These statistics are shocking.
    But the stories of victims are even worse.
    Especially when we look at the fact that many victims of 
trafficking are women and children.
    Minors may be targeted because they have run away from home or have 
substance abuse problems.
    The traffickers promise these kids all kinds of things--money, 
clothes, drugs, housing--and they have no idea the price they will have 
to pay.
    Since the traffickers prey on the desperate and the vulnerable and 
they seek out places where people won't notice, it can be very 
difficult to intervene.
    Help can sometimes come from unusual places.
    I'll give you an example.
    A Florida truck driver was traveling through Virginia two years 
ago.
    At a gas station, he saw an old RV that stuck out and noticed 
suspicious behavior that made him concerned for a minor female in the 
RV.
    He immediately called the police.
    Later he learned that the woman he spotted was a trafficking 
victim.
    She had been coerced from Iowa, held against her will, and 
subjected to torture and sexual assault.
    His quick thinking and attention to suspicious behavior saved her 
life.
    Groups like Truckers Against Trafficking train truck drivers to 
spot signs of trafficking and report these concerns to the human 
trafficking hotline.
    Last Congress, the FAA bill included a provision, which Senator 
Klobuchar championed, to require that all flight attendants receive 
training on how to recognize and respond to potential human 
trafficking.
    This Congress, I joined Chairman Thune and Senator Klobuchar on 
legislation to improve our response to trafficking in the 
transportation sector by increasing awareness, expanding training, and 
providing a new penalty to discourage human trafficking.
    I thank all of our witnesses for being here today, especially Mr. 
Lares, who traveled from Florida to speak on the work he does to combat 
human trafficking in the Orlando area.

    The Chairman. Thank you, Senator Nelson.
    I'm going to turn now to our panel. I want to welcome our 
witnesses this morning and thank them in advance for their 
testimony, and ask them to, as much as they can, confine their 
oral remarks to 5 minutes, and any written statements will 
obviously be included into the completion in the record, and it 
will give us an opportunity to ask questions.
    But on my left, and your right, we have Ms. Keeli Sorensen, 
who is Director of Government Relations and Public Policy at 
Polaris.
    Ms. Esther Goetsch, who is Coalition Build Specialist for 
Truckers Against Trafficking.
    Mr. Samir Goswami, who is Technical Consultant, Technology 
Solutions to Trafficking in Global Supply Chains at the Issara 
Institute.
    And Mr. Tomas Lares, who is Executive Director of Florida 
Abolitionist and Member of the Greater Orlando Human 
Trafficking Task Force.
    Thank you all so much for being here.
    And we will start on my left with Ms. Sorensen, if you will 
proceed with your remarks. Welcome.

STATEMENT OF KEELI SORENSEN, DIRECTOR, GOVERNMENT RELATIONS AND 
                     PUBLIC POLICY, POLARIS

    Ms. Sorensen. Thank you, Mr. Chairman, Ranking Member 
Nelson, and other distinguished members of the Committee. Thank 
you for hosting the hearing on human trafficking, one of the 
gravest human rights abuses in the United States and globally.
    I am grateful for the invitation this morning and to have 
submitted written testimony to you regarding how human 
trafficking impacts commercial industries within the United 
States.
    Mr. Chairman, I am the Director of Government Relations and 
Public Policy at Polaris, which operates the National Human 
Trafficking Hotline you've already referenced this morning. 
It's a project of the U.S. Department of Health and Human 
Services. We also operate the Polaris-owned BeFree Textline. 
Polaris also builds the capacity of other hotlines globally, 
creating an environment in which victims of human trafficking 
can safely signal for help anytime, anywhere.
    Mr. Chairman, my written statement outlines an overview of 
the human trafficking cases Polaris has learned about by 
operating these U.S. helplines, specifically noting the cases 
that are occurring in or facilitated by online technology, 
transportation systems, and the hospitality sector, all 
critical supply chain stakeholders. I ask that my full 
statement be made part of the record.
    With more than 10 years of experience assisting exploited 
and trafficked populations in the United States and 
internationally, I've seen firsthand how this issue impacts 
vulnerable men, women, and children. Working with the survivors 
in the United States specifically, I've witnessed the way that 
the transportation and hospitality industries have facilitated 
this crime.
    Thomas is a survivor I met years ago whose name I've 
changed to protect his identity. He had long dreamt of leaving 
his home in South Asia to work in the United States. He was 
approached by a labor recruiter who asked him for $5,000 to 
secure a lucrative job at a hotel resort in the south, but when 
he arrived in the U.S., he was told that the job no longer 
existed. Instead, he was put on a bus to the Midwest and 
traveled for 3 days with no money for food or water.
    He arrived in a small town and was told that he had to 
clean rooms for two different hotels for 15 to 18 hours per day 
at a significantly lower wage than he was promised. He was 
constantly monitored and threatened with deportation. He lived 
with several other men in a dingy single room and was driven 
from job site to job site with no independence. Thomas worried 
for his family and was unsure how he would repay his debt to 
his recruiter.
    Thankfully, he learned about human trafficking and his 
victim status, and he was able to seek help. He successfully 
sought redress, and eventually was reunited with his family.
    Thomas's story shares commonalities with other cases of 
human trafficking, whether across the hospitality sector or 
beyond. In many cases, there are multiple opportunities for 
authorities and other stakeholders to intervene in order to 
prevent or stop the crime. To do so effectively requires a 
nuanced understanding of how human trafficking manifests across 
the country.
    Polaris recently published a report called ``The Typology 
of Modern Slavery: Defining Sex Trafficking and Labor 
Trafficking in the United States.'' The report analyzed 32,000 
cases of human trafficking that we've learned about by 
operating the U.S. helplines, and identified a framework of 25 
unique types, 18 types of labor trafficking and 7 types of sex 
trafficking. Through this research, Polaris identified 2,894 
human trafficking cases that had some level of involvement with 
website or Internet locations, 3,012 cases intersecting with 
hotels and motels, and 909 cases involving transportation 
systems.
    The typology lays the groundwork for tailored prevention 
and disruption efforts that can be organized by human 
trafficking type or by issue area that frequently emerge across 
types. We believe that supply chain transparency is one such 
cross-type issue area that requires increased investment from 
policymakers. Within the transportation and hospitality 
industries, there has been recognition of the problems, and 
there have been efforts to step up.
    We have partnered with Marriott International and Wyndham 
Hotels, the American Hotel and Lodging Association, and Delta 
Airlines, to name a few. They work to identify and respond to 
cases of human trafficking. Our hope is that we will expand the 
nature of these partnerships in this and in other sectors to 
increase basic supply chain prevention efforts as well.
    A full list of recommendations for your consideration have 
been submitted in my written testimony, but in conclusion, I'll 
reflect just one more core thing. Congress has the ability to 
require mandatory publication of supply chain information 
across sectors. Federal legislation should build on the 
California supply chain--sorry--California Transparency and 
Supply Chains Act, and the more recent U.K. Modern Slavery Act 
and French law on corporate vigilance.
    Furthermore, Executive Order 13627 and the National Defense 
Authorization Act for Fiscal Year 2013 both require government 
contractors to create compliance plans to prevent human 
trafficking in the U.S. Government supply chain. Designating 
training and enforcement within government agencies, which I've 
seen in the draft of the bill that the Chairman and Ranking 
Member Nelson and Senator Klobuchar are proposing soon would be 
an example of this, designating training and enforcement within 
government agencies, like the Department of Transportation, 
would provide an extra layer of needed oversight to ensure that 
compliance plans are effectively upheld.
    Thank you, Mr. Chairman and the members of this Committee, 
for your attention to this critical issue. Polaris looks 
forward to working with you and to ensure that the U.S. 
Government continues to be a global leader in the fight to end 
human trafficking.
    [The prepared statement of Ms. Sorensen follows:]

 Prepared Statement of Keeli Sorensen, Director, Government Relations 
                       and Public Policy, Polaris
    Mr. Chairman, Ranking Member Nelson, and other distinguished 
members of the Committee, thank you for hosting this hearing on human 
trafficking, one of the gravest human rights abuses in the United 
States and globally.
    I want to thank the members of the Committee for the opportunity to 
submit written testimony regarding human trafficking and how it impacts 
select commercial industries within the United States.
    Mr. Chairman, I am the Director of Government Relations and Public 
Policy at Polaris, a leading anti-human trafficking organization that 
works to eradicate all forms of modern slavery. Grounded in data 
gathered from the lived experiences of survivors, Polaris responds to 
victims of human trafficking effectively and immediately, equips key 
stakeholders and communities to address and prevent human trafficking, 
and disrupts the business of human trafficking through targeted 
intervention initiatives grounded in the data Polaris collects and 
analyzes about the crime.
    Polaris operates public channels of communication, including the 
National Human Trafficking Hotline (The Hotline), a project of the U.S. 
Department of Health and Human Services, and Polaris's BeFree Textline. 
We also build the capacity of other hotlines globally, creating an 
environment in which victims of human trafficking can safely signal for 
help--anytime, anywhere. In doing so, Polaris contributes to the 
creation of a safety-net for survivors, connecting them to life-saving 
services, while also collecting data about the crime of human 
trafficking that is then analyzed for actionable insights aimed at 
disruption.
    Polaris cultivates and stewards trusted partnerships across a 
region, mapping the ecosystem and establishing response protocols with 
relevant stakeholders (e.g., law enforcement, service providers, 
survivors, etc.), building a safety-net that can effectively serve 
survivors and pursue tips. Secondary benefits of ecosystem mapping 
include a detailed understanding of where gaps in services and trained 
professionals exist, thus informing public policy, influencing the flow 
of funds to communities, and encouraging multi-stakeholder 
collaboration.
    Having responded to over 155,000 signals (calls, texts, webforms, 
and e-mails), Polaris now has one of the largest data sets on how and 
where human trafficking occurs in the United States. Recognizing that 
this data provides strategic insights for how to disrupt human 
trafficking networks, for the past three years, Polaris's Data Analysis 
Program has worked to standardize our data collection, package these 
standards for other hotlines and organizations around the world, and 
create global data sharing partnerships. Over time, these data-sharing 
platforms and analytics will offer Polaris and the broader field a 
global map and taxonomy of human trafficking operations, informing 
collaborative and holistic regional response and intervention 
activities.
    Codifying and implementing a data collection process, while an 
important first step, will not alone flip the low risk/high profit 
equation. The analysis of the data--and more specifically, identifying, 
mapping, and naming the unique sub-types of trafficking--is what 
enables meaningful disruption.
    In March of 2017, Polaris published The Typology of Modern Slavery: 
Defining Sex and Labor Trafficking in the United States (Typology 
Report). This report identified a framework of 25 unique types of human 
trafficking, each with the potential for numerous sub-types. This 
framework creates a new organizing principle that lays the groundwork 
for tailored prevention and disruption efforts, providing actionable 
insights to critical stakeholders seeking to inform and spur systemic 
action, better enabling diverse stakeholders to combat the crime within 
their spheres of influence.
    The Typology Report analyzed more than 32,208 cases of human 
trafficking documented between December
    2007 and December 2016 on the National Human Trafficking Hotline 
and BeFree Textline. This is the largest data set on human trafficking 
in the United States ever compiled and publicly analyzed.\1\ Data from 
55 percent of potential human trafficking cases are classified into 
distinct types. Case types range from escort services to domestic work, 
traveling sales crews to construction and landscaping. Some cases 
involve both commercial sex and forced labor. Some traffickers may use 
only one business model, while other traffickers may use several. For 
example, a trafficker sometimes may force a victim to engage in 
commercial sex in outdoor locations such as truck stops, and other 
times use an escort service model to force the victim to engage in 
commercial sex at hotels.
---------------------------------------------------------------------------
    \1\ The data do not represent the full scope of human trafficking--
a lack of awareness of the crime or of these hotlines in certain 
geographic regions, by particular racial or ethnic groups, and by labor 
trafficking survivors can lead to significant underreporting. 
Nonetheless, this information allowed us to expose the vulnerabilities 
in network business models and understand the ways that traffickers 
leverage and exploit legitimate businesses or institutions--such as 
social media, hotels, financial institutions, transportation systems, 
and government visas.
---------------------------------------------------------------------------
    The types tend to be more fluid in sex trafficking cases, and 
traffickers can be nimble and responsive to disruption efforts by 
changing their business models. Because many victims of labor 
trafficking are unaware that they are the victim of a crime or that 
there is a hotline to call for help, and because public awareness of 
labor trafficking is limited, the National Human Trafficking Hotline 
and Polaris's BeFree Textline received fewer calls about labor 
trafficking than sex trafficking. Only 16 percent of the cases 
identified on these hotlines involved labor trafficking. However, it is 
important to note that, globally, the International Labor Organization 
statistics state that labor trafficking is more prevalent than sex 
trafficking.\2\ Polaris strongly believes that labor trafficking cases 
in the United States are chronically underreported due to a lack of 
awareness about the issue and a lack of recognition of the significant 
vulnerability of workers in many U.S. labor sectors.
---------------------------------------------------------------------------
    \2\ http://www.ilo.org/global/about-the-ilo/newsroom/news/
WCMS_182109/lang-en/index.htm
---------------------------------------------------------------------------
    Of the data classified into distinct types, a range of sectors, 
both illicit and legitimate, were represented in the cases of human 
trafficking. The most reported type of human trafficking was escort 
services, a broad term used widely in the commercial sex trade, 
referring to commercial sex acts that primarily occur at temporary 
indoor locations. We received 4,651 reports of this type of sex 
trafficking. Following that type was illicit massage, health and beauty 
with 2,949 cases. This type of trafficking presents a facade of 
legitimate spa services, concealing that their primary business is the 
sex and labor trafficking of women. We received 1,643 cases of human 
trafficking related to outdoor solicitation for commercial sex and 
1,290 cases related to forced commercial sex within residential 
brothels. We also noted 1,190 cases of domestic or homecare workers 
providing cooking, cleaning, and caretaking services.
    Over the course of our research, Polaris noted the trafficker 
profiles, recruitment methods, victim profiles and methods of control 
unique to each type of trafficking. This research also enabled us to 
record the frequency with which human trafficking occurs in, or 
intersects with a variety of sectors. Some of these venues willingly 
engage in exploitation, but in most cases they unwittingly facilitate 
human trafficking due to a lack of oversight or a failure to understand 
the signs. Three key sectors that traffickers take advantage of include 
online technology, transportation systems, and the hospitality industry 
(hotels and motels).
Human Trafficking and the Internet
    The Internet plays a significant role in the recruitment of victims 
and the advertisement of human trafficking. Between December 7, 2007, 
and April 30, 2017, Polaris learned about 2,894 human trafficking cases 
that had some level of involvement with website/Internet locations at 
any point during the exploitation. Examples of human trafficking types 
include:

  <bullet> Remote Interactive Sexual Acts

  <bullet> Illicit Massage, Health, & Beauty Services

  <bullet> Escort Services

  <bullet> Arts & Entertainment

  <bullet> Bar, Strip Clubs, & Cantinas

  <bullet> Domestic Work

  <bullet> Illicit Activities

  <bullet> Personal Sexual Servitude

  <bullet> Residential Sex Trafficking

  <bullet> Outdoor Solicitation

  <bullet> Pornography

    During this time, Polaris also received reports of 104 cases of 
cybersex trafficking--where minors and adults are made to perform sex 
acts in front of a webcam as it is livestreamed to consumers.
    The Internet has become a place where traffickers advertise 
commercial sexual services with relative anonymity, providing an easy 
and cost-effective way to reach a wide selection of customers. Polaris 
regularly hears from survivors that they were advertised for commercial 
sex on a number of websites. One website which advertises commercial 
sex services listed nearly 12,000 national ads on a single day in 2014. 
In escort service sex trafficking alone, Polaris learned about 1,795 
cases that involved victims being advertised online. For more than five 
years, Polaris has raised serious concerns about how sex trafficking 
victims have been advertised online. We have served victims sold on 
websites in our programs, and we received nearly 2,000 reports of 
likely sex trafficking cases involving advertising websites through the 
National Human Trafficking Hotline. There are numerous online sites 
operating programs advertising commercial sex and we suspect that many 
of those advertised are sex trafficking victims.
    Polaris also received reports from 693 victims who specifically 
stated that they were recruited into their situation via the Internet. 
However, we've also found that victims are using the Internet to reach 
out for help, as in the case of the National Human Trafficking Hotline 
reporting webform. From helpline victim record data, Polaris learned 
that 679 victims had access to mobile applications and social media 
during their trafficking situation. This access can and should be 
leveraged to help victims find assistance.
    Organizations assisting at-risk populations have also built online 
education tools to better protect individuals from severe exploitation. 
A close partner to Polaris called Centro de los Derechos del Migrante 
collaborated with internationally recruited migrant worker leaders 
across Mexico and the United States to build Contratados.org, a website 
that provides migrant workers with a space to share and access 
previously unavailable information about recruitment and employment 
under the H-2 visa program. The project makes the recruitment system 
transparent and gives workers and advocates access to a Yelp-like 
review that migrant workers write based on their personal recruitment 
and employment experiences. Creative tools like Contratados can help 
transform the Internet from a place of potential exploitation to a 
source of education and empowerment.
    Furthermore, Polaris encourages law enforcement to bring charges 
against online platforms that knowingly create content that facilitates 
the sale of minors or adults being sex trafficked. In 2016, the Senate 
Permanent Subcommittee on Investigations published a report describing 
evidence that Backpage had edited or modified ads before they posted 
them--sometimes in order to conceal that commercial sex acts were being 
offered for money, and sometimes even to conceal the sale of someone 
who was a minor. It's been suggested that that's proactive facilitating 
behavior and negligence by Backpage, including clear knowledge that 
they knew sex trafficking was happening on their site. These are 
alarming findings and require immediate additional investigation.
Hospitality Industry (Hotels & Motels) Intersection with Human 
        Trafficking
    Between December 7, 2007, and April 30, 2017, Polaris operated 
hotlines identified 3,012 cases of human trafficking that intersected 
with hotels and motels (at some point during the course of the crime) 
including:

  <bullet> Traveling Sales Crews

  <bullet> Outdoor Solicitation

  <bullet> Escort Services

  <bullet> Hospitality (labor)

  <bullet> Begging and Peddling Rings

  <bullet> Arts & Entertainment

  <bullet> Construction

  <bullet> Domestic Work

  <bullet> Commercial Cleaning Services

  <bullet> Residential Sex Trafficking

  <bullet> Illicit Massage, Health, & Beauty Services

  <bullet> Bars, Strip Clubs, & Cantinas

  <bullet> Personal Sexual Servitude

  <bullet> Restaurant & Food Service

  <bullet> Pornography

  <bullet> Illicit Activities (labor)

    Hotels and motels are the most commonly reported venue for sex 
trafficking situations involving U.S. citizen victims. These sites 
allow for buyer confidentiality, since buyers can park at and enter 
these establishments without oversight. These locations also allow for 
traffickers to function without being responsible for facility 
maintenance, enabling them to move between locations avoiding 
detection. Of the 5,199 escort services cases Polaris learned about 
operating the National Human Trafficking Hotline and the BeFree 
Textline, 2,225 of these cases were based in hotels and motels. 
Stopping this type of trafficking is heavily dependent on eliciting the 
support and intervention of hospitality staff.
    As discussed in Polaris's Typology Report, labor trafficking is 
both present in the hotel industry's workforce and in its product 
supply chain. Since 2007, Polaris has learned about 124 cases of labor 
trafficking taking place directly on the grounds of hotels and motels. 
Traffickers have included hotel management or those who manage labor 
recruitment agencies that subcontract with hotels to provide cleaning 
or groundskeeping services. If the trafficker is a contractor, the 
hotel may not be aware of the abuse. Most commonly, workers were 
recruited with job offers that misrepresented the working conditions, 
wages, and the ability to safely leave the job. In other cases, workers 
were recruited via other fraudulent promises. Most victims are women 
and men from Jamaica, the Philippines, and India, and typically they 
are told that they will make lucrative wages to support family back 
home. Most victims enter the job with an H-2B visa, which restricts 
visa portability, tying victims to their abusive employer. J-1 visas 
are also used, though less frequently. U.S. citizen victims have also 
been reported.
    In addition to labor trafficking happening in hotels and motels, 
one lesser known type of labor trafficking that is extremely reliant on 
the hospitality sector to maintain operations is traveling sales crews. 
Polaris operated helplines identified 605 cases of labor trafficking 
occurring within traveling sales crews, which rely almost exclusively 
on hotels and motels to house their victims. Sales crews move between 
cities and states and go door-to-door, often selling fraudulent 
products such as magazine subscriptions that customers may never 
receive. The young salespeople (one-third of which have been minors) 
sell from morning until night and are controlled by traffickers who 
deny them food and restrict after-hours activity, including their sleep 
arrangements at hotels and motels. Data shows numerous linkages between 
sales crews and a larger national business network. It can be 
challenging to find these links because many organizations, 
particularly those with a long record of fraud-related complaints, 
frequently change their names and operating locations while remaining 
under the same ownership. (Please see Knocking At Your Door: Labor 
Trafficking on Traveling Sales Crews for more information.)
    With the input of survivors, industry leaders, and subject matter 
experts, Polaris has developed a set of recommendations that we believe 
can help raise awareness and, in turn equip and empower hotel owners 
and employees to help put a stop to human trafficking. Those 
recommendations are as follows (from Hotel Industry Fact Sheet):
Recommendations for the Hotel Industry
 1.  Formally Adopt A Company-Wide Anti-Trafficking Policy: Adopt a 
        policy that articulates your company's commitment to combating 
        all forms of human trafficking (sex and labor, adult and minor 
        victims, U.S. citizen and foreign national victims) at all 
        levels of your business. The Code of Conduct for the Protection 
        of Children from Sexual Exploitation in Travel and Tourism and 
        the United Nations Guiding Principles on Business and Human 
        Rights, are good places to start. Once adopted, the policy 
        should be clearly communicated and implemented at all levels, 
        to ensure there is no human trafficking on-site, within your 
        workforce, or within your company's sourcing/procurement supply 
        chains.

 2.  Train Staff On What To Look For And How To Respond: Training is 
        essential to identify and respond to human trafficking in your 
        business. Education should occur annually, at the point of 
        hire, and include staff at all levels (property owners, general 
        managers, and line staff), to identify when a suspicious 
        situation may be human trafficking. Trainings should 
        incorporate internal processes and protocols for how to respond 
        to and report human trafficking.

 3.  Establish A Safe & Secure Reporting Mechanism: Frontline staff, 
        franchisees and vendors/suppliers need a safe and secure method 
        to report concerns as they arise without fear of retaliation.

 4.  Develop A Response Plan For Your Business: Concerns of human 
        trafficking or severe labor exploitation need to be taken 
        seriously, investigated in a timely fashion, and remediated as 
        quickly as possible. Develop an internal process for responding 
        to and reporting human trafficking when it is suspected on-
        site, within your workforce, or within your supply chains.

 5.  Directly Hire Employees Whenever Possible: It is well documented 
        that the more removed or tenuous an employment relationship is, 
        the more vulnerable workers are to abuse, including debt 
        bondage and forced labor -two forms of human trafficking that 
        have been found in the hotel industry. If it's not possible to 
        directly hire, know your subcontractors and their recruitment 
        practices well; don't tolerate abusive practices.

 6.  Work With Suppliers And Vendors Who Responsibly Source Their 
        Products: Human trafficking can occur within your hotel's 
        procurement or vendor's supply chains. Whenever possible, 
        strive to purchase from businesses using fair trade and 
        responsible sourcing models, such as GoodWeave, The Fair Food 
        Program, and Servv. Hotels can start by switching to fair trade 
        certified coffee, or inviting these alternative businesses to 
        attend your next trade show.

  7.  Contact The National Human Trafficking Hotline (1-888-373-7888) 
        and BeFree (233733) Texting Helpline: These national resources 
        are available nationwide, toll-free, 24 hours a day, with tele-
        interpreting in over 170 languages for help or to report a 
        situation of trafficking. Our trained call specialists are 
        equipped to assess, provide safety planning, and refer to our 
        network of trafficking experts across the United States for a 
        targeted, victim- centered response.

    Polaris partners with leaders in the hospitality sector who have 
taken strides to tackle this issue, including Wyndham Hotels. Of 
particular note is our partnership with the American Hotel and Lodging 
Association (AHLA), Marriott International, and ECPAT-USA to make 
available a co-created training that addresses the issues of human 
trafficking as they intersect with the hospitality industry. The 
program defines human trafficking and commercial sexual exploitation of 
children, helps employees identify individuals who are most at risk for 
human trafficking, builds an understanding between labor and sex 
trafficking specific to the hotel sector, and explains the role of 
hospitality employees in responding to this issue.
    Moving forward, Polaris recommends that--at a minimum--hotels, 
franchisees, and smaller independent lodging establishments mandate 
trainings including the identification of victims and establishing and 
enforcing policies for obtaining goods and services free of forced 
labor.
Transportation Industry Intersections with Human Trafficking
    Almost every type of human trafficking, at some point in the 
recruitment or exploitation phase of the situation, involves the 
trafficker or victim using transportation routes. Victims find 
themselves taking buses, taxis, trains, and planes during the course of 
their trafficking experience. It is therefore imperative that 
transportation industry actors--bus operators, train conductors, toll 
booth operators, highway patrol officers, airline staff, and truckers 
take every step possible to educate themselves on the signs of human 
trafficking.
    From December 7, 2007, until April 30, 2017, the National Human 
Trafficking Hotline and the BeFree Textline learned about 909 human 
trafficking cases involving the following transportation systems (non-
cumulative, some cases involve multiple systems):

  <bullet> Buses: 407 Cases

  <bullet> Taxi/Commercial Driving Service: 142 Cases

  <bullet> Train/Rail: 76 Cases

  <bullet> Train/Metro: 42 Cases

  <bullet> Airlines: 317 Cases

  <bullet> Cruise Ships/Cargo Ships: 21 Cases

    Of these cases, 24 represent labor trafficking cases directly 
occurring within the transportation industry (e.g., trucking, shipping, 
taxi drivers, cruise ships, etc.).
    As mentioned above, there are several labor trafficking types that 
rely heavily on mobile contract labor also known as ``crews.'' Crews 
tend to be transported frequently from one worksite to another and are 
often found in human trafficking cases related to construction, 
landscaping, forestry, commercial cleaning services, and home health 
care. While we lack sufficient information on what exact modes of 
transportation contractors use to transport victims, it's clear that 
they rely on the infrastructure of streets, tolls, tunnels, bridges, 
etc. Carnival crews, while they are not sub-contractors, engage in 
regional travel as a core component of their business model and are at 
high-risk of trafficking. Additionally, Polaris has noted 142 cases 
human trafficking for domestic work that have connections to 
transportation systems such as airlines, taxis, buses, and trains. 
These systems were accessed at every phase of the trafficking 
situation: to facilitate a victim's entry into the exploitative 
situation, used during the exploitation (we often see domestic workers 
take taxis and public buses to grocery shop and run errands), or to 
escape a trafficking situation.
    Traffickers are also dependent on transportation systems and 
roadways to facilitate sex trafficking. Between December 7, 2007, and 
April 30, 2017, Polaris identified 1,179 cases of trafficking in the 
escort delivery model, whereby traffickers deliver victims to a buyer's 
hotel room or residence. We also identified 1,079 cases of street-based 
commercial sex and 667 cases of truck stop sex trafficking. Cases of 
sex trafficking related to illicit massage businesses recruit many 
victims from Southeast Asia who often intersect with airline services 
when coming to the U.S., either at the start of, or immediately prior 
to being trafficked. However, further research is needed to determine 
which percentage of these interactions act as entry points to the 
trafficking situation versus a new location. There is anecdotal 
evidence of traffickers using interstate bus lines to move women 
between illicit massage businesses. More research is required to 
understand the level of involvement, if any, that these companies and/
or drivers have with the traffickers.
    Buyers also engage transportation systems to access victims of 
forced commercial sex services. For organized residential brothels, 
limited data may suggest that buyers are using taxis and other 
commercial driving services in their visits to brothels in order to 
conceal their identity and not expose their license plates to possible 
detection.
    Thankfully, the transportation industry has acknowledged the 
presence of human trafficking in this sector and is taking steps to 
address it. Polaris has worked with industry leaders to improve 
awareness about human trafficking. We consulted as key advisors to the 
U.S. Department of Transportation's ``Putting the Brakes on Human 
Trafficking'' campaign, the U.S. Department of Homeland Security's 
``Blue Lightning'' campaign, partnered with taxi associations to 
identify trafficking in the City of Houston, and partnered with 
organizations like Truckers Against Trafficking as they engage truckers 
across the country, to name a few. Many of these partners encourage 
victims or those reporting tips to contact the National Human 
Trafficking Hotline. As a result, the Hotline continues to receive an 
ever increasing number of reports from victims or those wishing to help 
intervene in a situation.
    In 2017, Polaris launched a partnership with Delta Airlines to 
highlight and increase general awareness about the 25 types of human 
trafficking and how the airline industry might be exploited or used 
illicitly to facilitate it. Delta also established a special SkyMiles 
program offering its customers the ability to donate SkyMiles to 
Polaris to provide airline tickets to support survivors of trafficking 
to travel to their home country, to receive critical services, reunite 
with children or family, or engage in survivor leadership 
opportunities.
    To date, much of the private and public transportation sector 
engagement has focused on building awareness about the issue and 
increasing victim identification. However, it is common on the Polaris 
operated helplines to engage with victims and survivors who lack 
transportation to shelters or other critical resources. For example, 
the National Human Trafficking Hotline managed a case of two male labor 
trafficking victims in a rural town whose closest access to shelter was 
a three-hour drive away. The men had no money to reach the shelter. The 
Hotline had to work with local police to drive the men to the shelter. 
Where possible, we would encourage the public and private 
transportation sectors to identify ways to increase cost-effective or 
free transportation options to connect victims and survivors with 
critical resources and services.
Conclusion
    In 2016, reports of human trafficking cases in the United States to 
the National Human Trafficking Hotline jumped 37 percent, reaching over 
7,500 cases for the year. The Hotline received almost 27,000 calls in 
2016, up 22 percent from 2015. In just under a decade, we have seen 
calls to the National Hotline increase by nearly 650 percent.
    As awareness about this issue grows, Polaris expects human 
trafficking reports to increase. It will be critical for Congress to 
continue to provide adequate financial assistance to direct service 
programs to ensure support for the brave individuals seeking help. The 
Senate has introduced two complimentary bills: S. 1311, the Abolish 
Human Trafficking Act of 2017 led by Senators John Cornyn and Amy 
Klobuchar; and S. 1312, the Trafficking Victims Protection Act of 2017 
led by Senators Chuck Grassley and Dianne Feinstein, which among other 
things, reauthorize critical funding for victim service programs 
through the Department of Justice and the Department of Health and 
Human Services. Most significantly, both of these bills reauthorize the 
Trafficking Victims Protection Act of 2000 in a bipartisan, 
uncontroversial manner. Polaris urges Congress to continue working to 
ensure this legislation remains bipartisan and focused on consensus-
based ideas aimed at combating trafficking and most specifically, 
assisting victims.
    Congress should also make every effort to build a comprehensive 
understanding of the ways that this crime manifests in the United 
States. Polaris encourages congress to authorize funding for a holistic 
national prevalence study to try to determine the true size of the 
human trafficking issue in the United States. Making this a priority 
will provide both government, private sector, and advocates with an 
accurate account of the crime so we can best direct resources to 
prevent and disrupt it.
    In the meantime, Polaris continues to work with other international 
and national organizations to build out new datasets on human 
trafficking. One such initiative is the Counter-Trafficking Data 
Collaborative (CTDC), led by the International Organization for 
Migration and Polaris. The CTDC, launching later this year, will 
provide an open source, multi-stakeholder repository of data on human 
trafficking. Initially, the dataset will comprise information from 
IOM's global victim assistance database and Polaris's data. Anonymized 
datasets will be available for download and will be compatible with 
analysis software. We encourage Congress to support data efforts like 
this wherever possible.
    Private industry sectors should make every effort to ensure that 
their supply chains (made up of labor services and procured goods) are 
free of forced labor. Congress has the ability to require mandatory 
publication of supplier information. This should build on the 
California Transparency in Supply Chains Act and the more recent U.K. 
Modern Slavery Act and French law on corporate vigilance. Furthermore, 
Executive Order 13627 and the National Defense Authorization Act for 
Fiscal Year 2013 both require government contractors to create 
compliance plans to prevent human trafficking in the U.S. Government 
supply chain. Designating training and enforcement within government 
agencies, including the Department of Transportation and others would 
provide an extra layer of oversight to ensure that compliance plans are 
effectively upheld.
    Thank you, Mr. Chairman, and the members of the Committee, for your 
attention to this critical issue. Polaris looks forward to working with 
you to ensure that the U.S. Government continues to be a global leader 
in ending human trafficking.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, Ms. Sorensen.
    Ms. Goetsch.

   STATEMENT OF ESTHER GOETSCH, COALITION BUILD SPECIALIST, 
                  TRUCKERS AGAINST TRAFFICKING

    Ms. Goetsch. On behalf of Truckers Against Trafficking, I 
would like to thank Chairman Thune, Ranking Member Nelson, and 
the other distinguished members of this Committee for inviting 
us into this important hearing.
    We want to applaud the Committee's efforts to bring 
attention to the horrific crime of human trafficking, and 
recognize that it's going to take all of us--legislators, 
survivor-leaders, nonprofits, law enforcement officers, 
industry members, state agencies, and the general public--all 
doing our part to truly assist victims as well as prevent 
future ones.
    On January 6, 2015, an RV pulled into a truck stop in 
Virginia. Police were soon called to the scene. When they 
arrived, and after interviewing the occupants of the vehicle, 
the horrific story made headlines. A young woman, 20 years old, 
had been kidnapped 2 weeks prior out of Iowa. She had been 
beaten, raped, her whole body burned by instruments heated on 
the RV stove, branded, and starved.
    She was being sold by her traffickers, Laura Sorenson and 
Aldair Hodza, through sex ads on Craigslist, where men were 
purchasing her and then arriving to the RV to rape her. She was 
dying from malnutrition and the torture she was subjected to.
    Had the call not been made that brought law enforcement out 
to that truck stop, doctors said she would have died within the 
next few days. That call was made by professional truckdriver 
Kevin Kimmel, who recognized that something was off, something 
was wrong, and instead of turning a blind eye, he picked up the 
phone. She calls him her guardian angel. He calls himself a 
Trucker Against Trafficking.
    People ask us, why truckers? And there are actually quite a 
number of reasons why. At any given time, there are more truck 
drivers out on the roads than there are law enforcement 
officers. There are over 3 million CDL holders in America, 
making them truly the eyes and ears of our nation's roadways. 
Moreover, they are trained to be vigilant, and along with truck 
stop employees, can often find themselves intersecting with 
victims in a myriad of places. That's why we created TAT, to 
educate, equip, empower, and mobilize the United States 
trucking industry to combat human trafficking as part of their 
regular jobs.
    We have three main goals. The first is to saturate the 
trucking and related industries with our training materials, 
which are free of charge, readily available, and industry-
specific. To date, over 424,400 trucking industry members have 
been registered on our website as TAT trained. All 50 state 
trucking associations have now partnered with us, as well as 
the vast majority of the national associations.
    Our second goal is to partner with law enforcement and 
government agencies to facilitate the investigation of human 
trafficking. We work continuously to bring together trucking 
industry members with their local law enforcement and state 
agencies in an effort to close loopholes to traffickers. One of 
the ways we do this is through our coalition builds program, 
which are designed to establish an effective and sustainable 
working relationship between trucking and law enforcement 
statewide.
    We have held 29 coalition builds in 20 states across the 
Nation, partnering with 11 Attorneys General offices, as well 
as Homeland Security investigations, FBI, state police, and 
local law enforcement agencies. As a result, thousands in the 
trucking industry and hundreds of law enforcement officers have 
been trained on human trafficking.
    Thirty-one states have now adopted TAT's Iowa Motor Vehicle 
Enforcement model, in part or in whole. This model allows TAT 
to utilize the pre-existing overlap between commercial vehicle 
enforcement units and the trucking industry through weigh 
stations, ports of entry, interdiction stops, and mandatory 
safety compliance meetings within trucking companies.
    And our third goal is to marshal the resources of our 
partners to combat this crime. This is why in 2014, we created 
our Freedom Drivers Project, which is a 48-foot-long custom 
show trailer outfitted with actual artifacts from human 
trafficking cases as well as the stories of the real Truckers 
Against Trafficking and the many companies behind them that are 
out there on the frontlines every day across our Nation.
    In addition, TAT will be launching a demand campaign 
centered around the connection between purchasing commercial 
sex and sex trafficking, as it is imperative that buyers of 
commercial sex understand that they are driving this market. It 
is our hope that the professional drivers at the forefront of 
this campaign will create inspiration for more of these 
conversations to occur.
    And the great news is these programs have been working. 
According to the National Hotline, truckers have now made over 
1,836 calls identifying 525 likely human trafficking cases 
involving 972 victims, 315 of which are minors. And that's just 
one slice of the data pie, as we know that many drivers still 
contact 911 or their local sheriff's office.
    It is my great honor to appear in this important hearing. 
And TAT hopes to be a continued advocate and partner with all 
of those in attendance. It truly is going to take all of us. We 
must continue to turn critical populations who were once 
passive about this crime into a disruptive force. That is why 
TAT has taken steps to replicate its model across borders, 
across industry sectors, and across modes of transportation.
    We applaud the members of this Committee for the good work 
they are doing to strengthen laws that protect the vulnerable 
and exploited and see to it that their traffickers and those 
who purchase them are prosecuted to the full extent of the law.
    We also want to applaud the United States trucking 
industry, who serves as a model for what is possible when 
people know and care what is really going on, people who are 
willing to take that second look and be change-makers right 
where they're at.
    In closing, I would like to use the words of professional 
truckdriver and everyday hero Kevin Kimmel, who said, ``We need 
to get back to a place where if somebody is in need, we step up 
to help. There are a lot of things in life that aren't obvious, 
but this isn't one of them.''
    Thank you.
    [The prepared statement of Ms. Goetsch follows:]

   Prepared Statement of Esther Goetsch, Coalition Build Specialist, 
                      Truckers Against Trafficking
    On behalf of Truckers Against Trafficking (TAT), I'd like to thank 
Chairman Thune, Ranking Senator Nelson, and the distinguished members 
of the committee for inviting us to take part in this informational 
hearing. We applaud the committee's efforts to bring attention to the 
horrific crime of human trafficking, and recognize that it is going to 
take all of us . . . legislators, survivor-leaders, non-profits, law 
enforcement officers, industry members, state agencies, and the general 
public . doing our part to truly assist victims, as well as prevent 
future ones.
    On January 6, 2015, an RV pulled into a truck stop in Virginia. 
Police were soon called to the scene. When they arrived, and after 
interviewing the occupants of the vehicle, the horrific story made 
headlines. A young woman, 20 years old, had been kidnapped two weeks 
prior out of Iowa. She had been beaten, raped, her whole body burned by 
instruments heated on the RV stove, branded and starved. She was being 
sold by her traffickers, Laura Sorenson and Aldair Hodza, through sex 
ads on Craigslist, where men were purchasing her and then arriving at 
the RV to rape her. She was dying from malnutrition and the torture she 
was subjected to . . . had the call not been made that brought law 
enforcement out to that truck stop, doctors said she would have died 
within the next few days. That call was made by Florida-based, 
professional truck driver Kevin Kimmel, who recognized that something 
was off--something was wrong--and instead of turning a blind eye, he 
picked up the phone. She calls him her guardian angel. He calls himself 
a Trucker Against Trafficking.
    People ask us, why truckers? And there are actually quite a number 
of reasons why. At any given time, there are more truck drivers out on 
the road than there are law enforcement officers. There are over 3 
million CDL holders in America and they truly are the eyes and ears of 
our Nation's highways. Moreover, they are trained to be vigilant, and 
along with truck stop employees, can find themselves intersecting with 
victims of human trafficking in a myriad of places. That's why we began 
TAT . . . to educate, equip, empower and mobilize the United States 
trucking industry to combat human trafficking as part of their regular 
jobs.
    We have three main goals. The first is to saturate trucking and 
related industries with training materials which are free-of-charge, 
readily available and industry-specific. To date, over 329,800 trucking 
industry members have been registered as TAT Trained on our website. 
All 50 state trucking associations have now partnered with TAT, as well 
as the vast majority of national trucking associations.
    Some of our partners include the American Trucking Associations, 
the Truckload Carriers Association, the Owner Operator Independent 
Drivers Association and the National Association of Truck Stop 
Operators.
    Our second goal is to partner with law enforcement and government 
agencies to facilitate the investigation of human trafficking. We work 
continuously to bring together trucking industry members with their 
local law enforcement and state agencies in an effort to close 
loopholes to traffickers. One of the ways we do this is through our 
coalition build program which is designed to establish an effective and 
sustainable working relationship between the trucking industry and law 
enforcement statewide, in order to combat the crime of human 
trafficking. TAT has held 29 coalition builds in 20 states across the 
nation, partnering with 11 Attorney's General offices, as well as 
Homeland Security Investigations, FBI, state police and local law 
enforcement agencies. As a result of these meetings, thousands in the 
trucking industry and hundreds of law enforcement officers have been 
trained on human trafficking.
    Thirty-one states have now adopted TAT's Iowa Motor Vehicle 
Enforcement model, in part or in whole. This model allows TAT to 
utilize the pre-existing overlap between commercial vehicle enforcement 
units and the trucking industry through ports of entry, weigh stations, 
interdiction stops and mandatory safety compliance meetings within 
trucking companies.
    This model also allows TAT to activate often overlooked state 
agencies in combating human trafficking, insofar as the Department of 
Transportation, Department of Motor Vehicles, Department of Revenue, 
Department of Licensing and Department of Public Safety now have 
specific pathways to help equip and educate an industry on the front 
lines of combating human trafficking.
    Our third goal is to marshal the resources of our partners to 
combat this crime. This is why in 2014, we created the Freedom Drivers 
Project, a 48,-long custom show trailer outfitted with actual artifacts 
from human trafficking cases, as well as the stories of the real 
Truckers Against Trafficking, and the many companies who are on the 
front lines everyday combating this crime across our Nation.
    The FDP has already completed 88 events in 28 states, traveling 
over 89,900 miles, with 20,700 people walking through its doors, making 
it a very innovative and effective tool in educating critical 
stakeholders, and rallying members of the media and the general public 
to this cause.
    Moreover, with the help of the American Trucking Associations Road 
Team Captains, as well as Walmart, CFI Industries, and additional 
trucking companies, industry ambassadors have begun to train rotary 
members, their local churches and schools, as well as each other on the 
realities of human trafficking and how to report it effectively. In 
addition, TAT will be launching a demand campaign centered around the 
connection between purchasing commercial sex and sex trafficking, as it 
is imperative that buyers of commercial sex understand that they are 
driving this market. It is our hope that the professional drivers at 
the forefront of this campaign will create inspiration for more of 
these conversations to occur.
    And the great news is, these programs are working. According to the 
National Human Trafficking Hotline, truckers have now made 1,836 calls, 
reporting 525 cases of potential human trafficking identifying 972 
victims, with 315 of those being minors.
    And that's only one slice of the data pie, as we know that many 
drivers still contact 911 or their local sheriff's office to report 
this crime. To that end, TAT conducted its own survey in 2016 and found 
that out of the 1,500 truck drivers and truck stop employees who 
responded, that an additional 521 victims of sex trafficking were 
identified, with the vast majority of these cases being reported via 
911 or to their local sheriff.
    If every driver and truck stop employee had this life-saving 
information and training, imagine how many more calls will be made, 
imagine how many victims will be recovered out of this horrible 
reality, how many perpetrators--both the traffickers AND the buyers of 
commercial sex--will be arrested.
    It is my great honor to appear in this important hearing, and TAT 
hopes to be a continued advocate and partner with all of those in 
attendance today to combat human trafficking. It truly is going to take 
all of us. We must continue to turn critical populations who were once 
passive about this crime into a disruptive force. This is why TAT has 
taken steps to replicate its model across borders, across industry 
sectors, and across modes of transportation. We applaud the members of 
this committee for the good work they are doing to strengthen laws that 
protect the vulnerable and exploited, and see to it that their 
traffickers, and those who purchase them, are prosecuted to the fullest 
extent of the law. We also applaud the United States trucking industry 
who serves as a model for what is possible when people know and care 
about what is really going on out there. People who are willing to take 
a second look and become change-makers right where they're at. In the 
words of professional driver and everyday hero Kevin Kimmel, ``We need 
to get back to a place where if there's somebody in need, we step up to 
help. There are a lot of things in life that aren't obvious, but this 
isn't one of them.''

    The Chairman. Thank you, Ms. Goetsch.
    Mr. Goswami.

 STATEMENT OF SAMIR GOSWAMI, TECHNICAL CONSULTANT, TECHNOLOGY 
   SOLUTIONS TO TRAFFICKING IN GLOBAL SUPPLY CHAINS, ISSARA 
                           INSTITUTE

    Mr. Goswami. Chairman Thune, Ranking Member Nelson, and 
members of the Committee, thank you for inviting the Issara 
Institute to discuss human trafficking and working conditions 
in the seafood industry in Southeast Asia. We are grateful that 
this body is exploring ways that it can assist the hundreds of 
thousands of victims of forced labor and human trafficking who 
are exploited every day in the process of satiating a global 
appetite for seafood.
    I'm an advisor to the Issara Institute, an independent U.S. 
nonprofit based in Southeast Asia tackling the issues of human 
trafficking and slavery through technology, partnerships, and 
innovation. Today, I will highlight some of the pervasive 
challenges faced in Thailand's seafood industry and the 
solutions that we deploy in partnership with the private 
sector, including many U.S. retailers.
    The great majority of the estimated 4 million migrant 
workers in Thailand, many of whom are working in factories or 
farms making products that are exported to the United States, 
are from the poor neighboring countries of Myanmar, Cambodia, 
and Laos. Among these workers are an estimated 500,000 victims 
of trafficking and forced labor that remain unidentified and 
unassisted, especially in high-risk fishing and the seafood 
industry. We have found that debt bondage, illegally low pay, 
and excessive working hours are experienced by over 75 percent 
of the migrant workforce.
    The Thailand seafood industry has an annual worth of 
approximately $7.3 billion, exporting roughly 500,000 tons of 
shrimp alone, an estimated 40 percent of which comes to the 
United States. Additionally, ``trash fish,'' about a third of 
all fish caught in sea, is processed into feed for shrimp, 
fish, and poultry, farmed for export to American supermarkets. 
A huge challenge to concerned U.S. retailers and brands has 
been knowing exactly which of the thousands of farms and plants 
and fishing boats across Asia are in their supply chain.
    The first-tier processing plants selling the products that 
end up in our grocery shelves are well known, however, the deep 
supply chains behind them generally are not, even though the 
California Transparency in Supply Chains Act encourages 
businesses to disclose efforts to eradicate human trafficking 
from across their supply chain, and even the U.S. Tariff Act 
prohibits the importation of goods made by forced and child 
labor. This puts U.S. supply chains and consumers at great 
risk.
    To quote Detective Chief Phil Brewer, the head of Scotland 
Yard's anti-slavery police unit, ``Everyone realizes now we're 
never going to police our way out of this.'' This is our 
conclusion in Asia as well. The hundreds of thousands of 
victims and exploitative brokers, agents, and employers cannot 
possibly all end up in shelters or behind bars. It simply might 
not be possible to help all the victims and prosecute all the 
criminals solely with a criminal justice-based approach.
    There are other ways to tackle trafficking supply chains. 
Exploitative labor conditions can and should be transformed 
into decent working conditions through supply chain leverage. 
We are developing new models of collaboration between other 
U.S. NGO and leading American brands and retailers with the 
support of key donors, including the U.S. Agency for 
International Development and the U.S. State Department's 
Office to Monitor and Combat Human Trafficking. Together, we 
are using partnerships with business, data and technology, and 
on-the-ground solutions to identify labor risks and root out 
illicit practices in the production of products that reach the 
U.S.
    For example, since most migrant workers in Thailand own and 
use smartphones, we run a 24-hour helpline in four languages, 
and social media and chat applications that leverage 
smartphone-based communication channels that workers already 
use. With the support from USAID and the Walmart Foundation, we 
have developed a Yelp-like app in Burmese that allows workers 
to rate, review, and comment on their employers and recruitment 
agencies. These multiple technology-enabled channels generate 
data, providing Issara with a constant pulse on labor 
situations across many multitiered supply chains.
    Issara is currently partnering with about 14 leading global 
brands, retailers, supermarkets, and restaurant chains to 
identify and eliminate risks of trafficking and forced labor in 
their Thai supply chains. These business partners share their 
supplier data confidentially with us, and we work directly with 
those suppliers to identify labor risks and provide solutions.
    We find forced labor and human trafficking where most 
audits and government inspections do not because their systems 
are not designed to collect information directly from workers. 
They mostly rely on what employers tell them, which can be a 
rosier story than what the truth is. Our data channels enable 
government--multinational businesses to get a direct view of 
labor conditions across their supply chains no matter how 
complex.
    However, it takes more than just data and technology. Staff 
have to be on the ground to constantly validate incoming data 
and to help push suppliers to respond to it. In Southeast Asia, 
suppliers receive free technical advice from Issara to address 
urgent labor issues. If they fail to respond to validated 
findings, they risk being cut out from our partner companies' 
supply chain. Together, we make sure all workers have their 
passports in hand, are not debt-bonded, have legal contracts, 
are paid legally, and pay back remediation if needed. We also 
promote decent living conditions and safe access to grievance 
mechanisms without fear of reprisal.
    Responsive suppliers get to stay linked with U.S. key 
supply chains and distinguish themselves by having greater 
transparency and superior ethical sourcing through independent 
worker voice and worker data-centered systems.
    In conclusion, in the past year, the Issara model has 
directly and positively impacted the lives and working 
conditions of over 600,000 migrant workers. Over 5,000 were 
once in forced labor conditions and are now in decent work 
being paid fairly.
    Most American brands should fully incorporate credible, 
effective due diligence and remediation systems into core 
sourcing functions. It's a better and more efficient way to do 
business, and it's a more American way to do business, given 
our longstanding moral commitments to ending human trafficking 
and slavery.
    Thank you very much.
    [The prepared statement of Mr. Goswami follows:]

 Prepared Statement of Samir Goswami, Technical Consultant, Technology 
   Solutions to Trafficking in Global Supply Chains, Issara Institute
Introduction
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, thank you for inviting the Issara Institute to be here today 
to discuss human trafficking and working conditions in the seafood 
industry in Southeast Asia, and exciting emerging models for 
identifying and eliminating forced labor and human trafficking in 
global supply chains.
    The International Labor Organization reports there are more than 20 
million people in forced labor today--about double the number in 
bondage during the transatlantic slave trade. Human trafficking is as 
much a moral issue as an economic one--pervasive in Thailand's seafood 
sector, an issue that I will speak to today. We are grateful that this 
body, with its oversight of shipping, transportation security, merchant 
marine, the Coast Guard, oceans and fisheries, is exploring ways that 
it can assist the hundreds of thousands of victims of forced labor and 
human trafficking who are exploited daily in the process of satiating a 
global appetite for seafood.
    I am an advisor to the Issara Institute, an independent U.S. 
501(c)(3) not-for-profit corporation based in Southeast Asia tackling 
issues of human trafficking and forced labor through technology, 
partnerships, and innovation. The Institute was established in 2014 by 
a team of anti-trafficking experts coming out of the United Nations who 
created an alliance of private sector, civil society, and government 
partners to address labor issues in global supply chains. Today, I will 
highlight some of the pervasive challenges that we observe in 
Thailand's fishing industry, and the solutions that we deploy, often in 
close partnership with the private sector, including leading U.S. 
retailers.
    Traffickers often exploit the economic and social vulnerability of 
those migrating within Southeast Asia, looking for better economic 
opportunity. For example, the great majority of the estimated 4 million 
migrant workers in Thailand--many of whom are working in factories or 
farms making products that are sent to the United States and Europe--
are from the poorer neighboring countries of Myanmar, Cambodia, and 
Laos. Our experience and research strongly suggests that the scale of 
the forced labor issue has proven to be simply too large for government 
and criminal justice-oriented approaches alone to drive down. Hundreds 
of thousands of victims of trafficking and forced labor remain 
unidentified and unassisted annually, and extremely high rates of labor 
abuse plague high-risk industries such as fishing--3 out of 4 fishermen 
on Thai vessels are debt-bonded, for example.
    Certainly, more can be done by the destination-side governments in 
Asia to vigorously enforce local laws and international protocols to 
punish traffickers and protect the rights of exploited and trafficked 
migrant workers. However, I am here today to discuss some of the most 
promising and exciting emerging models to eliminate forced labor and 
human trafficking in global supply chains, including multi-tiered and 
complex supply chains such as shrimp. These new emerging models center 
on partnership with American and European brands and retailers to fix 
the broken business systems--that is, primarily, migrant labor 
recruitment and management--within global supply chains that have 
allowed such high rates of forced labor and debt bondage to persist. 
These models have developed on the other side of the world, through 
collaboration between our American NGO and leading American (and now 
also European) brands and retailers, and with the support of key donors 
including the U.S. Agency for International Development and the U.S. 
State Department Office to Monitor and Combat Human Trafficking. 
Together, we are using partnerships with business, data and technology, 
and on-the-ground solutions to empower worker voices, identify risks 
and root out illicit practices in supply chains leading to the U.S. We 
also encourage local suppliers to reform their systems, and create fair 
and just worker recruitment and workplace experiences for hundreds of 
thousands.
The Scale and Severity of the Trafficking Problem in the Fishing 
        Industry
    According to the World Wildlife Fund, more than 85 percent of the 
world's fish stocks are at risk of illegal, unreported and unregulated 
fishing. While much attention is paid to over fishing, traceability, 
depleted fish stocks, and unhealthy toxins that contaminate the seafood 
we consume, there is increased awareness of the labor exploitation that 
is also endemic in the industry.
    Thailand's seafood industry has an annual worth of approximately 
$7.3 billion exporting roughly 500,000 tons of shrimp alone, an 
estimated 40 percent of which are to the United States. The Thai 
government estimates that up to 300,000 people work in its fishing 
industry, the great majority of whom are foreign migrant workers. The 
United Nations estimates that the industry faces a shortage of about 
50,000 workers every year, which is often filled by illicit recruiters 
who use deceptive practices to enlist desperate migrant job seekers 
from Myanmar, Cambodia, or Laos, or even employ force and coercion to 
traffic migrants to work in the industry. Migrant workers' 
vulnerability at the fisheries level is exacerbated by informal bans 
imposed by the Myanmar and Cambodian governments, which prohibit 
recruitment of their citizens on to Thai fishing vessels through formal 
channels. This means that, with the labor recruitment systems currently 
set up by the source and destination governments, there is currently no 
formal, regulated channel through which migrants can be recruited and 
placed into the Thai fisheries.
    About 90 percent of the seafood consumed in American households is 
imported; and, ``forage fish'' or ``trash fish'', about a third of all 
fish caught at sea, ends up being made into feed for shrimp, 
aquaculture, poultry, and other animals farmed and raised for export 
into American supermarkets. This puts us at risk of inadvertently 
supporting illegal and often unconscionable practices. The shortage of 
workers and the high prevalence of debt-bonded fishermen (76 percent, 
according to the Institute's latest prevalence estimates), along with a 
high demand from the U.S. and Europe for inexpensive seafood products, 
drives the need for cheap labor that is met by exploitative and often 
unregulated and illicit labor practices. Thus, the exploitation of 
those employed in Thailand's seafood industry, both on-shore and on 
Thai fishing vessels fishing in Thai waters and beyond, to the coasts 
of Indonesia, Australia, and Africa, has global implications.
    Issara Institute's research and ongoing fieldwork in the factories, 
ports, and piers of Thailand's seafood industry clearly demonstrates 
that labor abuses on Thai fishing vessels is systemic. Rates of debt 
bondage, illegally low pay, and illegally excessive working hours are 
found in over 75 percent of the commercial fishing migrant workforce. 
This includes vessels going out to sea for just days or a couple weeks, 
in addition to those more famously known for being out at sea for 
months or years at a time. Working conditions are intense and hazardous 
and tightly controlled by boat captains and net supervisors, both when 
vessels are at sea and when they are at port, where the men often have 
very little freedom of movement and are made to mend nets and perform 
other tasks. Labor risks are highest by far on trawlers as compared 
with purse seiners, squid boats, or long-liners. Trawlers catch the 
low-value ``trash fish'' that is made into animal feed, as well as 
anything and everything else that gets trapped in the trawling nets 
that are dragged along the ocean's surface for hours at a time.
    Conditions on-shore are far from perfect but generally better than 
at sea. Obviously, factories and farms are easier to inspect and 
regulate than fishing vessels--not only by government inspectors, but 
also by auditors and representatives of concerned retailers, 
restaurants, supermarkets and the food service industry. The main 
challenge to concerned retailers and brands has been knowing exactly 
which of the thousands of farms, feed mills, and fishmeal plants across 
Thailand and Southeast Asia are in their supply chain. The first-tier 
processing plants from which they purchase the products that end up on 
our grocery shelves are well known, but the deep supply chains behind 
them generally are not--even though the California Transparency in 
Supply Chains Act mandates that businesses make efforts to eradicate 
human trafficking from across entire supply chains and not just the 
first tier.
    Take for example the case of Maung Nge, a young, orphaned Burmese 
boy who, after losing both his parents, migrated to Thailand at the 
encouragement of a family friend. At age eleven, Maung Nge started work 
on a Thai long-haul fishing vessel that travelled into Indonesian and 
Malaysian waters, spending over a year out at sea, only returning to 
shore when the boat broke down. He spent the next six years working on 
different fishing vessels, all as a child. One day he was arrested by 
Thai police who exploited his lack of documentation and demanded a 
bribe of 4,000 Thai Baht ($114) in order to be released. When he could 
not pay, he was beaten and `sold' by the police to a broker, who 
demanded he work on a fishing boat to pay off his debts. This broker 
took all of Maung Nge's earnings, and for the next 15 years, he was 
forced to work 16-20 hour days on a fishing boat to pay back his debts. 
Maung Nge was beaten frequently, witnessed the torture and murder of 
his fellow fishermen, was threatened at gun point, and was forced to 
take illicit amphetamines to stay awake and work harder.
    Sadly, Maung Nge's experience is not uncommon, as demonstrated not 
only by Institute research but also verified by a recent New York Times 
investigation. They found that fishermen on Thai boats worked 18 to 20 
hours in over 100 degrees in the summer. Their Thai fishing boat 
captains had paid a ``fee per head'' to smugglers and traffickers which 
trapped migrants in a system of debt bondage, working years to pay off 
an artificial and often illegal debt, enduring much suffering along the 
way.
    The experiences of Maung Nge are illustrative of the exploitation 
that recruiters, traffickers, boat captains and corrupt police 
officials perpetrate, establishing a system of collusion that leaves 
workers, especially migrants, with very few options and access to 
remedy. From Issara's extensive fieldwork, casework, and research, it 
is clear that illegal overwork, underpay, and debt bondage--key 
elements of human trafficking--are widespread in Thailand. Make no 
mistake, this is a system of indentured servitude being practiced today 
with local victims and global ramifications. Yet, according to the 
recently released Trafficking in Persons Report by the U.S. State 
Department, despite the prevalence of forced labor in Thailand, the 
government reported that it only conducted a woefully small 83 
investigations and 62 prosecutions involving suspected cases of forced 
labor. A seemingly minuscule number compared to the scale of 
exploitation that has been documented.
Impact on American Consumers
    While exploited, debt-bonded, and trafficked migrant workers toil 
in Thai fishing vessels and processing facilities, the product reaches 
American restaurants, kitchen tables and the cafeterias of military and 
civilian facilities. Americans consume 1.3 billion pounds of shrimp per 
year, about 4 pounds per person--much of which is impacted by forced 
labor or other forms of exploitation in its harvesting or processing. 
Undoubtedly we all agree that this defies our values, however, an 
Associated Press investigation revealed that supermarkets in all 50 
states sold shrimp products from supply chains tainted with forced 
labor. Such shrimp was found by the AP in the products of 40 U.S. 
brands, in more than 150 grocery stores across urban and rural 
America--exposing millions of American consumers.
Groundbreaking Solutions Through Partnership, Data and Technology, and 
        Innovation
    Last Saturday, on July 8 2017, the head of Scotland Yard's anti-
slavery police unit, Detective Chief Inspector Phil Brewer, stated to 
media about forced labor and human trafficking that ``Everyone realizes 
now we're never going to police our way out of this.'' This is 
certainly the conclusion we have come to in Asia as well. With millions 
of victims and thousands if not millions of exploitative brokers, 
agents, employers, and other criminal elements, what is the vision--
that the millions of victims are identified and put in shelters, and 
the perpetrators are all put in prisons? If all victims cannot be 
assisted, what fraction do we aspire to help, and who gets prioritized 
and deprioritized--if we can even imagine having to make such 
decisions, which are actually being made every day? How many dedicated 
law enforcement officers, social workers, and prison and shelter beds 
would be required for this kind of justice?
    When we can see how the slavery in Asian supply chains touches us 
in America, it is fair and high time for us to be involved in creating 
the vision for the solution. This, at least, was the attitude of 
Walmart and nine UK retailers and seafood importers in 2014, when the 
newly established Issara Institute formed the first pilot partnerships 
to end slavery in seafood supply chains. Issara's system is basically 
one where we incentivize and enable multinational businesses to get a 
direct view of labor conditions across their supply chain, no matter 
how complex; pressure local suppliers to either eliminate their labor 
risks and abuses or get cut from the supply chain; and, offer technical 
assistance to progressive suppliers to fix broken labor recruitment and 
management systems. That is, make sure all workers have their passports 
in hand, are not debt-bonded, have legal contracts, are paid legally, 
have decent living conditions, safe access to grievance mechanisms 
without fear of reprisal, and so on--from the biggest processing plants 
to the smallest piers. Just in the past year our model has directly and 
positively impacted the lives and working conditions of over 60,000 
migrant workers, over 5,000 of whom were in forced labor conditions and 
who are now in decent work--being paid fairly and with freedom of 
movement, with no shelters, no separation from families or other 
ethical dilemmas, and no protracted and corrupted court cases. And we 
did it all on a budget of approximately $1 million, coming from a 
combination of development donors and corporate partners. No other 
anti-trafficking NGO response has been able to achieve this level of 
effectiveness or efficiency in eliminating forced labor, perhaps 
because we have been able to get to the root of the broken business 
systems that create and perpetuate forced labor, and force change 
through supply chain leverage. The three key elements of the model are 
partnership with business, data and technology, and on-the-ground 
solutions: Taking a collaborative and science-driven approach but also 
an on-the-ground, within-supply chains-based methodology that draws 
upon the leverage that multinational brands have to drive improvements 
in their supply chains.
Technology Innovation for Human Rights and Business Due Diligence: 
        Worker Voice
    In Southeast Asia, the majority of migrant workers own and use 
smartphones. Over 90 percent of the estimated nearly 4 million Burmese 
migrant workers in Thailand own smartphones with data packages. Mobile 
phone usage is similarly saturated in Cambodian and Lao populations in 
Thailand. This mobile penetration has greatly enhanced Issara's ability 
to reach out to and listen to workers to ensure that their actual 
experiences inform the solutions that we deploy with our brand 
partners.
    Issara Institute runs a 24-hour helpline in four languages, and 
utilizes social media and chat applications like Line, Viber and 
Facebook that leverage smartphone-based communication and social media 
channels that workers already use. Through these multiple technology-
enabled channels, in 2016 over 60,000 workers were linked to Issara, 
communicating with our staff in their own language and enabling us to 
have a constant pulse on the voice of thousands of workers across 
multi-tiered supply chains. These multiple channels enable us to 
successfully access remote and hard-to-reach populations, including 
migrant workers at sea. We aggregate the data collected from these 
various sources to uncover risks in complex supply chain operations--
pinpointing specific exploitative actors.
    With support from USAID and Walmart Foundation, Issara has also 
recently launched the Golden Dreams Burmese-language smartphone app, a 
Yelp-like platform for Burmese current and prospective migrants to 
learn and exchange information, reviews, ratings, comments, and advice 
about employers, recruiters, and service providers, in both home and 
destination countries.
    While technology provides unprecedented insight, it complements and 
does not replace on the ground action. Thus, Issara field teams 
establish rapport with workers and communities to ensure that we are 
addressing their stated needs and priorities. Online and offline, 
continuous communication with workers builds relationships and trust, 
enabling better data collection. The information and feedback is then 
turned into action: It directly shapes the interventions and 
improvements made by the hundreds of suppliers of the 14 brands we 
partner with and support.
Partnership with Business & Solutions through Inclusive Labor 
        Monitoring
    Issara is currently partnering with 14 leading brands, retailers, 
and importers, including Nestle, Walmart, Mars, Red Lobster, Tesco, 
Marks and Spencer, Sainsbury's and Waitrose, to identify and address 
risks of trafficking and forced labor in their Thailand export-oriented 
supply chains. We do this through a new approach we call Inclusive 
Labor Monitoring, whereby business partners share their confidential 
supply chain data, and our team on the ground works directly with their 
suppliers (all tiers) to identify labor risks and support solutions 
that are ``owned'' by the supplier. The approach is inclusive because 
all workers have the opportunity to individually share information in-
confidence at their own time and location of choosing, and receive 
assistance and support via Issara's multiple worker voice channels.
    Issara builds trust with workers by engaging with them at the 
factory, in the community, and sometimes pre-departure in their home 
countries before migrating, and provides meaningful and timely 
information to help them navigate their journey. Trust is key because 
it underpins successful worker voice systems, and provides the concrete 
details for business and suppliers to understand what is happening in 
their factory and to take action. This is particularly important when 
it is a foreign migrant workforce that does not speak the same language 
as the supplier's human resources and management staff, as in the case 
of Thailand. Lack of trust is why social audits, where an auditor 
visits a factory for a few hours or days, or internal supplier 
grievance mechanisms or government-run hotlines are not always 
successful at exposing many of the complex and hidden issues related to 
forced labor, debt bondage, and trafficking in persons.
    Once worker voice information comes to Issara, we validate the data 
and then provide the supplier with the anonymized feedback for action. 
Corrective and preventive actions are developed in collaboration with 
Thai suppliers when labor issues are found. Suppliers have been 
supportive of this approach because Issara Inclusive Labor Monitoring 
is of no cost to them; they receive reliable business intelligence 
about what is happening in their workplace and workforce; there is free 
technical advice from Issara to help address issues; and, findings are 
kept confidential. But the suppliers are also held accountable to 
implement reforms since the brands and retail partners receive reports 
of issues in their supply chain, as well as the actions and progress 
suppliers are taking to address them.
    The end result is an integrated model where both workers and 
business see benefits, and there is impact to address trafficking in 
persons at scale. Having started out as a pilot in 2014, the Issara 
Inclusive Labor Monitoring approach has already made fundamental 
changes to exploitative working conditions for over 60,000 workers last 
year, with over 5,000 of those directly helped out of situations of 
trafficking or forced labor.
Conclusion: Scaling Solutions and Driving Change through Global Supply 
        Chains
    Technology has greatly increased our ability to uncover once-hidden 
exploitation and hear directly from victims by the thousands. 
Importantly, it is their experiences that can now inform interventions 
and solutions. Too often we gravitate to the most horrendous stories of 
exploitation and violence and develop extreme responses such as raid, 
rescue, and forced shelter that often do harm and impinge on the 
fundamental rights and dignities of workers. It is time to simply 
change the system--to transform workplaces--and transform exploitative 
labor conditions into decent working conditions through supply chain 
leverage and technical assistance.
    Most labor exploitation occurs in places like Southeast Asia not 
because of thousands of ``bad guys,'' but because of decades' absent 
industry regulation or enforcement of basic labor standards such as 
giving workers contracts, pay slips, discrimination-free environments, 
and the right to voluntarily accept or decline overtime. Issara has 
extensive experience working with Thai suppliers of seafood and 
agricultural products to the United States. When suppliers are offered 
model contracts, pay slips, and other tools that are multi-lingual and 
designed in compliance with relevant laws and buyer standards, and 
trained on how to manage workers, their documents, and so on, these 
businesses often readily adopt these tools and new approaches, and 
change their systems to be more compliant with the law and buyer codes 
of conduct. These businesses are not running highly informal, 
substandard systems for the purpose of being horrible greedy people, 
but rather because it's the way business has been done for decades 
absent effective government regulation. And if they were audited, 
especially beyond the first tier, it was not likely on social issues or 
with independent feedback mechanisms, like a worker helpline, in place 
where these issues would come to light. The good news is that in our 
experience once these businesses adopt new systems, policies, and 
approaches to recruiting and managing workers, and build their 
institutional capacity, they are extremely unlikely to backpedal back 
into not using contracts and pay slips, or not using systems they 
themselves created (with our assistance). There is no incentive to 
actively break down what has been built up, and in fact there is 
incentive from their global customers to maintain their higher 
standards.
    So, how to foster this positive behavior from global customers--
such as American retailers and supermarkets--to incentivize their 
suppliers in global supply chains to adopt less exploitative systems? 
How do they open themselves up to collaboration with NGOs that can help 
them build and reform their systems to drive trafficking risk out of 
these supply chains that touch American customers? Government can play, 
and has played, a key role in incentivizing and stimulating such 
adoption. The California Supply Chain Transparency Act and UK Modern 
Slavery Act have compelled many companies to investigate and disclose 
their own diligence processes and procedures. USAID's Supply Unchained 
Initiative and U.S. State Department funding to organizations with 
boots on the ground and science and technology capacity such as Issara 
Institute has enabled the development of the tools and innovation 
needed to actually root out and crowd out exploitative labor practices.
    What else needs to be done to capitalize on these recent 
advancements and successes? Only a few multinational companies who face 
these supply chain risks have adopted such solutions at an enterprise 
level. Despite increasing regulatory frameworks and fears of 
reputational risks, conducting systematic due diligence for human 
trafficking does not appear to have become part of standard operating 
procedure for many brands and is often relegated to separate, limited 
corporate responsibility or ethical sourcing departments. Brands and 
retailers need to fully incorporate credible and effective diligence 
for human trafficking and forced labor into core sourcing functions, 
and invest in the optimal products and partnerships for their business 
needs. Knowing and mapping your supply chain, and conducting due 
diligence--preferably utilizing worker voice mechanisms as a more 
effective means to generate primary data and business intelligence--
will help identify the solution areas that need to be focused. New 
technology tools and migrant worker access to smart phones is unlocking 
opportunities to identify trafficking and forced labor risks, and to 
interact with workers, in ways that were simply were not possible just 
a few years ago. American business investment in supply chain 
improvement, and seeking (and rewarding) suppliers that are open to 
change and workplace transparency, will spur further innovations, drive 
down costs, enable expanded data collection and sharing, and fuel 
scaling. Most importantly, U.S. brand investments and commitments can 
ensure that workers' rights are protected and violations prevented, and 
that long term responsible sourcing practices are advancing to drive 
solutions and change through global supply chains.
    Further support is also needed to the refinement and expansion of 
technology to connect and empower vulnerable workers, giving voice to 
their experiences and providing data-informed insights to corporations 
and suppliers about labor conditions across complex, multi-tiered 
supply chains. Boots on the ground with multilingual and multi-cultural 
labor expertise are also vital to verify and validate labor risks and 
abuses. This local expertise can help supplier businesses transform 
their contracts, labor recruitment systems, and labor conditions, and 
report to global buyers where risks are and are not being eliminated, 
to bring on the supply chain leverage that so strongly motivates 
positive change. While Issara has scaled rapidly, and continues to 
experiment and learn, we have benefited greatly from the assistance of 
the U.S. Agency for International Development and the State 
Department's Trafficking in Persons Office, which has enabled us to 
innovate and expand the reach of our technology and our partnerships to 
support American retailers and supermarkets. We hope the U.S. 
Government will continue to use all of the tools at its disposal to 
foster commercial environments that safeguard worker's rights and 
prevent their exploitation.
    Thank you.

    The Chairman. Thank you, Mr. Goswami.
    Mr. Lares.

        STATEMENT OF TOMAS J. LARES, EXECUTIVE DIRECTOR,

          FLORIDA ABOLITIONIST; AND CHAIRMAN, GREATER

              ORLANDO HUMAN TRAFFICKING TASK FORCE

    Mr. Lares. Good morning. My name is Tomas Lares. I am the 
Executive Director of Florida Abolitionist and also the 
Chairman of the Greater Orlando Human Trafficking Task Force.
    I would like just to highlight in my brief comments today 
the power of collaboration at the grassroots, including some of 
the board members that are a part of my nonprofit, including 
Dr. Richard Lapchick, who is a civil rights pioneer and 
champion in our country; Commissioner Pete Clarke, from Orange 
County Government; Commissioner Tony Ortiz, from the City of 
Orlando; Judge Wilfredo Martinez, from our Orange County 
courts; Dick Batchelor, a Florida welfare--another champion and 
advocate in our state and former legislature; and most of all I 
want to highlight the importance of having survivor advocates 
at the table of every conversation. Amy Smith is one of those 
on our board.
    On behalf of Florida Abolitionist, I want to give a special 
thanks to Chairman John Thune, Ranking Senator Bill Nelson, 
from my state, and all the members of the Committee for the 
invitation to this informational hearing.
    Unfortunately, the horrific crime of human trafficking, 
also known as modern-day slavery, is evident in each of our 
communities. Only through the partnership and collaboration of 
governmental and non-governmental organizations, faith 
communities, and the private sector can we adequately and 
efficiently address this issue.
    It was 13 years ago this week that former U.S. Senator Sam 
Brownback of Kansas introduced me to the issue of human 
trafficking while presenting to his staff the ``Trafficking In 
Persons'' report of 2004. Upon my return to Central Florida, I 
began to research what was occurring in my state pertaining to 
awareness, advocacy, prevention, prosecution, and who were the 
stakeholders in my backyard. You can imagine the level of 
awareness in 2004 was not too high.
    What I discovered was that Florida had one of the first 
successful prosecutions, ``The United States vs. Tecum''. This 
was a historic case, and the survivor was the first recipient 
of the T-visa. Since then, dozens of cases of both sex, labor, 
and domestic servitude have been successfully prosecuted in our 
state.
    Upon moving to Orlando, I was living in Central Florida. I 
was on the coast, and I moved to Orlando in 2006. I began to 
see the need for more collaboration, especially around the 
hospitality-tourism industry. As many of you know, Orlando is 
now the number one tourist place, destination, in the world.
    As a victim advocate, I began to partner with our Orlando 
Metropolitan Bureau of Investigation, which is a very unique 
vice unit really in our country since 1978. Both Federal, 
state, and local law enforcement work together in narcotics, 
street crimes, and now human trafficking. We began to go out on 
stings and recoveries as the victims were identified. This was 
the beginning and creating of a 24/7 human trafficking hotline 
in our region that we now staff in key partnership with the 
National Human Trafficking Hotline and through the Polaris 
Project.
    In 2009, we began aggressive awareness in our region. And I 
mention this because this is going to be key to why most of our 
hospitality and tourism industries have been educated in the 
greater Orlando. In the last 10 years, tens of thousands of 
citizens, businesses, and other groups have been educated. We 
have a monthly hotel outreach where we go to the hotels, a 
chain of hotels, and we train or present before their 
management and/or staff, depending on what the hotel is needing 
at the time. We have partnered with the Hotel and Lodging 
Association. And our mayor of Orange County, Mayor Teresa 
Jacobs, has committed to really addressing the issue of 
trafficking within our businesses in the county.
    What has happened in Florida is evident by what Senator 
Nelson has mentioned with Florida being number three in the 
number of calls. Many of them are coming from Central Florida. 
And also for the new maltreatment code through our child 
welfare system, the Florida Department of Children and 
Families, where over 1,800 calls were made just last year.
    In 2014, as a result of our collaboration, we relaunched 
our coalition as the Greater Orlando Human Trafficking Task 
Force. This Task Force has grown to dozens of members, 
subcommittees, working groups, and a multitude of community 
volunteers. This is the power of collaboration that makes our 
communities stronger, advocates for the most vulnerable, and 
works alongside our law enforcement and first responders.
    At Florida Abolitionist, our mission is to end modern-day 
slavery. We accomplish our mission through networking and 
facilitating preventative and restorative solutions. We believe 
that awareness and education is vital to inform and equip 
students, parents, administrators, and teachers. We have 
partnered with our Orange County School Board, Superintendent 
Barbara Jenkins, and she has allowed us to come in the 
beginning of this year to train guidance counselors, 
psychologists, resource officers, social workers, and other 
frontline staff.
    Our Seminole County, Osceola County, and other counties 
have now followed that same training, and this fall we'll be 
launching a major awareness campaign in our schools. And we 
have partnered with the schools already on what they have done 
with anti-bullying. It's called SpeakOut. And we've created a 
whole campaign for the students.
    We believe that reaching this young generation is vital. 
And so we'll be launching later this year an app for our state 
to identify trafficking that will be user-friendly for the 
students. We know the Millennials are not calling the hotlines; 
they're not wanting to call anyone, as a matter of fact. So we 
believe this app is going to be very critical in reporting.
    We are also committed to the restoration of victims and 
survivors, whether they are male, female, foreign-born, 
domestic, sex, or labor trafficking victims.
    Throughout all these years of advocacy, I believe more than 
ever in the African proverb, ``It takes a village to raise a 
child.'' This is also true if we're going to be abolitionists 
in the 21st century and stand together to fight this horrific 
crime.
    Thank you.
    [The prepared statement of Mr. Lares follows:]

   Prepared Statement of Tomas J. Lares, Executive Director, Florida 
Abolitionist and Chairman, Greater Orlando Human Trafficking Task Force
    On behalf of Florida Abolitionist, Inc. (FA), a special thanks to 
Chairman John Thune, Ranking Senator Bill Nelson, and all the members 
of the committee for the invitation to this informational hearing. 
Unfortunately, the horrific crime of human trafficking also known as 
modern-day slavery is evident in each of our communities. Only through 
the partnerships and collaboration of governmental, non-governmental 
organizations, faith communities and the private sector can we 
adequately and efficiently address this issue.
    It was 13 years ago this week that former U.S. Senator Sam 
Brownback of Kansas introduced me to the issue of human trafficking 
while presenting the Trafficking In Persons 2004 report to his staff. 
Upon my return to Central Florida I began to research what was 
occurring in my state pertaining to awareness, advocacy, prevention, 
prosecution and who were the stakeholders in my own backyard. What I 
discovered was that Florida had one of the first successful 
prosecutions, ``The United States vs. Tecum''. This was a historic case 
and the survivor was the first recipient of the T-visa in the United 
States. Since then dozens of cases of both sex, labor and domestic 
servitude have been successfully prosecuted in our state.
    In 2005, I facilitated the first human trafficking seminar in 
Brevard County, FL. where over 100+ individuals and organizations 
attended. An outcome of this seminar was the formation of the Space 
Coast Human Trafficking Task Force. (Formerly the Space Coast Rescue & 
Restore Coalition).
    Upon moving to Orlando in 2006 there was a need to begin organizing 
key stakeholders in the fight against human trafficking. As a victim 
advocate I partnered with the Orlando Metropolitan Bureau of 
Investigation and began specialized advocacy upon the recovery and/or 
identification of victims. This was the beginnings of creating a 24/7 
human trafficking hotline that my agency staffs and the key partnership 
with the National Human Trafficking hotline through the Polaris 
Project.
    In 2007, I cofounded the Orlando Rescue and Restore Coalition to 
network law enforcement, civic groups, service providers, educational 
entities and community/faith based agencies to work together to create 
a safety net and make preparations as victims are identified, rescued 
and restored in Greater Orlando region.
    In January of 2009 a small group of abolitionists facilitated the 
first Human Trafficking Awareness march in downtown Orlando at the 
famous Lake Eola park. Preparations are being made to celebrate the 
10th Annual Human Trafficking Awareness Day on January 27, 2018. Since 
that first march tens of thousands of Central Floridian's have been 
educated and made aware of the issue. This is evident by the number of 
calls documented by the National Human Trafficking hotline and the 
calls made to the Florida Department of Children and Families abuse 
hotline as well.
    In 2014, as a result of our collaboration the Orlando Rescue and 
Restore Coalition was relaunched as the Greater Orlando Human 
Trafficking Task Force, Inc. whose mission is to provide human rights 
based, victim centered community forum and mechanism to combat all 
aspects of human trafficking in the Greater Orlando area through 
collaboration and partnerships with key stakeholders. The task force 
has grown to include dozens of members, subcommittees, working groups 
and a multitude of community volunteers. This is the power of 
collaboration that makes our community stronger, advocates for the most 
vulnerable and works along side our law enforcement and first 
responders.
    At Florida Abolitionist, Inc. our mission is to end modern-day 
human slavery. We accomplish our mission by networking and facilitating 
preventative and restorative solutions. We believe that awareness and 
education is vital to inform and equip students, parents, 
administrators and teachers in our communities. We are also committed 
to the restoration of victims and/or survivors whether they are male, 
female, foreign born, domestic, sex or labor trafficking victims.
    Throughout all these years of advocacy I believe more than ever the 
African proverb, ``It takes a village to raise a child.'' This is also 
true if we are going to be true abolitionists in the 21st Century as we 
stand together declaring, ``Not On Our Watch''.

    The Chairman. Thank you, Mr. Lares.
    Ms. Goetsch, truckers are the eyes and ears of our nation's 
roadways and are well positioned to spot and help prevent human 
trafficking, as you noted. Can you tell us more about how 
truckers hear about your education program and how your 
relationship with industry contributes to the success of that 
program?
    Ms. Goetsch. Yes. So our program has been successful 
because of the industry's incredible response to the 
information. There were some leaders early on that really 
helped open doors to other stakeholders. So one of the largest 
travel and truck stops in America, Travel Centers of America, 
in 2011, came on as a partner.
    We've also had other TAT champions that have really pushed 
our work forward in the industry. UPS just finished training 
90,000 drivers and registering them as TAT trained. They, along 
with Walmart, have also donated to haul our Freedom Drivers 
Project all across the Nation, getting in front of more 
audiences within the industry. Ryder, one of the largest 
trucking companies, was an early partner of ours, and they 
serve on our board of directors as well, as well as 
Bridgestone, the tire manufacturer, who has opened doors in the 
industry that have been hugely helpful as well as financially 
supporting us.
    The Chairman. As I understand it, and again hearkening back 
to some of your testimony, Truckers Against Trafficking has 
been successful in conducting outreach and education at the 
state level with more than half of the states adopting the 
group's proven model, including my home state of South Dakota.
    Ms. Goetsch. Mm-hmm.
    The Chairman. So could you kind of describe how your group 
works with departments of transportation in states like mine?
    Ms. Goetsch. Yes. So it definitely is at the state level. 
So every state is different, and our inroads in each state have 
been different. So our IOWA MVE model is a model that any state 
can adopt primarily looking at those key locations, rest areas, 
weigh stations, and then working with highway patrol or state 
police within that state.
    So we do work with Department of Transportation heavily. We 
train officers who run weigh stations and ports of entry on 
human trafficking so that they are also aware of the multiple 
indicators and the signs. We have worked Department of 
Licensing, Department of Public Safety. So whatever agency in 
the state can really have the right connections both with law 
enforcement and have that overlap with the trucking industry, 
that's where we come in and we present the program and then 
just continue with our partners to get the materials out on the 
ground level.
    The Chairman. And the number of states participating today 
is how many?
    Ms. Goetsch. Thirty-one states.
    The Chairman. Thirty-one states. OK. Good. And I assume 
you're trying to get all the others out there.
    Ms. Goetsch. Yes, that would be our goal.
    The Chairman. All right. Well, hopefully, they'll follow 
through on that.
    Mr. Goswami, the challenges that you've identified seem 
daunting. How has the development of technology made it easier 
for businesses to track the supply chains to reduce the risk of 
forced labor? And how can we better leverage technology moving 
forward to ensure that more businesses are better able to 
monitor their supply chains?
    Mr. Goswami. Yes, the challenges are quite daunting, and 
the victims and survivors are probably in the tens of 
thousands, if not hundreds of thousands, but technology has 
enabled us to get better insight and deeper insight into 
victims and survivors who often go unhidden.
    For example, most of the migrant workers who are caught up 
in trafficking situations or other illegal situations in the 
Thai seafood industry, they happen to have smartphones or they 
happen to have Nokia feature phones, and there are many 
providers, including Issara, who have launched apps and other 
applications to survey such workers on their phones and ask 
them directly what their conditions are and provide that data 
directly to businesses who want to get that deeper insight into 
their workforces across their supply chains.
    And what we find is that it's difficult to send people down 
everywhere to do audits announced or unannounced to go into 
every facility and check on a piece of paper what is happening 
and speak the local language. However, you can bypass that 
infrastructure by going directly to using mobile phones or 
other technologies to get directly to the workers. I should 
add, though, that even though we are sourcing good credible 
data from such tools, mobile tools, nothing replaces the on-
the-ground work to take that data and turn it into positive 
solutions and work with suppliers to listen to the voices of 
the workers as they're telling us what changes they would like 
and what grievance mechanisms they need in implementing those 
measures.
    The Chairman. Thank you. My time is up.
    Senator Nelson.
    Senator Nelson. Ms. Goetsch, how did an advertisement in 
Craigslist soliciting for sex not catch the eye of law 
enforcement?
    Ms. Goetsch. That's a good question. I'm not law 
enforcement, so I don't know that I can speak to that 
precisely, that individual case. I think law enforcement is 
working on tracking those kinds of sites more closely in order 
to identify. But the reality is--and both my colleagues here 
could speak to this as far as the sheer volume of ads that are 
typically out there and the high percentage of those that are 
trafficking situations.
    I would just add that as I work with law enforcement across 
the United States, there does still need to be more training to 
help law enforcement identify what is a human trafficking case 
so that they can respond quickly and appropriately.
    Senator Nelson. Well, when you train truckers, give me an 
example of what your training is like. What do you teach them?
    Ms. Goetsch. Yes. So we have a training video which has a 
survivor who was trafficked at a truck stop. She shares her 
story. We have a wallet card. That's the primary tool we use to 
educate and equip the trucking industry. So it has red flag 
indicators specific to the trucking industry and the truck stop 
and travel plaza industry. So looking for things that are 
abnormal. Truckers are already observant. They know the layout 
of their surroundings.
    And so in that particular case, the RV was parked in an 
unusual spot. He watched. He noticed men coming back and forth 
from the RV. He noticed the curtains were blacked out. All of 
those things were indicators because he had been trained that 
this was not a normal family situation.
    You know, if there are minors traveling with someone that 
they don't look related to. Maybe they're not answering for 
themselves or in control of their own documents. So there are a 
lot of indicators that we train truckers to be on the lookout 
for.
    Senator Nelson. Right.
    Mr. Lares, you were telling how you all have very 
successfully reached out to the school system in Orange County. 
What degree of success have you had reaching out to the 
business community in Florida to get them willing to 
participate?
    Mr. Lares. Well, Senator, particularly in Central Florida, 
it has been a little challenging because we are the tourist 
destination that a lot of businesses do not want the image of 
being--having trafficking associated. And so we have had to 
really be just very strategic in how we approach the 
businesses. And that's where I was mentioning Mayor Teresa 
Jacobs, Orange County Mayor, has really helped us along with 
the other commissioners and introducing us to the businesses in 
our region, that we want to be proactive, especially the Hotel 
and Lodging Association, that we want to help them identify any 
of these--this activity so that we can keep our community a 
family friendly tourist attraction. And so reaching out to 
those----
    Senator Nelson. Have they been a willing participant?
    Mr. Lares. The Hotel and Lodging Association, yes; yes, 
sir. We're reaching out to the other sectors now and we've 
asked Mr. Rosen to facilitate hospitality training for all the 
other sectors we're trying to reach.
    Senator Nelson. What other businesses in the Central 
Florida area do you see the most traffic?
    Mr. Lares. One of the key, I think, trainings is going to 
be some of the taxi companies, particularly the Mears. I have a 
story of a Mears driver who came into----
    Senator Nelson. That is to spot.
    Mr. Lares. Yes.
    Senator Nelson. Train the taxi drivers to spot trafficking.
    Mr. Lares. Yes, sir.
    Senator Nelson. What businesses in the Central Florida area 
would be susceptible? Mr. Goswami talked about the seafood 
industry over in Asia. What in Central Florida? What 
businesses?
    Mr. Lares. I think--okay, so particular businesses, I think 
particularly would be, besides the hotels and any of those 
related tourism industries, I think that some of the 
restaurants. We have gone to those already. The other 
industries would be particularly with the supply chain, that 
has been something that we--I want to speak with him to see 
what we could be--who we should reach out to. Because we've 
been focused on, sir, more the tourism and the hospitality 
industry, to be honest.
    Senator Nelson. So you're not talking about a specific 
restaurant, you're talking about the supply chain that supplies 
the restaurants; in the case of Mr. Goswami, with the shrimp 
that they provide.
    Mr. Lares. Yes, sir.
    Senator Nelson. Thanks.
    The Chairman. Thank you, Senator Nelson.
    I want to, before I forget, enter into the record some 
letters from stakeholders, including a letter from Call to 
Freedom, an organization combatting human trafficking in South 
Dakota; a testimony from Chelsea, a victim of human trafficking 
and saved by Call to Freedom; written testimony from NATSO, 
which represents travel plazas and truck stops around the 
country on their efforts to prevent human trafficking; and 
written testimony from Airline Ambassadors International, which 
works with the airline industry on human trafficking awareness. 
So those will be entered without objection.
    [The information referred to follows:]

                 Prepared Statement of Call to Freedom
    Dear Chairman Thune and Members of the Committee,

    Defined as the recruitment, harboring, transportation, provision, 
or obtaining of a commercial sex act that is induced by force, fraud, 
or coercion, sex trafficking is the second largest and fastest growing 
criminal industry in the world. Although it is the second largest in 
the world, it often goes unnoticed.
    Within the state of South Dakota, the number of sex trafficking 
related calls, arrests, and sentencing of traffickers has increased 
significantly over the last decade. Through prevention education 
programs, the news media, and victims sharing their stories, this 
injustice is being recognized; more victims are surfacing and seeking 
help. The U.S. Attorney's Office has worked to prosecute those who have 
sex trafficked juveniles and women and arrests continue to be made 
during the Sturgis rally and around the state. Some shocking statistics 
include:

  <bullet> 2nd to drug dealing, sex trafficking has surpassed the gun 
        trade as the largest and fastest growing criminal industry in 
        the world.

  <bullet> An estimated 14,500--17,500 victims are trafficked into the 
        U.S. every year.

  <bullet> South Dakota has the 2nd highest trafficking-related calls 
        in the U.S.

  <bullet> 50 Federal cases have been reported in South Dakota.

  <bullet> Interstates 29 & 90 (in South Dakota) make up ``The Midwest 
        Pipeline.''

  <bullet> 1 out of 3 youth are susceptible to being sex trafficked 
        within forty-eight hours of being homeless.

  <bullet> More important are the faces and lives impacted.

    One of the most vulnerable populations to sex trafficking are 
Native American women and children. Native American women experience 
domestic and sexual violence two and a half times more than their non-
Native counterparts, which makes them more susceptible to sex 
trafficking. Additionally, because Native American women often face 
obstacles like a lower rate of education and generational poverty and 
trauma, this heightens the likelihood that they will be sexually 
exploited. Native American women often come from broken families and 
are surrounded by alcoholism and substance abuse within their 
communities. Within the Native American communities in South Dakota, 
victims are more likely to experience homegrown trafficking. Within the 
Native populations in South Dakota, the victims more than likely know 
who their traffickers are, whether it be a uncle, father, boyfriend, or 
sibling.
    Another population that is vulnerable to sex trafficking are 
impoverished and foster youth, runaways, or youth who have been a part 
of the juvenile justice system. Within these populations, there is a 
lack of programs that provided trauma-informed care and mental health 
counseling to youth who have experienced sex trafficking. Without 
programs like these, youth are likely to be revictimized. As vulnerable 
youth often go without basic needs, like food and shelter, they accept 
help from traffickers who perpetuate a ``nice'' and ``caring'' persona. 
However, once these youth are dependent on traffickers for basic needs, 
they are either threatened or coerced into sex trafficking. 
Furthermore, the Department of Justice reported that annually, one 
hundred and fifty thousand youth will be approached by a trafficker 
within forty-eight hours of being homeless.
    In August 2015, Call to Freedom's executive director, Becky 
Rasmussen, went out on an outreach in Sturgis, South Dakota, that 
changed the direction of Call to Freedom. The outreach team would go 
and connect with those that seemed vulnerable. Becky felt that she 
should approach a young woman; she said ``Hi, my name is Becky'' and 
the young girl replied ``Hi, my name is Marissa.'' She began to connect 
with this young lady and towards the end of the conversation, Marissa 
was crying and kept saying ``you have no idea what kind of day I've 
have, you have no idea what kind of day I've had'' and then Marissa was 
gone.
    Becky learned the next day from an international search and rescue 
group that Marissa was suspected of being sex trafficked and missing 
out of the Sturgis area. Marissa was in a situation where she was 
pulled into sex trafficking a few years ago, got out for a few months, 
but unfortunately was pulled back in. The group that Becky met with 
said it's common for victims like Marissa to be pulled back in due to 
gaps in services and resources. If these women are unable to find 
assistance, they remain vulnerable and an easy target to be pulled back 
into sex trafficking.
    In order to close the service gaps, Call to Freedom was founded as 
a nonprofit in 2016. Call to Freedom is an organization that provides 
supportive services for victims of sex trafficking by creating a strong 
network of frontline providers who offer safe housing, mental health 
counseling, medical assistance, addiction treatment, transportation, 
and other services. Within the past year and a half, Call to Freedom 
has provided intensive case management and supportive services to woman 
and children of diverse ages and ethnicities.

  <bullet> In 2016, Call to Freedom served:

    <ctr-circle> 30 victims of sex trafficking.

      <ctr-circle> 30 families who were affected by sex trafficking, or 
            had a family member that was affected by sex trafficking.

      <ctr-circle> 60 percent were Native American,

      <ctr-circle> 30 percent were Caucasian,

      <ctr-circle> And 10 percent were of other ethnicities.

  <bullet> From January 2017 to June 2017, Call to Freedom served:

    <ctr-circle> 51 victims and family members of sex trafficking.

    This population has diverse and complex needs. In order to provide 
services to meet client needs, Call to Freedom has reached out to the 
community and built effective collaborations in areas of mental health 
and addiction counseling, occupational therapy, employability, medical 
and dental care, and emergency shelter. Upon discovering a significant 
and permanent gap in safe and affordable housing, Call to Freedom 
rented an apartment building with eight efficiency apartments and from 
then on, Marissa's Project House became a safe haven for sex 
trafficking and sexual exploitation victims. Marissa's Project is safe 
environment that offers support and stability, which are necessary for 
successful long-term transitions out of sex trafficking and sexual 
exploitation situations. Not only are the women offered shelter, but 
they are also provided access to support services like occupational 
therapy, intensive case management, employment search and training 
support, and transportation. With the help of community donors, Call to 
Freedom has furnished the apartments and transitioned key case manager 
time to house/client case management. Since October 2016, Native 
American, Caucasian, Latino women, and two children have called 
Marissa's Project home. Only a few of the women came in with 
employment, but all are now employed (at least part-time), sober, 
receiving mental health counseling, and transitioning out of the 
controlling abusive situations they have endured.
    In order to successfully transition victims of sex trafficking out 
of dangerous situations, Call to Freedom partners with local and 
Federal law enforcement, the U.S. Attorney's Office, community 
partners, and organizations that work to prevent sex trafficking and 
educate vulnerable populations. As a result of identifying the gaps in 
services when navigating next steps for victims of sex trafficking, we 
plan to implement more trauma-informed resources through facilitation 
and training of the East River Human Trafficking Task Force. We have 
also identified gaps when it comes to providing minors and victims with 
specialized treatment. We need to make sure that these youth are not 
revictimized and are able to successfully transition out of sex 
trafficking. In order to address this gap, Call to Freedom wants to 
develop a specialized program for youth with an emergency crisis 
shelter that is fully staffed with trauma and addiction counselors, 
mental health assessment, and other vital services to successfully 
assess and treat victims.
    We truly appreciate your attention to strengthen services to 
victims of sex trafficking. We are grateful for the opportunity to 
provide insight on this epidemic within the state of South Dakota.
            Sincerely,
                                           Becky Rasmussen,
                                                Executive Director,
                                                       Call to Freedom.
                                 ______
                                 
                         Chelsea's Testimonial
    I grew up in a home of childhood sexual abuse. My dad raised me 
when my parents divorced, I was four. The first memory that I have of 
life was my dad molesting me; that continued as I got older. Soon after 
that happened he began to sell me to his friends and other people who 
were around the house. There were a lot of drugs and parties and people 
were everywhere, all the time.
    Whenever he [dad] would sell my body and I would see a guy pay for 
me, I would like that the guy liked me and wanted to invest in me; it's 
where my worth came from. That continued until I was fourteen. By that 
time, the worth I had felt worthless. When I turned fourteen, I left 
home and tried to get away from it. Though I tried to get away from 
that life, it kept drawing me [back] in and I started to crave that 
worthiness.
    When I first came to Call to Freedom, I knew that I wanted to help 
but I was also afraid to take it. When I walked into Call to Freedom's 
doors, I connected with a certain staff member and said ``that girl 
looks like an angel.'' Since that day, that angel has stuck by my side.
    When I came to Call to Freedom, I thought my life was ending. I 
couldn't see how I got out or how I would get out, but Call to Freedom 
has taught me that my life is only beginning. I have entire life ahead 
of me. Since coming to Call to Freedom, I've been sober for the first 
time since I was fourteen and can have dreams and shoot for bigger 
things.
                                 ______
                                 
                      Prepared Statement of NATSO
Introduction
    NATSO, the national association representing America's travel 
plazas and truckstops, submits this statement for the record with 
respect to the Senate Committee on Commerce, Science and 
Transportation's (``Committee's'') June 12, 2017, hearing titled 
``Force Multipliers: How Transportation and Supply Chain Stakeholders 
are Combatting Human Trafficking.''
    As discussed further below, the truckstop and travel plaza industry 
takes seriously the fight against human trafficking, and has invested 
significant resources to help travel plaza owners and operators 
identify and report such unlawful activity.
Background
    NATSO is a national trade association representing travel plaza and 
truckstop owners and operators. NATSO's mission is to advance the 
success of truckstop and travel plaza members. Since 1960, NATSO has 
dedicated itself to this mission and the needs of truckstops, travel 
plazas, and their suppliers by serving as America's official source of 
information on the diverse industry. NATSO also acts as the voice of 
the industry on Capitol Hill and before regulatory agencies.
    NATSO currently represents more than 1,500 travel plazas and 
truckstops nationwide, comprised of approximately 1,000 chain locations 
and several hundred independent locations, owned by more than 200 
corporate entities.
    NATSO also operates the NATSO Foundation, which is the research, 
education and public outreach subsidiary of NATSO, Inc. The NATSO 
Foundation provides education and research for the truckstop and travel 
plaza industry as well as programs and products aimed at strengthening 
travel plazas' ability to meet the needs of the traveling public 
through improved operational performance and business planning.
Travel Plaza Industry Efforts to Combat Human Trafficking
    For nearly six years, the NATSO Foundation has been helping members 
of the truckstop and travel plaza community engage in the fight against 
human trafficking. Because human trafficking has been reported across 
all modes of transportation, it is critical that the Committee conducts 
this hearing, and we applaud the Committee's participation in this 
effort.
    Human trafficking perpetrators utilize many legitimate businesses--
unbeknownst to the business owners and employees--in connection with 
their crimes. The truckstop and travel plaza industry is united along 
with other transportation providers to stop the flow of human 
trafficking using America's transportation system.
    Human trafficking victims are frequently transported via the 
Interstate Highway System. As an industry that caters to millions of 
highway travelers every year, truckstops and travel plazas and their 
employees are in a key position to help identify and report suspected 
incidents of human trafficking along America's highway system. The 
industry is taking meaningful action to ensure that it is prepared to 
respond.
    At the NATSO Foundation, one of our goals is to provide our members 
with the tools they need to train their staff so that those individuals 
are equipped to help if they encounter a victim of this horrible crime. 
Travel plaza and truckstop owners and operators have a vested interest 
in their businesses and are highly focused on crime prevention. The 
safer the environment a truckstop creates for its customers, the more 
customers a truckstop will have. Operators keep a trained eye on 
everything that happens at their locations.
    The NATSO Foundation has taken a lead role within the 
transportation sector, creating public awareness and educational 
materials that help truckstop owners, operators and their employees:

  <bullet> understand what human trafficking is;

  <bullet> recognize signs of human trafficking; and

  <bullet> appropriately respond to and report suspected incidents of 
        human trafficking.

    More specifically, the NATSO Foundation has developed an online 
education tool called ``The Role of Truckstops in Combating Human 
Trafficking.'' The program is designed to strengthen the Nation's 
truckstop and travel plaza industry by delivering comprehensive online 
educational and safety training materials to truckstop owners, 
operators and employees. The course, which is free to any member of the 
truckstop and travel plaza community, teaches truckstop owners, 
operators and employees how to identify and respond to suspected 
incidents of human trafficking. Since its launch, several hundred 
truckstops and travel center locations throughout the country have 
incorporated this training into their new employee training programs.
    In addition to this education tool, the NATSO Foundation since 2012 
has:

  <bullet> Co-sponsored regional coalition meetings with Truckers 
        Against Trafficking, state trucking associations and law 
        enforcement that provide an opportunity to educate members of 
        the business community, transportation and law enforcement 
        about human trafficking. These meetings serve as an open forum 
        to discuss human trafficking trends in regional areas and to 
        explore ways to combat this crime. To date, the NATSO 
        Foundation has co-sponsored nearly 25 regional coalition 
        meetings across the United States.

  <bullet> Worked closely with the Department of Transportation, 
        Polaris Project, the National Center for Missing and Exploited 
        Children and other national and local organizations to gain 
        insight into best practices on how to educate members of the 
        travel plaza industry about human trafficking.

  <bullet> Partnered with the Department of Homeland Security's Blue 
        Campaign, which is that Agency's comprehensive effort to end 
        human trafficking. Through this alliance, the NATSO Foundation 
        provides the DHS Blue Campaign's training and awareness 
        materials--such as posters and handouts and other education 
        materials--to the Nation's truckstops and travel plazas to 
        enhance the NATSO Foundation's educational resources.

  <bullet> Worked in support of the U.S. Department of Justice's AMBER 
        Alert program and the National Center for Missing & Exploited 
        Children (NCMEC) as a secondary AMBER Alert distributor so 
        that Amber Alerts containing information about abducted 
        children can be displayed at truckstops and travel plazas 
        across the country.

  <bullet> Similarly, the NATSO Foundation encourages its member 
        companies to participate in the National Center for Missing & 
        Exploited Children's High-Risk Child Poster Listserv so that 
        truckstop owners and operators can share posters with their 
        customers that help increase the visibility of missing children 
        at high risk for sex trafficking.
Conclusion
    Private enterprises can make a meaningful difference in the fight 
against human trafficking if they take the time to learn about and 
invest resources toward combatting it.
    The NATSO Foundation is committed to investing the time and 
resources necessary to help the truckstop and travel plaza industry do 
all it can to combat human trafficking.
    NATSO and the NATSO Foundation commend the Committee for focusing 
on this important issue and for allowing the truckstop and travel plaza 
industry an opportunity to share information about the many ways in 
which this industry is taking a lead role to stop the flow of human 
trafficking using America's transportation system.
    Please feel free to reach out to me directly if I can answer any 
questions or provide any additional assistance.
                                 Tiffany Wlazlowski Neuman,
                                    Vice President, Public Affairs,
                                                                 NATSO.
                                 ______
                                 
  Prepared Statement of Nancy L Rivard, President, Airline Ambassadors
    The critical infrastructure of our transportation system can no 
longer be used as a tool to implement human trafficking, or modern day 
slavery. This is also the fastest growing crime in the world. It is 
linked to drug trafficking, human smuggling, arms trafficking and 
terrorism, also; human trafficking aboard aircraft is a cabin safety 
issue.
    Traffickers often use the speed, convenience and comparative safety 
from detection of commercial air travel. The International Air 
Transport Association (IATA) shows 3.6 billion global passengers in 
2016 and U.S. serving airlines carried 928.9 million domestic and 
international passengers.
    Airline personnel can be `eyes in the skies'' providing vital 
intelligence to law enforcement. They can be a force multiplier in the 
fight against human trafficking. One flight attendant interacts with a 
minimum of over 500 passengers per week. This translates to 24,000 
passengers per year.
    Airline Ambassadors International (AAI) was established in 1996 as 
a non-profit organization made up of members in the airline industry. 
AAI has led advocacy on human trafficking awareness since correctly 
identifying trafficking on four flights in 2009. Working with 
Congressional members and government agencies they developed an 
``industry specific'' training, which has been provided to 5,000 
frontline personnel at 57 U.S. airports and international locations. 
This training is provided by volunteer flight personnel and survivors 
of human trafficking and is consistent with the ``Blue Lightning'' 
protocol of the Department of Homeland Security.
    The story of an Alaska Airlines flight attendant, Shelia Fedrick 
who saved a little girl with a note in the bathroom, went viral in 
February 2017 with over 2,000 media citations. Shelia is an AAI trainer 
and this is only one of dozens of stories of victims who have been 
saved as a result of these prevention efforts.
    Airline Ambassadors International commends the leadership of 
Senator Thune for the FAA Reauthorization Act of 2016 (S. 2658) which 
includes the requirement that flight attendants be trained to identify 
and report potential trafficking aboard flights. Since the new 
legislation, most airlines have now adopted a human trafficking policy 
and have implemented a minimum level of training for flight attendants. 
However, there is still more work to do to strengthen this momentum.
Problems Still Needing Solutions Airline Industry
Oversight
    There is not adequate oversight evaluating effectiveness of 
training on human trafficking awareness in the airline industry. There 
is not motivation for companies to ensure maximum effectiveness of such 
training of flight attendants, or to train other critical employee 
groups at major human trafficking transit hubs, including airports.
Flight Attendants
    Positive momentum has begun with several airlines adopting the DHS 
Blue Lightening computer based training, or a few slides in the on line 
portion of recurrent training. However many airline professionals have 
said they do not pay close attention to on line trainings and the 
typical flight attendant glosses through on line trainings as fast as 
they can, and very little of the information is retained. The issue of 
human trafficking awareness is not even mentioned by the training staff 
of most U.S. based airlines during annual training. Emphasis by 
trainers is needed in recurrent training.
Pilots
    When flight attendants report suspected trafficking situation on 
board they are to inform the pilots, who are to radio the upcoming 
airport, to contact law enforcement for evaluation. However, in two 
recent cases the pilots refused to report despite the fact that flight 
attendants were concerned and the procedure was in their ``In Flight 
Manual''. The pilots stated that they were reluctant to cause a problem 
for the passenger and the suspected trafficker and victim deplaned 
unhindered. . This issue needs to be addressed in pilot recurrent 
annual training so pilots will feel comfortable following the 
procedure.
Operations personnel
    Operations personnel are also not trained. Their responsibility is 
to monitor hundreds of flights arriving at each major airport location. 
When questioned recently on what action would be taken if a pilot 
radioed in a potential human trafficking on the flight, one supervisor 
replied that he would take no action, as this issue was not related to 
aircraft security.
Passenger Service Agents
    Agents also see trafficking indicators when interacting with 
customers checking in for flights and are not trained how to respond. 
Some have shared that they have seen many potential cases but did not 
know who to report to and were even concerned about risking their jobs. 
Many have said they would like training so that they know what is 
expected of them, and most are quite willing to act.
Lack of Corporate Commitment
    Although the private sector is critical in this fight, most 
airlines truly do not understand the importance of human trafficking 
awareness and hesitant to integrate new actions into their corporate 
cultures. They are nervous that vigilante flight attendants will make 
false accusations and cause a lawsuit. They have no motivation to 
ensure proper training for employees, eliminate trafficking in the 
supply chain or adopt policies on this issue that include providing of 
training and job opportunities for victims. When AAI sent a letter on 
April, 2017 to the CEO's of 24 airlines and hospitality companies to 
support human trafficking policies and being open to hiring survivors--
there was no response.
Data Sharing--Law Enforcement
    The Department of Homeland Security was created under the Patriot 
Act to coordinate information among agencies and partners to secure our 
critical infrastructure, but this information is not shared. Despite 
formal FOIA requests for how many tips came from airports where 
trainings were given, no information was shared and thus, evaluation of 
training programs cannot be measured. Although details of law 
enforcement cases should remain confidential, the sharing of 
information on how many tips were received, and if they led to arrests 
or prosecutions would provide valuable data for NGOs, airlines, 
academia and the American public.
Reporting Mechanisms
    The current public reporting systems for receiving human 
trafficking ``tips'', cannot receive data rich information from the 
partners that is seeks to empower. For example, AAI employs a 
smartphone application that can transmit encrypted trafficking data in 
critical real time, but law enforcement and NGO partners cannot receive 
such data, including video, recordings, text and pictures.
    Department of Homeland Security has spent millions of dollars on an 
excellent advertising campaign on human trafficking awareness with 
posters highlighting sex, domestic servitude and labor trafficking, but

  1.  The reporting phone number is different from the National Human 
        Trafficking Hotline (NHTH) # which is confusing for the general 
        public.

  2.  The DHS Hotline is not a direct number

  3.  Although the National Human Trafficking Hotline can receive texts 
        there is no mechanism to receive data rich information by 
        either Hotline, which many AAI trained professionals are 
        equipped to provide.
Recommendations
Oversight
    1. The relevant critical infrastructure oversight agency (FAA or 
DOT) should be established to provide minimum results based educational 
standards to oversee compliance to human trafficking training for 
airline transport industry.
Enhanced Training for Airline Personnel
    2. Minimal, on line training should be supplemented with classroom 
mention and training should be required for all frontline or relevant 
employee groups--flight attendants, pilots, operations personnel and 
passenger agents.
    3. Legislation to require airlines to train staff could provide 
resources for live Train the Trainer programs on human trafficking to 
training staff of major U.S. based airlines. Such training should 
include live participation of survivors of human trafficking to make 
the issue come alive for trainees, so training staff of each airline 
will understand the issue and emphasize it during annual recurrent 
trainings.
Corporate Commitment
    4. Legal protection offered to airline and employees who report 
potential trafficking be established along with a reporting protocol to 
FAA or the Department of Transportation.
    5. Tax incentives be considered for companies for providing minimum 
standards in compliance to combat human trafficking, (including 
training of employees, elimination of trafficking in the supply chain 
and willingness to provide jobs to victims of trafficking.)
    6. Federal Government consider providing incentive to airline 
companies by deciding to book government travel only on those air 
carriers meeting minimum standards for corporate social responsibility 
in this area.
Data Sharing
    7. A system be established to measure the number of trafficking 
tips received from airports, airlines and airport employees and number 
of ``tips'' which lead to actual cases and prosecutions.
  a. That data be shared with relevant partners or academic 
        institutions for evaluation.
Strengthen Reporting Mechanism
  b. Establishment of an e-mail address to be monitored 24/7 as a 
        system for reporting potential human trafficking ``tips'' for 
        quick response and the ability to receive data rich 
        information--phone, text, e-mail, pictures, video and geo-
        location to ensure prompt action and the ability to receive 
        rich data--rather than just a phone call or text

  In the words of the Association of Professional Flight Attendants, 
                                 APFA: 
          largest flight attendant union in the United States:

 ``We are committed not only to preparing our membership to recognize 
and report suspected instances of human trafficking, but also to raise 
public awareness of the problem. Flight attendants have thwarted these 
  criminals in the past, but putting an end to human trafficking will 
 require a coordinated and sustained effort as well the commitment of 
                 the entire transportation industry.''

    The Chairman. Senator Blunt.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Chairman. Thank you and Senator 
Nelson for holding this hearing.
    We've been increasing funding the last couple of years for 
this topic. Hopefully, that's beginning to have an impact. I 
think the Health and Human Services Victims of Trafficking 
program went from $15.8 million to $18.8 million in the last 2 
years. The hotline, the human trafficking hotline, got a 50 
percent increase.
    And, Ms. Sorensen, I think Polaris operates that hotline 
for HHS. Would you give us a little sense of how you're using--
how the hotline is being used and how important that funding 
may be?
    Ms. Sorensen. Sure. Thank you. So we've had a 24 percent 
increase in calls, texts, and other signals on the hotline in 
the last year. Since Polaris got the program, so that was 
December 7, 2007, we've had a 650 percent increase in contacts. 
So that money was vastly important and continues to be vastly 
important for the basic functioning of that hotline.
    The kinds of signals that we receive from people tend to be 
multilayered. So we will hear from someone who is experiencing 
the sense that something is wrong, and that might be the first 
of six or seven calls before they're ready to leave a 
situation.
    Our calls from victims directly have gone up exponentially 
over the last few years from something like 5 percent to around 
20, but I could get you the exact figures. So those calls just 
take a lot more time because they often involve a very delicate 
situation.
    But we do hear also just as often from community members 
reporting a tip. And reporting tips is complicated. You want to 
make sure that those tips are actionable by law enforcement, 
and so seeking out the correct level of information, the 
correct details, is of paramount importance to us as well. Our 
calls from victims directly have gone up by 241.4 percent 
between calendar year 2012 and calendar year 2016. In 2016, 
calls from potential victims made up 16.7 percent of all 
substantive calls that year.
    Senator Blunt. So 80 percent of the calls you get are from 
people who think they've seen something happen that shouldn't 
be happening? You said 20 percent are from----
    Ms. Sorensen. I can get you the exact number. I actually 
have that percentage broken out by state.
    Senator Blunt. OK.
    Ms. Sorensen. I don't have it nationally right now.
    Senator Blunt. OK. I don't know that I need that.
    Ms. Sorensen. Yes.
    Senator Blunt. But most of the calls are from people who 
think they've seen something. But you've got an increasing 
number of calls from people who are victims?
    Ms. Sorensen. That's correct.
    Senator Blunt. How do they know to call? Where do they find 
that information?
    Ms. Sorensen. Yes.
    Senator Blunt. Where do they find that number?
    Ms. Sorensen. So, gratefully, we've worked with the Federal 
Government and with Congress specifically to ensure that we 
have additional places for educating people about the risks to 
trafficking, posts in Federal buildings, posts in airline 
centers or in transportation hubs. We actually worked for years 
to pass State laws so that we could specifically proliferate 
the hotline number in important locations where we saw the most 
calls from those centers, whether they were rest stops, whether 
they were maybe strip clubs, other areas where we thought 
someone was vulnerable or at risk.
    There's a lot more to be done on public awareness. We know 
that we're still not reaching some of the most at-risk 
populations, particularly those who are working as 
subcontractors on agricultural crews or other kinds of labor 
settings. So there is still a lot to do.
    Senator Blunt. Let me get another couple of questions in 
here.
    Ms. Goetsch, in your testimony, you said that 31 states 
have adopted the Iowa model for Truckers Against Trafficking. 
Would you submit those states for the record? If we have those, 
I don't know that we have them, and it wouldn't hurt us to have 
them twice if we don't.
    Mr. Goswami, you noted that a number of companies were 
trying to proactively look at their supply chain, and I think 
I've heard this mentioned a couple of times already, where the 
supply chain for major companies are much more likely to be a 
problem than the stores themselves. And what are they doing at 
the--stores, like you mentioned, Walmart, what would a store 
like that be doing to verify that their supply chain has the 
integrity for workers that they would like it to have?
    Mr. Goswami. Thank you for that question. So obviously, as 
you can imagine, Walmart has a very large and complex supply 
chain with tens of hundreds of suppliers that also provide 
goods in their retail outlets. And I can speak to what Walmart 
has done with the Issara Institute in Thailand in our Asia--in 
our region.
    We face a hurdle where there are multiple smaller 
operations that are providing fielding services, fishing 
services, et cetera, to suppliers that may eventually end up in 
seafood products that are in U.S. stores and Walmart, and it's 
hard for Walmart to get visibility into the very bottom rungs 
of that supply chain.
    So they have been partnering with us to develop technology 
tools, including this app that I mentioned called Golden 
Dreams. It's a Burmese language app. And with their funds, 
we've been able to outreach this app out to various populations 
in their own language. About 3,000 folks, workers, have signed 
up to it, and they're giving us data every day on what their 
experiences are, which we can then take back to Walmart and 
match that with their suppliers who may be impacted by that 
data, and then drive improvements.
    And Walmart, at least in our region, has been very good 
about using their supply chain leverage to ensure that their 
suppliers, if they want to continue to do business with 
Walmart, are acting upon the data that we provide.
    Senator Blunt. Thank you.
    Thank you for the time, Mr. Chairman.
    The Chairman. Thank you, Senator Blunt.
    Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    I just want to thank all of you for the work you do. It's 
not often that we have unanimity on this Committee, but you 
certainly have it here in terms of our commitment to solve this 
problem.
    I would like to just go down the line and get some data, 
and if you're not able to give it to me in the moment, I'll 
take it for the record. But I just want a sense for the scope 
of the problem, the size of the problem. In your testimony, you 
didn't give numbers, and it may be that those data don't exist. 
But if we could just talk about the extent of the problem by 
sector in the United States, that would be great, starting with 
Ms. Sorensen.
    Ms. Sorensen. Yes. Give me a moment because I did prepare 
some stats for you. So in terms of--so there are a lot of 
calls--I should be clear. There are calls we get where someone 
does not give us information about the sector, does not give us 
information about the trafficker, doesn't give us information 
about themselves. So when I tell you that there are over 32,000 
calls where we've pulled data, I want to be clear that out of 
all of those, we've been able to run venue and sector 
information on 18,786 of those. OK? Because there just wasn't 
that information for everyone.
    Senator Schatz. That's in one year. That's in one year?
    Ms. Sorensen. No. This is all-time human trafficking cases. 
So December 7, 2007 to April 30, 2017.
    Senator Schatz. OK.
    Ms. Sorensen. That's my timeframe for you. So we've got 
related to the labor trafficking sectors, which I mentioned 
were 18, we've got domestic work is the leading sector where we 
see the most human trafficking. After that, I'm looking at 
traveling sales crews, followed by restaurants and food 
service----
    Senator Schatz. Sorry. What is a traveling sales crew?
    Ms. Sorensen. Sure. A traveling sales crew is typically 
someone who comes door-to-door to sell cleaning products, 
magazines, candy, et cetera. It's typically a network of 
illegitimate businesses, and it's usually runaway kids.
    Senator Schatz. Yes. Yes.
    Ms. Sorensen. OK. After that, we have records from the 
health and beauty services, so that's labor trafficking within 
those, not just sex trafficking, which we also see. And then 
it's agriculture and animal husbandry.
    Senator Schatz. Before we go down the line, it seems to me 
you're getting data coming in----
    Ms. Sorensen. Yes.
    Senator Schatz.--and those are the calls that come in. They 
may or may not be proportionate----
    Ms. Sorensen. That's absolutely right.
    Senator Schatz.--to sort of the problem by sector. So maybe 
instead of going down the line, it seems to me that there's a 
data problem. We don't----
    Ms. Sorensen. Oh, there's an enormous data----
    Senator Schatz. We actually don't know the scope of this 
problem. We don't know in terms of raw numbers or by sector 
necessarily in which sectors this is the biggest problem. We 
don't know if it's hundreds of thousands of people or tens of 
thousands of people. You may have a sense of it at the line 
level, but we just don't know, do we?
    Ms. Sorensen. Senator, that's totally correct, and that's a 
huge problem that Polaris and others in the field have been 
highlighting for years. We actually have a proposal for a 
prevalence study that we would love Congress to consider 
because we think that this data is absolutely insufficient to 
form our policies around. It is incoming data only.
    Senator Schatz. OK. So rather than go down the line, I want 
to get to one other question. In Hawaii, we had an instance of 
trafficking in the construction context. And the way that the 
bad guys were nailed was with a partnership with a carpenters 
union.
    And so I'm wondering if any of you can comment on the 
partnerships actually with labor or with the chamber, because 
it seems to me that they have, both at the management and at 
the labor level, that that's the most logical approach. And I'm 
wondering, there was not a mention of organized labor or 
unions, and it seems to me that that would be a smart place to 
start because they have both an ideological alignment with 
what's happening and an imperative in terms of their organizing 
that aligns with this. So do you have any thoughts? And I'll 
start over here.
    Mr. Lares. In Florida, the Farm Workers Association, the 
Coalition of Immokalee Workers, those are some of the more of 
the agricultural--what we have, I would say, the more organized 
groups in Florida because of how our state--the various laws, 
and the limited or lack of unions. But those would be the ones 
that have organized our state. For example, right now with the 
tomatoes, they are asking for some of our stores--one of the 
biggest grocery stores in Florida is Publix, to give a penny 
more toward the workers.
    So they're organizing our communities and the agricultural 
industry. That's the extent that I've seen.
    Senator Schatz. And very quickly, Mr. Goswami and Ms. 
Goetsch.
    Mr. Goswami. Thank you, Senator. I'm going to actually try 
to answer the first question you had about data and numbers.
    Senator Schatz. Sure.
    Mr. Goswami. Yes, there definitely is a need for better 
numbers, but I would also argue that we do have enough numbers 
that we need to act upon and act more rigorously on with more 
resources.
    I can tell you that in the Thai seafood sector, there are 
about 4 million or so migrant workers in Thailand, that the 
government estimates that about 300,000 of which work in the 
seafood industry. And there were a couple studies that have 
been done recently both by Issara and by Johns Hopkins that 
show that roughly a third or so are victims of exploitation 
that could be forced labor and trafficking. I know for Issara 
itself, through our hotlines, we get about 6,000 calls a year, 
and many of whom are, if not victims of forced labor, other 
egregious forms of illegal labor conditions that they're in. So 
we know enough and we have better tools to collect that data, 
but we do have to respond to the information that we get.
    Senator Schatz. Excuse me. My time has expired. I 
appreciate it. Thank you.
    The Chairman. Thank you, Senator Schatz.
    Senator Fischer.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman.
    Ms. Sorensen, as you noted in your testimony, the Polaris 
Project has identified and defined 25 different types of 
trafficking. And can you talk about why it is important that we 
understand the different forms of trafficking and how 
identifying the forms can help us to understand and then combat 
the traffickers?
    Ms. Sorensen. Yes. Thank you, Senator, for the question. I 
think there are two ways that we see it. The first is the 
importance of understanding the types. Each type has its own 
network of traffickers, recruiters, smugglers maybe, and 
individuals who make up an at-risk vulnerable population. Each 
type tends to take advantage of certain kinds of vulnerable 
classes, whether they're foreign national or U.S. citizen.
    When we understand the types in their most comprehensive 
forms, we have the ability to direct policy to actually 
dismantle them most effectively, whether that's targeting 
prevention education toward a particular class that might be 
migrating, or whether that's figuring out how to create better 
AMLs, so that financial institutions can look for certain signs 
that would only be present in particular types of trafficking. 
So I think in building out that understanding, we can be very 
targeted in our response.
    The other thing I would highlight is that there are cross-
type issues we can leverage, whether it is the supply chain 
transparency provisions, whether it's child protection 
provisions, whether it's gender equity provisions. There are 
things we can do that would actually help us to dismantle types 
through this unique grouping strategy. And so the strategy from 
our perspective is doing both, being able to tackle these 
things holistically in any way we can.
    Senator Fischer. And you briefly mentioned the Department 
of Transportation's Transportation Leaders Against Human 
Trafficking Initiative, and specifically the campaign that's 
put the brakes on human trafficking. Can you elaborate on the 
work that the Polaris Project is doing with the Department of 
Transportation? And is it effective? Is that program effective?
    Ms. Sorensen. So Polaris's work with the Department of 
Transportation was a few years ago. I can absolutely get you 
notes on what we did, but it isn't current, so I wouldn't be 
able to comment on that.
    [The information referred to follows:]

    Polaris was involved as an advisor to the U.S. Department of 
Transportation in 2013 and 2014 when they were working on a human 
trafficking public awareness raising initiative. They had launched a 
group called Transportation Leaders Against Human Trafficking, and we 
were part of that group, and attended the group meetings hosted at DOT 
as an NGO representative. We also advised the public awareness campaign 
that came out of this group as a recommendation called Putting the 
Brakes on Human Trafficking. What was unique about this effort is the 
number of new stakeholders it brought to the table. Through TLAHT, we 
were able to meet new government agencies and new major players in the 
transportation industry whom we had never met or engaged with before. 
We were pleased to see the DOT public awareness campaign promote the 
U.S. National Human Trafficking Hotline number at 1-888-373-7888 at 
unique new locations and with new stakeholders across the country. A 
number of new corporate relationships emerged from this initiative, and 
the effort helped to connect the dots to inform different government 
agencies of the role they can play in combating human trafficking.

    Senator Fischer. OK. And for the panel, we have several 
Federal agencies that are tasked with different grants and 
objectives to train and equip state and local governments to 
better address human trafficking. And do these agencies 
coordinate among themselves? Do they do so adequately? Do they 
work with state and local law enforcement? If we can begin down 
here, please.
    Mr. Lares. Sure. We, in the greater Orlando area, we have a 
very unique vice unit that both the Federal, the state, and the 
local law enforcement are comprised of. It's called the 
Metropolitan Bureau of Investigation. And so we have amazing 
collaboration because of that unique vice unit that we have in 
the City of Orlando. And that way if it's across state lines or 
whatever jurisdiction, that it can address that potential 
victim or get that trafficker without--you know, it's more 
seamless.
    So from that level, I know that the funding sources don't 
necessarily mix, but because of our unique vice unit, we are 
working together. So I couldn't really address the funding 
source or who's getting what.
    Senator Fischer. Have you seen an increase in arrests? And 
is that due to more activity by the vice unit and working with 
others, or is it an uptick in activity with human trafficking?
    Mr. Lares. I think it has been really key with the 
awareness more and more as the awareness gets out there, 
especially with the Polaris hotline, that we've been able to 
really post just every stakeholder. So the dozens of 
stakeholders that comprise our task forces a lot of times put 
on their websites.
    So I think, Senator, it's more of a--I don't think the 
problem is getting worse, I think that people are reporting, 
and as she stated earlier, we've seen more victims self-
identify in the last year than I've seen in the last 13 years. 
So they're getting the information where it's on the street 
that there's help.
    Senator Fischer. Thank you.
    Sir.
    Mr. Goswami. Thank you, Senator. I can only speak to again 
Southeast Asia, where we operate. And unequivocally, the 
funding and assistance and partnership we receive from USAID, 
specifically their supply chain initiative, and the U.S. State 
Department has really helped us both innovate in the technology 
arena so we can capture more stories of workers through 
technology, but also do on-the-ground programming working with 
suppliers and taking an act upon those stories and make the 
necessary changes.
    Senator Fischer. Thank you.
    Ms. Goetsch. Yes. So we do work with the Federal agencies 
across the Nation, but I would say it varies state by state as 
far as our public-private partnership with them and how that's 
fleshed out on the ground level. So we do really look to 
activate local law enforcement because typically they're going 
to be the first responders when you're talking about travel 
plazas or truckers making calls.
    And, you know, with the hotline, all of our material that's 
going out to the trucking industry has a hotline because we 
want to continue to seamlessly work with law enforcement who 
are trained on human trafficking and who are going to respond 
appropriately and arrest the trafficker and the buyer and 
hopefully recover the victim.
    Senator Fischer. Thank you.
    Ms. Sorensen.
    Ms. Sorensen. Sure. So I just wanted to speak to the 
integration of law enforcement with the National Hotline 
specifically. And so one of the responsibilities in operating 
the hotline is not just to assist the victim with their real-
time concerns, but also to make reports where appropriate. And 
so while we have confidentiality policies and reporting 
policies, unless--most of the time victims do choose to report, 
and so we have protocols, hundreds of protocols, throughout the 
country that are locally based, but national in scope, that 
cross Department of Homeland Security, Federal Bureau of 
Investigation, local police.
    And it's really up to the state and locations how they want 
to integrate their policy so that they work on the ground, 
whether it's a call at 3 a.m. about a domestic minor sex 
trafficking victim or maybe it's about a foreign worker who's 
in agriculture. Right? We need to make sure that they can 
appropriately respond and that that victim is safe.
    Senator Fischer. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Fischer.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chairman and Ranking 
Member. This is a great conversation. Let me just first of all 
say this. I'm from Nevada. I was a former Attorney General 
there for 8 years. Thank you to the Polaris Project. You are 
instrumental in my state in helping us address this issue, 
which I look at as human trafficking, really breaking it down 
to labor trafficking and then sex trafficking, and then 
further, different types underneath. And in Nevada, we really 
focused on the domestic side of human trafficking. So thank you 
for what you do.
    Thank you to the Trucking Association. Because of your help 
and support, our Nevada Trucking Association has an incredible 
program to educate our truckers. And I went through every 
single truck stop in Nevada with our Trucking Association to 
educate and talk about how we address this issue in human 
trafficking.
    But before I forget, let me ask a couple of questions. The 
hotline is instrumental. And I agree, we do not have enough 
data collected nationally. There is data locally. The vice 
units. I know in southern Nevada, our vice unit collects data 
and has been over 10 years, so that has helped us, but we don't 
have enough of it nationally.
    The hotline is a great help. And you're absolutely right. 
One of your partners that I think is key are the Attorneys 
General because of the work through the Attorneys General and 
the data that we've collected, you give that back to the 
states, and we do something with it.
    The hotline calls that you get, though, are not necessarily 
victims, though. They could be from anyone. And they don't 
necessarily always pan out as a human trafficking incident, but 
we want to make sure people know about it. Is that correct?
    Ms. Goetsch. That's absolutely correct.
    Senator Cortez Masto. Right. And in the state of Nevada, 
not only did we work to pass State law to make sure that the 
hotline is located in many of our buildings, many of our task 
forces, many of our groups are working under the same premise 
that the hotline is key. So we should use that at a national 
level and promote it everywhere we go, so thank you for that.
    So it's a space that I've worked in for a number of years, 
and we still have work to be done. One is on the demand side, 
which we really need to focus on. And so I appreciate the 
Chairman. And I heard that you're looking at addressing this 
potentially. I would love to work with you on that.
    But the other is the training, and this is sort of my pet 
peeve. Training is absolutely necessary. And there are 
different types of training, however. I know working with 
victims, not every victim, particularly of sex trafficking, 
realizes they're a victim. And then there is a level of trust. 
And the training we provide to a first responder versus a 
training we provide to somebody in the trucking association or 
in our airports is going to be different. And there is always 
this talk about we need to fund training, we need to promote 
it, but we don't talk about what the training should be, what 
it should look like. And because of it, there are so many 
people that want to help, but I don't know if we're doing the 
right by those victims and the responders in identifying this.
    So what I would like to see, and I'm curious about your 
thoughts on this, is to have some sort of national standardized 
training model or a center of excellence where we can actually 
bring people together to figure out the type of training that 
is necessary for the type of human trafficking we see, and then 
send them back to their states or wherever where they're 
providing that type of training that is specific. I'm curious 
your thoughts on whether that is needed or not?
    Ms. Sorensen. Sure. Thank you for the question. And I would 
love to hear Esther's response to this as well, given her very 
particular lens.
    So we have--yes, we have encountered a problem about 
quality in training for years. And one of the responses that 
the Federal Government set up was in instituting the Office of 
Victims of Crime Training and Technical Assistance Center that 
specifically focused on human trafficking training for task 
forces and local communities. It has been very successful in 
its efforts to create a level of quality for those audiences 
and associated audiences.
    Health and Human Services recently also built a pilot 
training for health care providers, and their method of going 
about this was to bring survivors to the table, bring medical 
professionals to the table, dental professionals, psychiatric 
professionals, and NGO advocates, and take about a year and a 
half to actually build and test something that they're now 
feeling fairly confident about. That was the first time that I 
saw something really thoughtfully integrated into the community 
for specific audiences, but to do so in all of the--I would 
say, going back to Senator Heller's question, the idea of these 
cross-purposed types, like when we're looking at vulnerable 
populations, how do we address for that? How do we address for 
the sectors that are most influenced or impacted by human 
trafficking? I love the idea.
    I think a group that I would love for you to float that 
idea by is the U.S. Advisory Council on Human Trafficking. I 
think they're going to have a lot of thoughts on this. And 
since they are already giving feedback to Federal agencies 
specifically on training, I think they're going to be able to 
reflect for you the challenges that are currently facing the 
agencies and how you might be able to address those from a 
policy lens.
    Senator Cortez Masto. I appreciate that. I'm really 
curious, though, in bridging that gap between what's happening 
at the Federal level and the State level. So let me address 
this as somebody who came from the law enforcement side. In the 
state of Nevada, we had no sex trafficking crime. Most of the 
sex trafficking was prosecuted at the Federal level because 
there is sex trafficking crime at the Federal level. So we 
passed a state crime of sex trafficking, which then gave our 
DAs, the Attorney General's Office, the ability to now 
investigate and prosecute and go after it at the State level as 
well because unfortunately there's enough work to go around.
    I think--I can't speak for every state. I know that's what 
was different in Nevada, and that's why now we have the ability 
to do it at the State level and the Federal level. I want to 
make sure, though, the Federal training that is still needed 
out there, whether it's for law enforcement or whoever, that 
the state--the folks, the nonprofits, that are also providing 
the training, are doing the same thing. They should be 
collaborating. There should be this networking and connection, 
and that's why this kind of idea of a center of excellence or 
the standardized training is important. So I appreciate that.
    Any other comments other than I appreciate the conversation 
today?
    [No audible response.]
    Senator Cortez Masto. Thank you very much.
    Thank you.
    The Chairman. Thank you, Senator Cortez Masto.
    Mr. Lares. Could I ask the Senator a question? Yes. That--
did you--was it mandatory in Nevada for law enforcement to 
report the data?
    Senator Cortez Masto. It was not mandatory, but because we 
came together as the Task Force, and this was a focus of 
everyone in the state, we shared the data. So law enforcement 
in southern Nevada automatically was collecting, the vice unit 
was already collecting that data for over 10 years--both on the 
child side and the adult side. Northern Nevada, they started 
collecting some of the data. The challenge we had, though, is 
not apples and oranges, right? So somebody might be collecting 
data in northern Nevada that is different than southern Nevada, 
so you couldn't put the two together. So there still needs to 
be that standardization, and that's what the task forces should 
be working to do.
    Mr. Lares. Yes, ma'am.
    Senator Cortez Masto. Yes.
    Mr. Lares. Thank you.
    Senator Cortez Masto. Thank you.
    The Chairman. We're just discussing, though, that's a first 
whether someone on the panel asks a Senator a question, so----
    [Laughter.]
    The Chairman. We may be creating a new precedent here, who 
knows.
    [Laughter.]
    The Chairman. Senator Cantwell is up next, but I understand 
you're yielding some time to----

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Yes. I'm just going to thank all of you. 
We have the FBI hearing. I'm not just leaving because I don't 
want you to ask me a question.
    [Laughter.]
    Senator Klobuchar. And I'm actually going to ask 
Christopher Wray about human trafficking. But I just want to 
thank you for your work. As you know, we've been long involved 
in this, and it's always been bipartisan. Senator Cornyn and I 
passed the major bill, and I want to thank Senator Thune and 
Nelson for their work, Ms. Cortez Masto and many people here. 
And I really believe this work we're doing now training people 
in the private sector is going to be very important as well. 
Two reasons, one, more eyes, ears, on the ground; but, two, it 
makes more people aware of this problem, which is still a huge 
problem in our country when you talk to police officers that 
are in undercover operations. It's unbelievable numbers. So 
thank you so much for your work.
    Thanks.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. And again I also 
want to thank you and the Ranking Member for holding this 
hearing and for our panel and the discussion. It is so, so 
important, and so I thank you for the work that you're doing.
    Mr. Goswami, I wanted to ask about obviously the victims of 
trafficking. You've talked about how oftentimes they are 
brought here illegally from various countries or put into 
slavery-type conditions. And obviously this is one of the 
things we have to crack down, and obviously lots of things that 
we need to be doing.
    What about the actual victims once they are brought out of 
the situation, what do we need to be doing to make sure that 
they get the medical services they need? Because I'm worried 
that some of them being the victims of this are afraid to come 
out of the--we were involved several years ago with our 
colleague Senator Brownback on some legislation on the male 
order bride industry, and we found out that people, women, were 
being recruited to come to the United States and be married to 
somebody, but they would very rarely feel comfortable in coming 
out of the dark when abusive treatment and all sorts of things 
happened because they thought, well, I'm going to be deported. 
And so they would not come out of the shadows. And we were able 
to successfully put some new regulations into that area of the 
law so that, first of all, women knew who these individuals 
were so that they weren't just, ``Oh, yes, come to America and 
get married to somebody.'' We wanted to make sure it was 
disclosed if they had any kind of criminal backgrounds, all 
this. But, anyway, it exposed this coming out of the shadows 
effort. So what are we doing to help these victims when they 
can come out of the shadows and get the kind of medical and 
social services treatments that they need?
    Mr. Goswami. Thank you, Senator. That's a very interesting 
question and probably requires more than 5 minutes. I'll talk 
briefly about the experiences we've had working with primarily 
Burmese, Cambodian, and Lao migrants in Thailand who do come to 
Thailand because there are better economic opportunities for 
them there. Sometimes they migrate willingly on their own 
because they are pursuing a job, or sometimes they are 
trafficked into Thailand as well.
    One thing that we've done, many surveys of workers and 
migrants in our areas, to determine what their needs are so 
that we are adequately meeting those needs, or referring them 
to organizations I can. And we find that time and time again 
most of them want compensation for the labor that they did, 
that they were not paid to do or that they were forced to do in 
slavery-like conditions, even unpaid overtime, et cetera. So 
they do want--they want their just due. They also want access 
to jobs.
    And that's why our methodology of working with global plans 
and U.S. companies to put pressure on their suppliers to 
improve working conditions so that those workers can continue 
to work but in decent, fair, and legal conditions so they can 
provide for themselves and their families.
    We do find, by and large, that after those first two needs 
of getting decent employment and fair wages, their needs are a 
whole host of social as well, which I think the Polaris Project 
can probably talk more to in the U.S., but it could be family 
reunification, it could be medical issues, it could be other 
issues as well. However, I think one thing that I would like to 
leave with is I think it's very important to not assume what 
their needs are. They may have PTSD, they may have other 
trafficking-related issues that they deal with, but it's 
important to listen to them and say, ``What are the top three 
things that you want immediately and then we can work on the 
other stuff later?'' and not impose what we may think the 
solutions are.
    Senator Cantwell. Is there a supply chain of medical help 
that's available to these individuals?
    Mr. Goswami. Issara does rely on the network of local 
nonprofits and some government-backed institutions in the 
Thailand area to provide medical assistance. And Thai law also 
requires that if a migrant is, quote/unquote, escaped from a 
situation of slavery or trafficking, they are entitled to 
certain medical benefits as well. They, as you can imagine, 
including in this country, they are far and few in between and 
not enough to meet all the needs of----
    Senator Cantwell. So is that something that we should, I 
don't know what the right word is, try to make sure that there 
is an awareness of the availability of services?
    Mr. Goswami. I think definitely an awareness, but also more 
resources for services in general.
    Senator Cantwell. OK. All right. Thank you so much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Senator Capito.

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman. And thank the 
ranking member as well. And thank all of you for your 
dedication to a really tough issue.
    You know, I've been in Congress now for a fairly long time, 
and we've done quite a bit, I think, to raise awareness, to 
focus more resources, but we couldn't do it without help that 
we're receiving from folks like you.
    I'm from a rural state, and I thought, well, I'm going to 
have a community meeting on human trafficking, thinking I'll 
probably get 10 people to come. But it's an interesting topic, 
we were doing something on the floor of the House at the time. 
I was amazed at the number of people and the different and 
divergent folks who waited from law enforcement and social 
agencies, and youth. A woman came and testified about her 
daughter who had been sexually trafficked for years and the 
ups-and-downs of her life.
    So my first question is, you know, you assume this is 
happening in big cities, but it's happening in rural America. 
And I'm wondering, Ms. Sorensen, what is your perspective in 
terms of what you're seeing in the data and anecdotally in 
terms of rural America versus more urban areas?
    Ms. Sorensen. It's going to be dependent on what part of 
the country we're talking about rurally.
    Senator Capito. Yes.
    Ms. Sorensen. Obviously, different kinds of agriculture 
institutions, different kinds of labor historically or 
otherwise, being present in certain rural locations, but I 
would say that generally speaking the awareness is much lower. 
And so when we are looking at rural communities, we are just 
not getting the kinds of responses that we are from urban 
communities. That's a major concern to us, that we don't have 
that level of engagement--I mean, it sounds like perhaps the 
meeting you held was very different, which is wonderful, but 
that's not consistently true.
    We certainly don't have the resources available----
    Senator Capito. Right.
    Ms. Sorensen.--for victims in rural locations in the same 
way that we do in urban locations. That's most concerning 
particularly when we talk about males being trafficked, and we 
can't rely on maybe domestic violence shelters the way we would 
for women or for girls. It's also going to be concerning when 
there hasn't been some level of intimate abuse because then 
there is also just a dearth of housing services in particular.
    We also are concerned about the lack of transportation 
generally. One of the things that I noted in the written 
testimony is that while we have a lot of awareness with 
transportation partners and with the Department of 
Transportation itself, in rural communities even when we do 
identify a shelter we are unable to get someone to the 
location. So we end up relying on local police or on donations 
to get someone to that critical resource.
    Senator Capito. Right.
    Ms. Sorensen. So it's a different issue. We actually have a 
staff member whose role right now is focused on building 
awareness and integrating the understanding of what the hotline 
can provide with rural communities in particular. And we have 
another staff member focusing on the American Indian/Alaska 
Native communities. And in combination, we're hoping to address 
some of the issues that we see across those two vulnerable 
populations.
    Senator Capito. Well, I mean, I would love to work with you 
on that issue. I think what was mentioned earlier about 
training is absolutely critical, and it is more difficult. A 
lot of these smaller areas cycle through their law enforcement 
folks rather quickly, and they've got a lot of different 
issues.
    One of the things that--I have two kind of other questions, 
and anybody can jump in here--the relationship between 
trafficking and drugs and the drug trade and drugs being used 
to further enslave people or to be used as mules or whatever, 
because we have a huge opioid crisis going across this country, 
and heroin. So that's my first question.
    The other, which is probably--so let's start with drugs 
because I don't think I'm going to have a chance to get the 
other. The other one I was going to ask about was language 
barriers. Obviously, that's got to be a big issue as well.
    So on the drug issue, Mr. Lares.
    Mr. Lares. Yes. Nine out of ten of our survivors and/or 
victims are addicted to some kind of drug. And in Florida we're 
seeing just a skyrocket in heroin and meth, some of the two 
drugs. So they all have to--we have partnered with detox 
centers to get them in detox.
    Senator Capito. But nine out of ten.
    Mr. Lares. Nine out of ten.
    Senator Capito. That's a pretty stunning number, I think.
    Mr. Lares. Very close relationship to the traffickers, 
whether they're already addicted or getting them addicted.
    Senator Capito. And then further grabbing hold of them that 
way.
    Mr. Lares. Yes, ma'am. We have a case in Orlando where a 
14-year-old girl was given drugs, her and her sister, and she 
ended up dying after being in the ring for 8 days, 
unfortunately 14 years old.
    Senator Capito. Oh.
    Mr. Lares. And so they are definitely using the drugs and 
the epidemic that's occurring across our Nation as a part of 
the entrapment.
    Senator Capito. Does anybody else have a comment?
    Yes.
    Ms. Sorensen. I want to send you data that we ran that I do 
not have with me today that was looking specifically at the 
last 2 years and the involvement of opioids, and it is 
significant. And so it is worth further attention, and I will 
make that available for the record and follow up with you.
    [The information referred to follows:]

    Here is some National Human Trafficking Hotline data that we ran 
for 2015 and 2016 that highlights the cases of human trafficking that 
involves substance abuse. Almost 20 percent of all potential victims 
reported to the National Human Trafficking Hotline in 2015 and 2016 
were said to have some relationship to substance abuse. Of the 
potential victims who had a connection to substance abuse 109 (5 
percent) had a caretaker with a substance abuse issue, 664 (33 percent) 
had a substance abuse issue prior to the potential trafficking and 
twenty of these individuals were recruited into their trafficking 
situation directly from drug rehabilitation centers. Additionally, 
1,594 (79 percent) had drug abuse either induced or exploited as a 
means of force, fraud, and coercion in their situation. Please also 
note that the numbers I've just shared are non-cumulative as 
individuals could have experienced more than one of the above 
situations.
    Finally, a connection to substance abuse is seen most frequently in 
sex trafficking and sex and labor trafficking cases. 527 (28 percent) 
of the potential victims about whom Polaris had information on age and 
who had a connection to substance abuse were minors. At least 66 
additional potential victims were minors at the time their trafficking 
started.

    Senator Capito. Thank you. All right. Thank you.
    Yes.
    Mr. Goswami. Thank you, Senator. Just to say that as you 
can imagine, working on a fishing boat off the Thai coast, it's 
hard work, it's arduous work, and oftentimes we have had quite 
a few cases where the workers are fed, knowingly or 
unknowingly, amphetamines to keep them awake so they can work 
for 18- to 20-hour shifts.
    Senator Capito. Yes. I'm thinking about that movie I saw, 
Captain--what was that movie? The Somalis were taking some kind 
of drug. Remember? Well, never mind, but they were on a boat as 
well. I guess that's the similarities.
    Anyway, thank you.
    The Chairman. This Senator from West Virginia is going to 
movies other places or something else.
    [Laughter.]
    Senator Capito. Tom Hanks was in it.
    The Chairman. Oh, yes. OK. That one. I know that one.
    [Laughter.]
    The Chairman. Thank you, Senator Capito.
    Senator Sullivan is up next.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman. And thank you 
for holding this hearing. And I appreciate the witnesses' focus 
on this really important issue, but it's a very difficult 
issue. I know I'm not going to ask Senator Cortez Masto another 
question, but her line of questioning I think was actually 
really important with regard to state-Federal cooperation. And 
2 years ago, in the Victims of Trafficking Act, we were able to 
include an amendment that really forced the Federal Government 
to be more forthcoming on cooperating with state AGs and local 
district attorneys in prosecuting Mann Act violations. And I'm 
sure you're all familiar with the Mann Act. That's the Federal 
law that prevents essentially trafficking of, you know, young 
people across state lines. But it's hard to bring an action as 
a state AG.
    Even though you have all talked about the lack of 
resources, so this was a part of this bill, and we'd like to 
work with all of you to get the word out more that state AGs, 
district attorneys, actually have a lot more authority under 
the new law that we passed 2 years ago to prosecute Mann Act 
cases even though it's a Federal crime. And this is something 
that I think a lot of us could do a better job of highlighting 
to make sure our state AGs and district attorneys know that we 
have those resources now. And we'd love to work with you on 
getting the word out because I think it's a great way to go 
after some of these crimes and spread the resources when, as 
you've testified, we're all kind of hurting on the resources. 
So I would look forward to working with all of you on that.
    Let me ask another question. It's really a follow-on from 
Senator Capito's question when you talk about vulnerable 
populations. She mentioned rural victims, and I'm very 
interested in that, being from Alaska, but also homeless 
victims and homeless youth.
    My wife works at Covenant House in Anchorage, and you may 
be familiar, and I would like to submit them for the record, 
Mr. Chairman, a study, a ten-city study, by Loyola University 
and Covenant House on labor and sex trafficking among homeless 
youth.
    The Chairman. Without objection.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    

    Senator Sullivan. And this is just a recent New York Times 
article. Also I would like to submit for the record ``Homeless 
Youth at High Risk of Human Trafficking.'' And in Anchorage, 28 
percent of homeless youth were victims of human trafficking, 
which was a shocking number for our community. A lot of people 
weren't aware of that.
    [The article referred to follows:]

                 New York Times--April 17, 2017 6:21 pm

            Homeless Youth at High Risk of Human Trafficking

                           By Tariro Mzezewa

    For decades, one set of activists and legislators have fought to 
end human trafficking, while a different set have worked tirelessly to 
try to end homelessness. Activists and legislators have rarely teamed 
up to fight the two issues simultaneously.
    Now a new study suggests that the key to ending trafficking of 
young people is to eradicate youth homelessness first.
    ``The vulnerability children experience when they are alone, hungry 
and without shelter on the streets makes them particularly susceptible 
to trafficking,'' said Kevin Ryan, president and chief executive of 
Covenant House, a shelter for homeless teenagers and young adults 
across the country.
    The study was released on Monday by Covenant House, as well as the 
Field Center for Children's Policy, Practice & Research at the 
University of Pennsylvania and Loyola University Modern Slavery 
Research Project in New Orleans.
    After interviewing 911 homeless young people across 13 cities in 
the United States and Canada, researchers concluded that 56 percent of 
homeless transgender youth had been involved in the sex trade in some 
way, while 40 percent of homeless young women and 25 percent of young 
men were. About 27 percent of L.G.B.T youth reported experiences 
consistent with the U.S. Federal definition of sex trafficking.
    Sex trafficking is the recruitment, harboring, transportation, 
provision, obtaining, patronizing, or soliciting of a person for the 
purposes of a commercial sex act, in which the commercial sex act is 
induced by force, fraud, or coercion, or in which the person induced to 
perform such an act is a minor.
    ``The vulnerability children experience when they are alone, hungry 
and without shelter on the streets makes them particularly susceptible 
to trafficking,'' said Ryan.
    The researchers found that of those interviewed, nearly one-fifth 
of homeless youth in the United States and Canada are victims of human 
trafficking, including those trafficked for sex, labor, or both. Some 
20 percent were victims of human trafficking.
    For Naomi, who was trafficked as a teenager, learning that so many 
young homeless people are often exploited is no surprise.
    In 2008, at the age of 16, Naomi, whose real name has been changed, 
left Haverford, Pa., to spend a week with a friend in New York City. 
Upon arriving in the city, she was trafficked. Over the next four 
years, she was bought by one pimp from another, sold for sex in New 
York and New Jersey, forced to have sex with strangers several times a 
week and eventually arrested for prostitution.
    While trapped in a Brooklyn apartment, owned by a pimp who locked 
her in a closet when he left the house, Naomi tried to plan several 
escapes, but always ended up choosing to stay with the man who abused 
her because she was scared of ending up homeless and alone.
    ``The fear of having nowhere to go, of being homeless was very 
real,'' she said. ``He would say my family wasn't looking for me, that 
they didn't care where I was and no one would help me if I left.''
    Naomi was mandated by the court to attend therapy sessions at Girls 
Educational and Mentoring Services, an organization that helps girls 
and young women who have been involved in prostitution. The 
organization connected her with Covenant House.
    In March, a month after vowing to end human trafficking, President 
Donald Trump proposed, through his budget, eliminating the Interagency 
Council on Homelessness. His move was widely criticized by anti-poverty 
advocates, who believe that ending poverty is central to fighting 
trafficking.
    ``One of the ways we will end criminal exploitation of children and 
youth is to make sure there is a robust safety net for homeless 
issues,'' said Ryan. ``To end human trafficking, we must end youth 
homelessness.''

    Senator Sullivan. What are the things--and I'll just open 
this up to everybody--what are the things that we can do and we 
can focus on working with groups like yours to help address 
these populations, whether they're from rural states like West 
Virginia and Alaska or whether it's the homeless youth problem 
that seem particularly vulnerable to human trafficking? What 
are the things that we should be trying to do here working with 
you or working with states, like we've been talking about 
earlier? Yes, I'll open that up to all of you.
    Ms. Sorensen. Thank you for the question. Your wife works 
at Covenant House, what a wonderful institution with great 
research, so hats off to her work.
    Senator Sullivan. Yes, they're great, very passionate.
    Ms. Sorensen. Homelessness is indeed one of the greatest 
drivers that we see. I'd love to run stats for you specifically 
looking at minors and then looking at young adults so that we 
have some sort of data differentiation there, but I would like 
to give that to you. I don't have that with me now.
    [The information referred to follows:]

    From January 1, 2015 to June 30, 2017 there were over 1,200 
potential victims of human trafficking reported to the hotline who were 
runaway or homeless youth or others who experienced unstable housing 
prior to the start of their trafficking situation. The age breakdown of 
these individuals when Polaris first learned of their situation is as 
follows: 614 minors; 262 Young adults (18-26); 156 older adults; and 
226 individuals of unknown age.

    Ms. Sorensen. But it is certainly something that we see all 
of the time. It's either something that--whether a parent is 
insecure and that makes the minor at risk, or if it's the minor 
themselves.
    We also see tremendous intersection with the community that 
identifies as Lesbian, Gay, Bisexual, or Transgender, and when 
these risk factors are combined, we have cause for deep 
concern.
    One of the policy areas that we think needs immediate 
attention is the reauthorization of the Runaway and Homeless 
Youth and Trafficking Prevention Act. That has been lingering 
for some time in front of the Senate and the House. But it does 
provide the majority of resources for youth either at risk to 
homelessness or who are already homeless, including resources 
for counselors and other school staff who can provide guidance 
and assistance to the youth who are still attending school as 
well as street outreach and other kinds of services.
    So I think we're looking ideally at, how do we prevent that 
homelessness in the first place?
    Senator Sullivan. Yes.
    Ms. Sorensen. We need to look at revamping the way that we 
deal with families. How do we keep them together? How do we 
provide resources to them so that they're not at risk of 
homelessness in the first place? But then once that's happened 
and that minor is still engaging with community resources, how 
do we keep them safe?
    So I think there are a couple of things, but RHYTPA, I 
would deeply advocate for its reauthorization.
    Senator Sullivan. Great. Anyone else on that topic?
    Mr. Lares. In Orlando, we're also partnered with the 
Covenant House there. They've been a great partner in taking 
victims of human trafficking. The majority, Senator, of our 
victims are homeless, and so as she had also stated, the LGBT 
community is super at risk. Also----
    Senator Sullivan. Why is that? I mean, I know that was in 
some of the studies. But what makes them more at risk than 
other populations?
    Mr. Lares. I believe part of it is there is no housing or 
shelter for boys who are transgender, and so they repeatedly 
end up in forced pornography, these different sex rings. It 
starts a lot of times as survival sex because maybe they came 
out and were rejected by family or the community. And so this 
is definitely a problem, is the housing and shelter, as she had 
indicated, for these young people.
    Senator Sullivan. All right. Thank you.
    The Chairman. Thank you, Senator Sullivan.
    Senator Young.

                 STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Thank you, Chairman.
    Ms. Goetsch, I first want to commend you and your 
organization, Truckers Against Trafficking, for shining a light 
on this issue, doing what you can to help staunch it. I 
represented one of the counties in our Nation that's been worst 
hit by the opioid epidemic in recent years, Scott County, 
Indiana. There were massive HIV outbreaks. And Scott County 
sits along a major interstate corridor, and we fear that the 
transit hubs located along that corridor and other corridors 
can become incubators for addiction and disease and further 
social pathologies. And so I just wanted to publicly commend 
you for your work.
    Ms. Sorensen, you've spoken to, in your testimony and 
elsewhere, the importance of a data-driven approach. In fact, 
that's what Polaris offers, those who are trying to make a 
difference here, identifying trends, working to stem the flow 
of these appalling crimes through identification of those 
trends. There's clearly an importance of collecting the 
relevant data, of standardizing that data, of disseminating it 
to decisionmakers and analysts and scholars who are doing their 
best to try and staunch this human trafficking industry.
    Given that Polaris is on the forefront of combatting this 
crime and this challenge, how can Congress best assist groups 
like Polaris in this data-driven approach through improved data 
collection or perhaps other measures?
    Ms. Sorensen. Thank you for your question.
    Senator Young. Yes.
    Ms. Sorensen. I think this is a real area of conversation. 
So the Presidential--sorry--the President's Interagency Task 
Force has a subgroup that specifically focuses on data 
collection and standardization. And it has been a struggle. I 
think they wouldn't mind my reflecting it that way, but across 
Federal law enforcement agencies in the first instance is 
difficult. Incorporating state law enforcement agencies after 
that, more difficult. But also even across HHS and DOJ for the 
Office of Victims of Crime has been challenging.
    So we hear Federal agencies pushing the mantra of 
standardization, but I think the more we can bring perhaps 
academics into that debate to help with that conversation so 
that it happens more quickly, so that it happens as efficiently 
as possible, it would always be welcomed.
    We are trying to do work slightly outside of the Federal 
agencies as well, so we have recently embarked on a partnership 
with the International Organization of Migration to create 
something called the Counter Trafficking Data Collective, which 
would gather all of the data from anonymized cases from 
hotlines around the world to make available to scholars and 
academics and others who can access it privately so that we can 
learn more but without endangering any sort of victim through 
sharing too much information. I think----
    Senator Young. Have we gotten to the point where we're able 
to analyze sort of leading indicators so that we can get out in 
front of this problem in particular geographies or among 
particular identified sets of our population?
    Ms. Sorensen. I think if we collate that information, we 
can.
    There's another idea I might put forward to you, and it's 
something that Senator Blumenthal introduced last Congress. It 
was called the Visa Transparency Anti-Trafficking Act. And it 
would require an annual publication of particularly the 
temporary work visas that are granted every year. And we know 
from operating the hotline, we analyzed 2015 data, and in one 
year, we saw that 40 percent of our labor exploitation and 
trafficking references were from people on temporary work 
visas. So we see this massive correlation.
    Now, if we had the information about where those 
populations were coming from, what industries they were being 
authorized to work in, what regions of the country were they 
going to, we might be able to better direct Department of Labor 
or other kinds of investigators to target their oversight in 
particular ways. We could also drive prevention education 
efforts to populations that we know are consistently migrating 
for certain kinds of at-risk work.
    So I think there are a few ideas. One is obviously that 
data standardization, but it's also we have a lot of this data, 
we're just not necessarily using it to the best of our ability 
yet.
    Senator Young. Well, this area of data science and data 
analytics and so forth is something that we're increasingly 
becoming sophisticated at. So I would love to work with you and 
your organization on any improvements at the Federal level we 
can make, statutory, regulatory, whatever.
    I just want to sort of conclude here by shining a light on 
the state of Indiana. As some of you are aware, our state has 
done some incredible path-breaking work with respect to 
addressing this issue, really regarded, I think, by many states 
as a national model. The Indiana Protection for Abused and 
Trafficked Human Task Force, or IPATH, has been an ongoing 
initiative to study the problem to come up with a way to 
address it across jurisdictions of government, with various 
other stakeholders around the state of Indiana. And it was 
informed in no small part by Polaris and the work you do. So 
thank you for that.
    Mr. Chairman.
    The Chairman. Thank you, Senator Young.
    Well, let me ask one last question maybe for the panel, and 
then we'll wrap up and let you all go. But your testimony I 
think really highlights the significant impacts that awareness 
can have and make when it comes to combatting human 
trafficking. So in your view, how can the average person be 
more vigilant to identify human trafficking? And what can they 
do or what can we all do to help? It's kind of an open question 
for whoever would like to respond to that.
    Ms. Goetsch. That's a great question. You know, at the 
heart of our work is turning those once passive populations, 
which are made up of individuals, into a disruptive force. And 
so I would encourage people to do those small acts of 
resistance against, you know, the bad and the evil around us, 
whether that's becoming more informed and aware about human 
trafficking, and then recognizing places in your everyday life 
that you can activate that information, whether you're a 
taxicab driver, a bus driver, a truckdriver, a hotel worker.
    All of us, you know, as you said in your opening remarks, 
it's a crime that often happens in the open if we have eyes to 
see what these victims are going through and what some of those 
indicators are.
    Mr. Lares. One of the things that we're doing is 
encouraging not just my agency, Florida Abolitionist, but all 
the task forces in Florida, to wherever they present, we have 
everyone put in right on their smartphone, it's part of the 
presentation, the Polaris hotline. And so literally thousands 
of people have the hotline, and we say you can call, you can be 
anonymous, but please make the call. If you see something, say 
something, and I believe many in Florida are responding to 
that. It's very practical.
    The Chairman. Anyone else?
    Mr. Goswami. A couple of years ago when we had a lot of new 
reports around slavery in the seafood sector in Southeast Asia, 
we realized that a lot of this seafood, this tainted seafood, 
is coming into both consumption for Americans but also their 
pets. The first thing I did when we saw those news reports is I 
called the pet company that we buy our pet food from, and they 
immediately responded with some proactive steps. They told me 
about the proactive steps that they take.
    In that vein, although we do have these data challenges, we 
do know enough about where slavery or human trafficking is 
impacting the clothes that we buy and the food that we eat, and 
I think the more that the public can both encourage companies 
that they buy from to implement ethical sourcing measures and 
hold them accountable to that, the better it is for the rest of 
us who are working with them on the ground to make these 
changes.
    The Chairman. All right. Thank you.
    Ms. Sorensen.
    Ms. Sorensen. I would just echo my colleagues, who are 
providing excellent suggestions. I think there are also tools 
that in particular in the private sector and the Federal 
Government have already produced. I want to draw attention to 
the International Labor Affairs Bureau's Sweat and Toil tool, 
which people can download, to identify at-risk products and 
materials that they might think twice about buying. And it's a 
phone app. So when people go to the grocery store and they know 
that their such-and-such produce is from such-and-such country, 
they might reconsider because we know that that actually might 
be made with forced labor. So there are easy tools like that.
    The people who run companies, people who are employees of 
companies, can check Responsiblesourcingtool.org and figure out 
where common supply chain problems might be happening within 
their companies and take action. That can certainly be true of 
investors as well. So as investors, if we have retirement 
accounts, we all have some level of agency to demand change 
there.
    So I think the more we start to vision ourselves as actors 
in this--I think this crime unfortunately is one that happens 
not just because there are bad actors, but because we are 
ourselves exist in such complex supply chains and we are so 
interdependent on each other's global markets. So once we can 
start to change that view, we have a chance of changing this 
crime.
    The Chairman. Well, thank you all very much. Like I said 
earlier, I think that this is an issue which, at least in this 
country, our goal ought to be to completely eradicate it. And I 
know there are other areas of the world where it happens, and 
we need to be combatting those in every way that we can, too, 
but we want to use every tool at our disposal.
    And this Committee's jurisdiction, of course, is the 
transportation sector, which plays into this, as we heard 
today. We have technology under our Committee's jurisdiction. 
And so there are other committees also that share that 
jurisdiction within the Senate, but I certainly want to give 
the focus that's necessary, the attention that's necessary from 
our Committee as well to ensure that we're taking all steps 
possible. And as I mentioned, there will be a couple of bills 
that hopefully on our next markup we'll include that will 
address this issue more specifically.
    But your testimony has been outstanding. Thank you so much, 
not only for that, but for the great work that you and your 
organizations are already doing. These are heinous crimes, and 
it's hard to imagine sometimes what--that this is a blight on 
humanity, and we need to do everything we can to stop it in its 
tracks.
    So thank you for what you're doing. Keep up the good fight. 
We will keep the hearing record open for a couple of weeks in 
case Members have questions, and if they submit questions for 
the record, we would ask that you respond to those as quickly 
as you can.
    Thank you. And this hearing is adjourned.
    [Whereupon, at 11:46 a.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                             Keeli Sorenson
    Question 1. I understand you grade each state based on the legal 
framework each state has created to punish traffickers and support 
survivors. The last report appears to be from 2014, in which Alaska 
ranked in Tier 1, illustrating that the State has passed significant 
laws to combat human trafficking. Will you be doing an updated report, 
and if so, do you have any information as to what Alaska's grade be? 
What would the Nation's grade be looking at our Federal framework of 
laws regarding trafficking? Do you have suggestions for improving the 
Nation's grade?
    Answer. Polaris completed our final State Ratings Report series in 
2014. At that time, Alaska had received a Tier 2 rating, indicating 
concrete areas where the state could improve anti-trafficking laws. The 
2014 state report pointed to the following recommendations:

  <bullet> Renew appropriations for law enforcement training.

  <bullet> Enact the creation of a state-wide human trafficking task 
        force

  <bullet> Require the posting of a human trafficking hotline

  <bullet> Enact laws enabling victims to vacate convictions for crimes 
        they were forced to commit as a result of their trafficking 
        experience

  <bullet> Provide support for victim assistance

  <bullet> Pass legislation that requires law enforcement to treat 
        minors engaged in commercial sex as victims instead of 
        criminalizing them

    While Polaris does not engage in rating the whole of the United 
States on its anti-trafficking commitment, we would recommend that the 
U.S. Congress take steps to address critical gaps in the law. We would 
recommend that the U.S. enact laws that enable victims to vacate 
convictions for crimes they were forced to commit as a result of their 
trafficking experience, and take steps to protect children who have 
been engaged in commercial sex, and ensure robust funding for victim 
services. Additionally, we believe the government should take steps to 
develop a prevalence methodology to understand the number of victims of 
human trafficking in the United States at any given time.
    The United States also lacks sufficient laws regulating foreign 
labor recruiters. Every year, hundreds of thousands of people coming to 
work in the U.S. on visas are put at risk of labor trafficking by labor 
recruiters who prey on the hopes of workers by charging them brokerage 
exorbitant fees and deceive workers about the conditions and terms of 
their work. The U.S. lacks robust legal safeguards to ensure that 
recruiters cannot abuse structural failures in U.S. visa programs and 
exploit already vulnerable workers. Greater legislative action is 
required to hold exploitative recruiters responsible for their actions. 
Congress should pass legislation which includes provisions requiring 
foreign labor contractors to disclose honest information about the 
terms and conditions of work in the United States to workers; prevents 
foreign labor recruiters from charging workers fees related to 
recruitment activities; requires employers to use recruiters who have 
registered (for a fee) with the Federal Government (thereby indicating 
compliance with the aforementioned conditions); and ensures that 
foreign labor recruiters are subject to criminal, civil and 
administrative penalties if they violate the aforementioned provisions.

    Question 2. How many hotline calls, on average, do you receive from 
Alaska on a monthly or annual basis?
    Answer. Our call volume increases at a relatively rapid pace every 
month. In calendar year 2016, the National Human Trafficking Hotline 
received 91 substantive calls, which is almost double what it received 
in calendar year 2015. While the call volume by month varies quite 
significantly, the highest call volume months for Alaska in 2016 were 
(in order) December, August & October (tied), and March.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                             Keeli Sorensen
    Trafficking in Commercial Aviation. Ms. Sorensen, another area 
where we see a substantial amount of human trafficking is in the 
commercial aviation area. In last year's FAA extension bill, there was 
a provision that sought additional training for flight attendants to 
recognize and report suspected incidents of human trafficking.

    Question. Do you think this additional training is helpful and is 
there anything else we should be doing in this area?
    Answer. Training for commercial flight attendants and other airline 
personnel is critical. We know that victims, whether foreign national 
or U.S. citizen, use commercial flights while in their trafficking 
situations and that training efforts can help staff to identify and 
assist victims safely. The National Human Trafficking Hotline has 
received calls from airline staff who have successfully assisted 
victims. Increasing access to this kind of training is important. I'd 
recommend seeking additional advice on ways to improve training efforts 
from Airline Ambassadors International, an organization made up of 
airline industry professionals who have led advocacy on human 
trafficking awareness since first identifying human trafficking on 
flights in 2009.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                             Keeli Sorensen
    The State Department Trafficking in Persons report from June 2017 
showed that labor trafficking prosecutions dropped to just 5 percent 
and labor trafficking convictions dropped to 3 percent of overall human 
trafficking cases in the United States.

    Question. Mr. Goswami and Ms. Sorensen, with the Trafficking 
Victims Protection Act up for reauthorization in September, what can 
the U.S. Government do to incentivize more accountability in labor 
trafficking cases?
    Answer. Polaris has become increasingly concerned about the steady 
decline of labor trafficking prosecutions by the Department of Justice 
(DOJ), which has been happening since 2009. In order to improve these 
efforts, we believe that the U.S. congress needs to direct additional 
funds to the DOJ's Civil Rights Division, Human Trafficking Prosecution 
Unit with specific instruction to designate staff time and attention to 
the pursuit of labor trafficking cases. It is well known that labor 
trafficking cases can require more intensive resources than sex 
trafficking cases, often necessitating unique coordination among law 
enforcement partners. Additional funding should help HTPU better 
undertake these lengthy investigations.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                           to Keeli Sorensen
    Question 1. The most recent State Department Trafficking in Persons 
report showed that labor trafficking prosecutions dropped to just 7 
percent and labor trafficking convictions dropped to 2 percent of 
overall human trafficking cases in the United States. With the TVPA up 
for reauthorization in September, what can the U.S. Government do to 
incentivize more accountability in labor trafficking cases? Are there 
tools that would help identify labor trafficking cases?
    Answer. Please see answer to the question above.

    Question 2. A 2014 GAO report identified the failure to define 
recruitment fees as a primary challenge to the implementation and 
enforcement of the anti-trafficking procurement rules. I understand the 
Office of Federal Procurement policy is expected to come out with a 
revised rule that defines recruitment soon. Can you explain how 
recruitment fees are used and how they lead to various abuses related 
to trafficking? Why is it important we define recruitment in our 
procurement rules?
    Answer. Many foreign national guestworkers are subjected to 
unregulated and abusive recruitment processes before they enter the 
United States. In many cases, these workers are charged exorbitant 
recruitment fees or incur substantial travel-based debts. Applicable 
fees vary significantly by industry but can range anywhere from $100 to 
$20,000 depending on the country of origin, method of transportation, 
and site of employment in the United States, before accrued interest.
    A report from the International Labor Recruitment Working Group \1\ 
speaks to the arbitrary and capricious nature of recruitment fees:
---------------------------------------------------------------------------
    \1\ The American Dream Up For Sale: A Blueprint for Ending 
International Labor Recruitment Abuse. The International Labor 
Recruitment Working Group. February, 2013 https://fair
laborrecruitment.files.wordpress.com/2013/01/final-e-version-ilrwg-
report.pdf

  <bullet> Migrant workers from Mexico in the Maryland crab industry 
        pay recruiters roughly $750 per season for all fees and 
        expenses necessary to participate in the program, without an 
---------------------------------------------------------------------------
        explanation of what these costs cover.

  <bullet> Guatemalan H-2B workers pay an average of $2,000 in travel, 
        visa and recruitment fees to obtain employment in the forestry 
        industry in the United States.

  <bullet> Teachers recruited for employment in H-1B or J-1 visa 
        programs pay fees ranging from $3,000 to $13,000 to recruiters 
        who schedule interviews, secure visas and arrange 
        transportation and housing.

  <bullet> The J-1 students who participated in the highly publicized 
        strike at the Hershey processing plant in Hershey, Pa., paid 
        between $2,000 and $6,000 in pre-employment expenses, depending 
        on their country of origin and recruitment agency.

    Believing that they will be able to easily repay these fees once 
they have secured high wages and gainful employment abroad, 
guestworkers often borrow money from friends and family members. In 
many other situations, guestworkers must mortgage their homes, sell 
valuables, or take out loans from predatory lenders to cover their 
debts. It can take several months, even years, for these guestworkers 
to repay what they owe, especially when they are shortchanged by their 
employers.
    Data reported through the National Human Trafficking Hotline and 
the BeFree Texting Helpline indicates that guestworkers charged 
excessive recruitment fees are especially vulnerable to debt bondage, 
where they are forced to work for free until their debts are repaid. 
Unscrupulous employers are eager to keep these workers in a state of 
debt servitude and in many situations, will continue to garnish their 
wages for unspecified debts. It is very difficult, especially for 
workers who are paid in cash or under the table without written 
documentation, to keep track of their earnings and by extension, their 
progress on repayment.
    Economic necessity, including dependent family members back home, 
as well as fears of retaliation or blacklisting from employers, make 
many indebted guestworkers reluctant to report exploitative recruitment 
or employment conditions.
    For many guestworker visas, recruitment processes are not regulated 
at all. Even for those visas that are, recruitment processes are poorly 
monitored and existing laws are poorly enforced. Exploitative 
recruiters are rarely held accountable for fraudulent behaviors, 
further incentivizing abuse.
    Developing a comprehensive definition of recruitment fees is 
extremely important so that the U.S. Government can prohibit these 
predatory practices. Furthermore, the U.S. Government should take 
necessary steps to ensure that the products and services it purchases 
are provided by workers who have not been exploited or abused as a 
result of having paid recruitment fees.
    Civil society has already taken steps to provide the Department of 
State with a comprehensive definition of recruitment fees (which can be 
provided upon request), the next step is implementing this definition.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                             Esther Goetsch
    Question 1. Due to the uniqueness of Alaska, in our supply chains 
we likely do not have as much interstate trucking as other states, but 
rather have a higher level of air freight and sea cargo. When thinking 
about force multiplying, is the advocacy and education work you are 
doing being applied or shared with other industries, such as the 
airlines, hotels and motels, or sea cargo shipping companies?
    Answer. Currently, TAT's model is being replicated within the 
convenience store industry with the introduction of CSAT (Convenience 
Stores Against Trafficking) begun by In Our Backyard. TAT has already 
begun partnering with Mexico's Consejo Ciudadano in order to replicate 
portions of our model to the majority of transportation modes in their 
country. TAT also just launched BOTL (Busing on the Lookout), in order 
to engage the thousands of school and commercial bus drivers and bus 
terminal employees in our Nation around this crime. Our model is highly 
replicable, and we are willing to consult with other agencies and 
organizations interested in replicating it via multiple industries. We 
also know that Polaris has developed training materials currently 
available for the hotel and motel industries.

    Question 2. Are there any specific areas where there is Federal 
jurisdiction--such as ports, border crossings, consular officers 
issuing visas--that you believe need further oversight or training to 
identify and protect victims of trafficking?
    Answer. Absolutely. All port authority agents, border patrol 
officers, and anyone issuing official U.S. Government documents, should 
be well aware of the signs of human trafficking and how specifically 
their office intersects with potential traffickers and victims. Generic 
training will not do here . . . what is needed is niche-specific 
training for each agency that takes into consideration the uniqueness 
of their line of employment and also provides the stakeholders with the 
necessary resources to assist victims they might recover. TAT highly 
recommends the convening of effective anti-trafficking NGOs and agency 
experts, from the offices mentioned, who could bring their expertise to 
bear in developing a focused and well-studied training curriculum, as 
well as a highly pragmatic and effective response protocol.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Esther Goetsch
    Ms. Goetsch, about 30 states have implemented all or part of the 
Iowa motor vehicle model that works with the trucking industry and law 
enforcement to combat trafficking.

    Question 1. What is the impact in states that have adopted the Iowa 
model? Why is it important that states adopt this program?
    Answer. Based on the groundbreaking work with TAT materials done by 
the Iowa Motor Vehicle Enforcement (Iowa MVE) agency, the Iowa MVE 
Model organizes the state patrol and other law enforcement entities to 
utilize entry points into the trucking industry to spread the TAT anti-
trafficking message. The components of the model are as follows:

        Train MVE/CVE/and/or law enforcement personnel with TAT 
        materials.

        Stock weigh stations, ports of entry and rest areas with TAT 
        materials.

        Ensure that every CDL issued (or renewed) is accompanied with a 
        TAT wallet card.

        Join the National Hotline law enforcement network by calling 1-
        888-373-7888.

        Visit truck stops with TAT materials, urging them to train 
        employees and distribute.

        Implement TAT training as part of mandatory safety meetings for 
        trucking companies.

        In addition, states may also:

                Use asset forfeiture funds to pay for TAT materials.

                Begin collecting data of interdiction stops that lead 
                to human trafficking investigations.

                Mandate TAT training for entry-level CDL holders 
                statewide.

    The impact of the Iowa model has been 3-fold:

  (1)  State agencies that are often overlooked in the fight against 
        human trafficking are becoming activated. As there are over 3 
        million CDL holders in the US, and over 400,000 trucking 
        companies, it is imperative that we engage as many entry points 
        into the industry as possible in order to reach them all. 
        Whether it be handing out one of our wallet cards with every 
        CDL issuance or renewal, playing a TAT PSA in a waiting room 
        monitor, allowing us to train specialized law enforcement units 
        with this information, equipping rest areas with posters that 
        contain the national hotline or assisting survivors in 
        obtaining a driver's license, TAT is currently working with the 
        Department of Transportation, Department of Motor Vehicles, 
        Department of Public Safety, Department of Licensing and 
        Department of Revenue in multiple states to accomplish those 
        goals.

  (2)  Law enforcement officers are receiving anti-trafficking training 
        and becoming empowered to reach the industry with this message. 
        What good is it if a trucker makes a call and law enforcement 
        arrive, only to have the officer arrest the 15-year-old as a 
        child prostitute? This is why the main starting point of the IA 
        MVE model is ensuring all law enforcement become trained on the 
        issue of human trafficking. Not only has TAT created a free and 
        easily accessible law enforcement training DVD: https://
        vimeo.com/206215538, but with our two field trainers (survivor-
        leaders), TAT does in-depth law enforcement trainings around 
        the Nation in order to equip officers to detect human 
        trafficking cases (specifically sex trafficking), while 
        administering a victim-centered approach. In fact, after 
        training all of the DOT officers in the sate of MS in January 
        of this year, two of the officers credited their TAT training 
        when they were able to successfully separate a victim from her 
        suspected trafficker during a routine inspection (see attached 
        case study). TAT specifically targets Commercial/Motor Vehicle 
        Enforcement, as these units (typically of the state patrol) 
        come into the most contact with members of the trucking and bus 
        industry. Whether it be ports of entry, weigh stations, 
        interdiction stops or mandatory safety compliance meetings 
        within trucking companies, we are asking all law enforcement 
        units to spread TAT's anti-trafficking message whenever they 
        come into contact with members of the industry (for an example, 
        see attached report from the Michigan State Police). As a 
        result, we have seen multiple state patrols partner together in 
        outreach campaigns to the industry: http://www.in.gov/
        activecalendar/EventList.aspx?fromdate=2/1/2017
        &todate=2/28/
        2017&display=Month&type=public&eventidn=256841&view=
        EventDetails&information_id=255348&print=print

      In addition, the Ohio State Patrol credited their work with TAT 
        in seeing a 32 percent increase in calls, generating 125 cases. 
        TAT has also provided resources to multiple state patrol units 
        when conducting undercover investigations of truck stops. The 
        model has also opened doors for TAT to host many of its 
        coalition build meetings between industry stakeholders and 
        their federal, state and local law enforcement officers. The 
        details of these meetings and impact reports can be found here: 
        http://www.truckersagainsttraffick
        ing.org/coalition-builds/

  (3)  More professional drivers are becoming TAT trained and making 
        calls that ultimately save lives. At any given time there are 
        more professional truck drivers out on the road than law 
        enforcement officers. By equipping and activating state 
        agencies and law enforcement personnel to help us reach all 3 
        million CDL holders, we firmly believe a transient army of eyes 
        and ears is being created to aid in the detection of 
        traffickers and assist in victim recovery. While the National 
        Human Trafficking Hotline only documents the location where the 
        driver is calling from, not his or her home state, since the 
        inception of these programs we have seen a continued increase 
        of calls into the hotline from drivers . . . who have now made 
        well over 1800 calls into the hotline, identifying over 500 
        cases, involving close to 1,000 victims . . . and this is only 
        one slice of the data pie as no one is tracking 911 calls or 
        calls made to the local sheriff around this crime. The 
        following story was related to TAT from the hotline.
      A male trucker was sitting in his truck when he was approached by 
        a female no older than 14 years old, who was offering sexual 
        services. Earlier, the caller had observed the minor walking 
        from truck to truck with a male in his 20s. The minor spoke to 
        the caller alone and told him that she was from another state 
        and wanted to return home. The caller offered to help her but 
        her male counterpart arrived at the truck and she became 
        silent. The caller observed the male take the female to the 
        shower area and reported the incident to truck stop management. 
        The caller was directed by the management to call the NHTRC. 
        The NHTRC took down the reporting details and advised the 
        caller to call 911 for immediate assistance and to call the 
        NHTRC back to help coordinate additional services and a report 
        to our specialized law enforcement for investigation. Shortly 
        after the call, 5 police cars were dispatched to the location 
        and several males were arrested. The police notified the 
        trucker that the minor was a runaway from another state and 
        that the male had outstanding warrants and was arrested for 
        kidnapping and other charges.

    Question 2. How can we encourage more states to adopt this program?
    Answer. The National Governor's Association would be a great place 
to start. If the governor of each state could share with his/her 
cabinet the effective pathways their agencies could adopt to become 
more aware themselves of this crime (because let us remember that this 
message is also taken back to the families of each employee), as well 
as engage industry (and this model can be replicated across modes and 
industries), we believe states would be able to fast-track engagement. 
We also recently presented at the National Association of Attorney 
General's conference, and have worked with numerous AGs across the 
nation, who we find to be ideal co-hosts for our coalition builds. We 
would love to see NAAG adopt this program as a best practice and use 
their extensive reach to ensure all law enforcement agencies in their 
state become trained on human trafficking and empowered to reach 
industry members (specifically trucking and busing). Moreover, we 
believe the USDOT would be an ideal convener and conduit of information 
if they created a National Advisory Committee comprised of industry and 
NGO stakeholders who could inform states (governors and DOTs) of the 
existing best practices in combating human trafficking via 
transportation modes . . . the IA MVE model being among them . . . as 
well as report back on state implementation of the committee's 
recommendations.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                             Esther Goetsch
    Increasing awareness and improving training programs for key 
actors--such as truck drivers--to identify instances of trafficking is 
an initial step to ensuring survivors receive justice. Training is 
especially needed to identify labor trafficking, as there is less 
understanding about how to recognize, investigate, and prosecute this 
crime.

    Question. Ms. Goetsch, are there additional tools and resources 
needed that would help the trucking community identify trafficking 
cases--particularly labor trafficking cases which are often 
underreported?
    Answer. Labor trafficking cases are indeed underreported, and we 
believe in order to change that local agencies (government or NGO) 
should compile reports detailing which types of labor trafficking occur 
in their state. For some, the construction industry is rife with it, 
for others it's occurring on farms, for others it's sheepherding (CO), 
for still others sweatshops are a major culprit. Before we can begin to 
instruct industry, particularly truck drivers, on what to be looking 
for in the course of their everyday jobs (which is why sex trafficking 
is so easily identifiable as it literally comes knocking on their 
doors), the intelligence must exist to determine where industry 
intersects with potential victims, and what credible pathways exist to 
safely assist the victims. TAT does not have the capacity to compile 
such uniform reports for each state, but would like to see either a 
state agency or a top-notch anti-trafficking NGO compile the 
information. TAT could then be a conduit of that information during our 
in-person trainings (tailored to each state) and on our website. 
Moreover, all law enforcement personnel should receive training on 
human trafficking . . . both labor and sex. It is extremely 
disheartening to have a professional driver make a call and have law 
enforcement arrest the victim, rather than the trafficker (or buyer), 
if they show up at all. In addition, more accurate and up-to-date data 
needs to be kept on what each city/county/state is seeing in regards to 
these cases, and that data needs to be easily accessible to other law 
enforcement personnel, state agencies and pertinent NGOs working to 
address this crime. Such data would assist in the aforementioned report 
creation, allow law enforcement to understand trafficking routes and 
hotspots in order to target investigations, and enable anti-trafficking 
NGOs to strategically focus their awareness/training efforts.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Catherine Cortez Masto 
                           to Esther Goetsch
    Question. The Department of Transportation has taken a number of 
steps to work with other government agencies and transportation 
stakeholders to address the issue of human trafficking. As an outside 
stakeholder, how do you think the DOT's efforts in this area are 
progressing? In your opinion, what more can or should the DOT be doing 
to combat human trafficking?
    Answer. As TAT was an original member of the DOT's Transportation 
Leaders Against Human Trafficking group, we can speak to their initial 
efforts. While the intent was good, the resources were lacking. To my 
knowledge (Kendis Paris, executive director and co-founder of TAT, and 
the one who represented TAT on TLAHT), all that came of the group was a 
set of awareness posters and a website they hoped transportation 
stakeholders would utilize to exchange best practices. However, after 
the initial push, a 3-month rotating intern was appointed as 
coordinator of the program and as soon as that person got up to speed 
on the program, he or she left and a new intern was put in their place. 
(Please note, my knowledge on their efforts is limited . . . I am 
providing firsthand testimony of my own experience, their efforts may 
certainly extend beyond what I observed).
    If the USDOT is going to engage transportation stakeholders on this 
issue, then they either need to create a new position to coordinate 
efforts, or add this responsibility into an existing full-time 
position. However, I believe the best way the USDOT could utilize its 
position to combat human trafficking is by being a convener of 
transportation stakeholders and a conduit of information. By creating a 
National Advisory Committee comprised of industry and NGO stakeholders 
who could inform states (governors and DOTs) of the existing best 
practices in combating human trafficking via transportation modes . . . 
TAT's Iowa Motor Vehicle Enforcement model among them . . . as well as 
report back on state implementation of the committee's recommendations, 
they could play a pivotal role in fast-tracking states' engagement on 
the issue.
                                 ______
                                 
    On June 7, 2017 around 3pm CST in Mississippi, MDOT officers were 
doing a special detail that week for the 72-hour check . . . check all 
trucks. One of the trucks hadn't come through the area, so Ofc. Havard 
flagged him in. He had a passenger, so when she started to do the 
inspection, she questioned him and asked if he had any passengers. He 
said, yes, but gripped the wheel, turned his back to the passenger and 
tried to maneuver his body towards the officer, which was odd, and so 
she kept questioning him. His body language, how he was acting, his 
flirtation with her were all red flags that something was off. It 
seemed he was trying to distract me from paying attention to his 
passenger.
    Another strange thing was that he stayed in the cab of the truck 
and hadn't taken off his seatbelt. Normally drivers want to get out of 
their vehicle, they take their seatbelt off . . . he was resistant. He 
was also resistant to answering questions about his passenger. When 
Ofc. Havard tried to make contact with the passenger, she wouldn't 
maintain eye contact with her and she hid a little.
    Ofc. Havard asked the driver how long he had known his passenger, 
and he answered that he only knew the passenger for one day. She asked 
if the company knew he had a passenger. He said, ``I am the company.'' 
At this point, she knew she wanted to have a conversation with the 
passenger, so she asked the driver to come with her to the office to 
check his paperwork. The driver went with her, and Ofc. Havard asked a 
male officer to take over with him, so she could go back to the truck 
and speak with the female passenger.
    She was dressed in flip-flops, very short shorts, and you could see 
her bra line under her shirt. She had very bad hygiene. Ofc. Havard 
asked her if she was in trouble. She kept pointing to her throat. The 
officer didn't know what that meant, but she first asked her if she 
spoke English. She nodded yes, but continued pointing to her throat. 
The officers asked her if she could write and gave her a pad and pen. 
Ofc. Havard asked her questions, and the woman would write the answers.
    She didn't know her last name or DOB. She didn't have ID or 
possessions . . . didn't have or remember anything. She said her things 
were back in Florida. Ofc. Havard asked her if she was in any kind of 
trouble . . . the lady asked her to clarify . . . and she wrote on the 
paper, ``how can I connect with you if I need help?'' I asked her if 
she needed food or water. She wouldn't respond. The officer knew 
something was terribly wrong, and she told her that she couldn't let 
her, the driver or the truck go until she felt she was safe. The 
passenger wrote, ``Don't do it.'' She seemed very fearful about the 
driver or truck being detained. Both the driver and passenger were 
being questioned. Passenger and Driver stories didn't match . . . who 
bought what, where they were headed, etc.
    At that point, Ofc. Havard Called for another female officer and 
Captain Edins came to the scene. A 4-hour interview ensued, and they 
learned that someone had damaged her throat. The victim hadn't seen her 
family in a very long time, didn't know her age, and then guessed that 
she was 47. She was Romanian. She was watching for the driver 
constantly . . . she was reluctant to talk with LEOs. She wouldn't 
speak with male officers at all. When Captain Edins kneeled down next 
to her in an attempt to be at eye level and not intimidating, the lady 
went ballistic, and seemed both angry and scared by that. The FBI were 
called, but they couldn't get much more information than MDOT officers. 
Ofc. Havard and Captain Edins called the HT taskforce, and they got her 
help. She didn't go with the driver, and the driver kept refusing to 
leave without her. But he was told he had to leave the premises without 
the woman. That night, she was taken to a safe house in Jackson. She 
wouldn't eat during the interview, and she wouldn't eat when the lights 
were on. She would only eat in the darkness when no one could see her, 
and workers say she ate like she hadn't eaten in days.
    The next day, Captain Edins called her at the safe home and spoke 
with her as she had promised. Unfortunately, later on she walked away 
from safe home.
    Officer Havard and Captain Edins did everything correctly in this 
situation. They took extra time to ask questions of the driver because 
he had a passenger. They paid attention to non-verbal cues that 
indicated something was off, they separated the driver and passenger, 
and they used a victim-centered approach with the passenger. They took 
their time with her, figured out a way to communicate and got her to a 
safe place that night. This lady had obviously been traumatized for a 
long time, and there was a lot happening internally due to the apparent 
long-term exploitation. It is the hope that a seed was planted in this 
woman's life that will give her the strength to seek the help she 
needed. In the short term, the officers were able to get the woman away 
from a man she was very afraid of and get her into a safe environment 
with food.
                                 ______
                                 
               State of Michigan Department of State Police

DATE: January 28, 2016

TO: Capt. Michael Krumm, Commander, Commercial Vehicle Enforcement 
Division

FROM: Lt. Susan Fries, Commanding Officer, Special Programs Section

SUBJECT: Truckers Against Trafficking Initiative 2015 Year-end Report
Background Information
    The Michigan State Police (MSP), Commercial Vehicle Enforcement 
Division (CVED), has began an initiative to support the nationwide 
program Truckers Against Trafficking (TAT). Founded in 2009, the 
mission of TAT is to educate, equip, empower and mobilize members of 
the trucking and travel plaza industry to combat domestic sex 
trafficking. Currently, all but four states are supporting the TAT 
program through their state's trucking association, state law 
enforcement agency, or both. The TAT program has partnered with the 
National Human Trafficking Resource Center (NHTRC) in establishing a 
nationwide phone number to report suspected sex trafficking. MSP and 
the Michigan Trucking Association (MTA) were approached to promote TAT 
in the past but a program was never developed other than having 
pamphlets available at weigh stations for a short period of time with 
no follow-up.
Purpose
    To establish a targeted approach in engaging the commercial vehicle 
industry to include truck stops, trucking companies, rest areas and the 
MTA in educating them on the TAT program. Through increased awareness, 
the MSP's goal is to build strategic partnerships in addressing the 
problem of human trafficking in the commercial vehicle industry.
Problem
    It is estimated that anywhere from 100,000 to 300,000 minor 
children are being trafficked in this country at any given time. Truck 
stops are a preferred area for traffickers since there are many 
potential clients in one area and the girls can go from truck to truck 
quickly and easily. Motor carrier officers are the first line of 
defense for identifying criminal activity associated with the use of 
commercial vehicles. However, our officers had not been trained to 
identify, enforce or engage situations that may involve human 
trafficking. Furthermore, truck stop personnel, commercial motor 
vehicle drivers, and others are not aware of the TAT program and the 
resources available should suspected trafficking be encountered.
CVED Initiative
    The CVED identified and trained two personnel to develop this 
initiative. These individuals met with TAT staff, attended a national 
conference, and developed a rollout plan for this initiative. The 
official kick off date of the program was January 15, 2015. The rollout 
plan consists of the following:

  <bullet> Provide a 45 minute awareness level training session to all 
        CVED members at their next district meeting scheduled in 
        December and January.

  <bullet> Provide talking points to enable officers to open a dialogue 
        with drivers and provide TAT wallet cards for distribution to 
        drivers.

  <bullet> Train two or more members from each district as the CVED 
        human trafficking coordinator who will initiate contacts with 
        each truck stop in their district and serve as a resource for 
        other presentations to industry and community groups.

  <bullet> Track and maintain a database on the contacts made by CVED 
        members.

  <bullet> Develop and send out media releases to increase awareness of 
        the program.

  <bullet> Identify partnerships through the Michigan Secretary of 
        State (SOS) to assist in disseminating the TAT materials and 
        work with the Michigan Department of Transportation (MDOT) to 
        have TAT posters hung at rest areas.

  <bullet> Present CVED's initiative to MTA board of directors in 
        February and follow-up with training in TAT at their annual 
        conference in August.
Program Leaders
    Lt. Susan Fries, Special Programs Section, 517-241-0583
District Coordinators

------------------------------------------------------------------------
 District   District   District   District  District  District  District
    1          2          3          5          6         7         8
------------------------------------------------------------------------
Investiga  Investiga  Officer    Sergeant   Officer   Sergeant  Officer
 tor        tor       Jurkowski  Leonard    Parling   Richards  Kennedy
Recollet   Lopez-                                      on
           Patterson
------------------------------------------------------------------------
Officer    Officer    Officer    Sergeant   Officer   Investig  Officer
 Russo     Brendel    Bartin     Morrison   Priebe     ator     Cameron
                                                      Archer
------------------------------------------------------------------------
           Officer
           Streicher
            t
------------------------------------------------------------------------

Presentations and Contacts

                                                        FY 2015 4th Quarter Oct. 1-Dec. 31, 2015
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                  Truck Stops      Carriers       Industry      Rest Areas        CVED          *Other         Media
                                                ------------------------------     Assn.     ---------------------------------------------    Contacts
                                                                              ---------------                                             --------------
                                                   Q4     YTD     Q4     YTD     Q4     YTD     Q4     YTD     Q4     YTD     Q4     YTD     Q4     YTD
--------------------------------------------------------------------------------------------------------------------------------------------------------
Presentations                                        1     110      9      16      8      10      0      24      0       9      6      11      1       3
--------------------------------------------------------------------------------------------------------------------------------------------------------
Persons                                              1     165    161     205    415     554      0      24      0     170    470     630        NA
--------------------------------------------------------------------------------------------------------------------------------------------------------
*Includes hotels, fast food establishments, churches, schools, etc.

Materials and Cost
    This program is not eligible for funding under and CVED outside 
grants or funding sources. General fund monies were used for associated 
costs for implementing this program. Total materials costs to program 
thus far are $1,923.30. The distribution of wallet cards has decreased 
significantly and there have been no additional purchases made in the 
3rd quarter.

                                          December 2014 Material Order
----------------------------------------------------------------------------------------------------------------
    Posters         Wallet Cards         Brochures         Window Clings          DVDs           Total Cost
----------------------------------------------------------------------------------------------------------------
        300                17,000            1,400                  3,000           160             $1,459.30
----------------------------------------------------------------------------------------------------------------


                                            March 2015 Material Order
----------------------------------------------------------------------------------------------------------------
    Posters         Wallet Cards         Brochures         Window Clings          DVDs           Total Cost
----------------------------------------------------------------------------------------------------------------
        100                20,000            1,400                                                    $464.00
----------------------------------------------------------------------------------------------------------------


                                          December 2015 Material Order
----------------------------------------------------------------------------------------------------------------
    Posters         Wallet Cards         Brochures         Window Clings          DVDs           Total Cost
----------------------------------------------------------------------------------------------------------------
        400                 5,000            2,000                  1,000             0               $552.21
----------------------------------------------------------------------------------------------------------------

2015 Calls into the NHTRC Hotline from Michigan (last update 1/28/2016)
  <bullet> Total calls--717 up 35% from 2014 where 529 calls were 
        received.

  <bullet> Human trafficking cases reported--152

  <bullet> Calls from victims or survivors--124

  <bullet> Michigan calls are up 16% compared to 2014 when 131 cases 
        were reported
Significant Presentations to Date
  <bullet> West Michigan Safety Council, (12/15/2015)

  <bullet> MTA Summer Conference, (08/20/2015

  <bullet> MTA Truck Board meeting, (2/20/2015)

  <bullet> Newago County Farmer's Forum, (12/08/2015)

  <bullet> U.P. Traffic Safety Conference, (10/28/2015)

  <bullet> Kent County Road Commission Driver's Challenge, (10/13/2015)

  <bullet> International Brotherhood of Electrical Workers (IBEW) Local 
        17, (10/7/2015 and 10/14/2015)

  <bullet> Michigan Dept. of State, (12/10/2015, 12/15/2015, and 12/17/
        2015)

  <bullet> Northwest High School, Jackson (12/18/2015)

  <bullet> Michigan CJIC Crime and Security Conference (09/01/2015)

  <bullet> Prosecuting Attorneys Association of Michigan (10/16/2015)

  <bullet> MTA Truck Driving Championship (6/5/2015)

  <bullet> Dept. of Natural Resources, (04/21/2015)

  <bullet> Alcona County Road Commission, (05/19/2015)

  <bullet> MTA Safety Expo (4/14/2015)

  <bullet> Chelsea High School sociology class awareness (3/5/2015 and 
        11/20/2015)

  <bullet> Lunch and Learn MSP Headquarters (3/11/2015)
Program Highlights
  <bullet> CVED was responsible for conducting 162 presentations on 
        human trafficking awareness reaching 1,744 people in addition 
        to countless roadside contacts with CMV drivers in 2015.

  <bullet> Increased media coverage beginning February 5, 2015.

  <bullet> Successfully trained all 170 CVED personnel.

  <bullet> Trained 16 district coordinators.

  <bullet> Partnered with MDOT placing TAT posters in all 78 rest area 
        locations.

  <bullet> Training of CVED investigators and auditors to offer TAT 
        presentations during compliance reviews and safety audits.

  <bullet> Presented human trafficking presentation to a record number 
        of participants for a MSP Lunch and Learn.

  <bullet> Positive feedback from field officers and drivers.

  <bullet> CVED programs have been subsequently shared with Indiana, 
        Nebraska, and Ohio.

  <bullet> Presented to 125 drivers of the Michigan Trucking 
        Association Truck Driving Championship.

  <bullet> Presented to 105 teens at the Kiwanis (51) & American Legion 
        (54) Youth Academies.

  <bullet> CVED represented on Department working group to address 
        human trafficking issues.

  <bullet> Michigan Dept. of State (SOS) to include human trafficking 
        awareness in next revision of the Commercial Driver's License 
        Manual.

  <bullet> Tips have been reported by CVED officers. Tips were reported 
        to the NHTRC hotline and to D/Sgt. Ed Price. D/Sgt Price 
        advised that though the tip regarding a young female traveling 
        cross-country with an older male driver was unfounded at the 
        time, he felt the she was possibly in danger of being recruited 
        and/or had not yet been forced into the business.

  <bullet> As proof that creating an awareness and changing perceptions 
        is effective, a truck driver in VA reported seeing a female 
        victim looking out the window of a motorhome where she was 
        being held captive and forced into prostitution. The driver was 
        aware of the program because Con-Way Trucking discusses this 
        information. His call resulted in two federal court convictions 
        of human trafficking.

  <bullet> Female CVED TAT coordinators joined several other women of 
        MSP to spend a day with teen girls at Vista Maria, a 
        residential treatment facility for teen girls suffering the 
        effects of severe abuse, neglect and other traumas such as 
        human trafficking. The goal was to develop mentoring 
        relationships with the girls.
Upcoming Opportunities
  <bullet> CVED is working toward a partnership with Michigan Dept. of 
        State to display a short TAT looping video in SOS Super 
        Centers, and distribute TAT materials to CDL holders at the 
        counter of all SOS branch offices.
Next Steps
  <bullet> Continue providing human trafficking/TAT awareness training 
        opportunities to the trucking industry and the community.

  <bullet> Encourage CVED members to continue to talk about human 
        trafficking awareness with truck drivers, use provided facts 
        and talking points, and distribute wallet card on every stop.

  <bullet> Begin conducting enforcement operations in cooperation with 
        troopers and local law enforcement agencies using motor carrier 
        officers and CVED commercial vehicles at truck stops.

  <bullet> Work toward a department-wide plan to stop human trafficking 
        in Michigan.

  <bullet> Follow up with truck stops and rest areas in Feb. 2016 as a 
        part of a tri-state initiative with the Indiana State Police 
        and the Ohio Highway Patrol.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                             Samir Goswami
    Question 1. As consumers demand ethically sourced products, more 
companies are establishing policies that promote human rights in their 
supply chains. Unfortunately, connecting these policies to everyday 
practices often fall short of expectations and are proven to be easier 
said than done.
    Mr. Goswami, how can we ensure the private sector goes beyond their 
corporate responsibility policies and takes full, credible action to 
clear their supply chains of forced labor? What tools and resources do 
businesses need in order to effectively vet all tiers of their supply 
chains?
    Answer. There are many tools available to businesses to vet all 
tiers of their supply chain for risk of forced labor. Some are in 
initial pilot stages while others have proven effectiveness. The more 
promising models employ worker voice-centered approaches, engaging 
workers to confidentially share and exchange information through phone 
text message, smartphone apps, hotlines, and other channels. These tend 
to be more effective--and cost-effective--at finding labor abuses and 
risks throughout multi-tiered supply chains as compared with social 
audits, which are traditionally more reliant on feedback, documents, 
and reporting from the employer regarding labour conditions, rather 
than from the workers themselves. For example, in the case of Issara 
Institute's Inclusive Labor Monitoring and worker voice systems, 
virtually every factory or farm that we found to have forced labour had 
been social audited in the past year.
    On a related note, Issara has also found that running a worker 
voice-centered approach alone is significantly more effective when it 
is directly linked with the relationship and ability to immediately 
catalyze and drive solutions with risky suppliers. The action that 
follows the discovery of serious labor abuses in a global supply chain 
can lead to a host of unintended negative consequences if not well 
planned and executed with partners who can provide ongoing technical 
support to transforming business systems and carrying out remediation, 
while also looking out for the best interests of vulnerable workers.
    Either way, businesses need to increase their spend, which stems 
from executive commitment, and go beyond the first tier of suppliers--a 
task which is considerably more affordable and possible now with the 
advent of a range of worker voice-centered tools and solutions.

    Question 2. Some claim the global demand for inexpensive seafood 
has increased the pressure on companies to minimize labor costs and 
maximize profits. For countries such as Thailand, which suffer from 
labor shortages, the pressure for suppliers to meet the global seafood 
demand can lead to a reliance on human trafficking.
    Mr. Goswami, drawing from your work experience in Southeast Asia, 
what prevention efforts do you believe are necessary to ensure large 
fishing companies are not contracting with traffickers who are 
exploiting migrant labor?
    Answer. We need safe, ethical labor recruitment channels between 
source and destination countries in Southeast Asia whereby employers 
pay the costs of recruitment and not fishermen. Government legislation 
prohibiting the charging of recruitment fees to jobseekers and workers 
is helpful, as exists in Thailand, for example. However, if similar 
legislation does not exist in the source country as well, then there is 
a high risk that unscrupulous brokers and cost-cutting employers will 
find a way to extort fees and costs from workers in the source country, 
prior to migration. Business codes of conduct such as those promoted by 
the Leadership Group on Responsible Recruitment (which includes several 
of Issara's Strategic Partners, such as Walmart, Tesco, Mars, and Marks 
and Spencer), can be especially helpful in these situations, 
particularly if local employers and recruitment agencies are 
incentivized to collaborate with technical partners such as Issara 
Institute to be transparent about and make commitments to ethical 
recruitment in their contract and fee structures, as well as their 
provisions for protection of workers, ensuring that all workers--in 
this case, fishermen--are not in debt bondage, have control of their 
identity documents at all times, are not being charged fees that should 
be paid by employers, are placed into safe and non-exploitative 
workplaces, and are treated with dignity throughout.

    Question 3. The State Department Trafficking in Persons report from 
June 2017 showed that labor trafficking prosecutions dropped to just 5 
percent and labor trafficking convictions dropped to 3 percent of 
overall human trafficking cases in the United States.
    Mr. Goswami and Ms. Sorensen, with the Trafficking Victims 
Protection Act up for reauthorization in September, what can the U.S. 
Government do to incentivize more accountability in labor trafficking 
cases?
    Answer. Often, local law enforcement jurisdictions lack the 
expertise to investigate and prosecute what could be complicated human 
trafficking cases. The Department of Justice's ACT Teams have proven to 
be an impactful resource to local jurisdictions within the United 
States that have increased prosecutions. It should be recognized as 
well that most victims of labor trafficking, whether in the United 
States or abroad, are often not incentivized or made to feel adequately 
protected and prioritized by the criminal justice system, thus leading 
to low statistics such as the ones quoted from the TIP report, given 
the importance of victim testimony in human trafficking criminal cases. 
A May 2017 Issara research study entitled ``Towards Demand-Driven, 
Empowering Assistance for Trafficked Persons: Making the Case for 
Freedom of Choice over Protection at the Expense of Empowerment'' 
analyzed 117 human trafficking victim cases from our 2015-2016 caseload 
and found that the top two needs prioritized among trafficked persons 
were the need to find secure employment, and the need for support in 
legal proceedings to obtain compensation for lost wages. Remarkably, 
only 1 out of the 117 (less than 1 percent) had any interest in 
participating in the criminal justice process. The data strongly 
suggest that efforts to empower victims of labour trafficking, address 
swift repayment of lost wages, provide options for placement into safe 
jobs, and support reunification with family often go far in helping 
victims of labor trafficking stabilize to the point where they may be 
interested in reporting cases and cooperating with investigators and 
prosecutors.

    Question 4. Illegal Unreported and Unregulated (IUU) fishing is a 
significant global problem that distorts competition, compounds global 
overfishing, and is frequently associated with a host of illicit 
activities--particularly human trafficking.
    Mr. Goswami, how can the United States Government leverage current 
technology to establish traceability and ensure seafood products 
entering the United States are not the result of IUU fishing?
    Answer. The U.S. Department of State and Department of Labor 
conduct research and publish reports about human trafficking around the 
world. These reports are very useful to multiple stakeholders, 
particularly businesses who wish to understand the related risks they 
face. U.S. Government entities can also increase their usage of new 
technologies that capture the experiences of workers directly to inform 
reports. That is, U.S. Government backed researchers should also 
collect primary source data from workers directly and publish those 
findings that will further inform supply chain decision makers. 
Importantly, U.S. Government entities can use these tools to monitor 
their own suppliers and contractors to ensure that they are complying 
with related procurement laws and regulations. Such leverage will then 
compel those suppliers to work with on the ground actors, like Issara, 
to implement improvements in supplier practices.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                            to Samir Goswami
    Question 1. The procurement rules for U.S. Government contractors 
and subcontractors requiring disclosure and certification that 
companies do not engage in any trafficking-related activities are a 
great first step to rooting out bad actors in our supply chains. 
However, I am concerned that these rules lack enforcement. I understand 
that since their implementation, there have been zero suspensions or 
debarments of contractors. To what extent are these rules being 
enforced and what are the barriers to enforcement?
    Answer. Issara's experience in SE Asia demonstrates that business 
leverage works. That is, when businesses proactively work with their 
suppliers to share information and compel good action--the suppliers 
generally do so. The UK Modern Slavery Act, the CA Supply Chain 
Transparency Act as well as increased media attention to labor 
exploitation in Thailand's seafood industry have all motivated 
businesses to use this leverage with their suppliers. However, it is 
not sufficient to simply compel suppliers to make improvements--often 
they need the technical assistance to create good systems and 
processes. While the U.S. Government can do more to enforce its own 
laws, especially pertaining to its own procurement, contractors and 
supply chains, it is equally important to resource the training and 
education required that promote on the ground solutions, including any 
victim rehabilitation. For example, Issara Institute has benefitted 
from such resources and has successfully worked with the local 
suppliers of multi-national businesses to implement data informed 
systems that have measurably improved working conditions for tens of 
thousands in just two years.

    Question 2. In addition to ensuring justice for victims and 
prosecuting traffickers, we must eradicate the goods and services made 
by forced labor from our marketplaces. What can Congress do to 
incentivize companies to evaluate the risk of human trafficking in 
their supply chains? To what extent should businesses be responsible 
for informing consumers about the presence of forced labor in their 
supply chain and how can the average consumer access this information?
    Answer. Government can play, and has played, a key role in 
incentivizing and stimulating companies to evaluate the risk of human 
trafficking in their supply chains. The California Supply Chain 
Transparency Act and UK Modern Slavery Act have compelled many 
companies to investigate and disclose their own diligence processes and 
procedures. USAID's Supply Unchained Initiative and U.S. State 
Department funding to organizations with boots on the ground and 
science and technology capacity such as Issara Institute have enabled 
the development of the tools and innovation needed to actually root out 
and crowd out exploitative labor practices. However, it is important 
for companies to provide outcome based metrics on successes they have 
had in transforming supply chains. That is, not just disclosing what 
processes they have employed, but what impacts they have achieved and 
in what percentage of their entire supply chain.

    Question 3. You mentioned your work with retailers and importers to 
identify and address risks of trafficking and forced labor in their 
Thailand export supply chains and the use of the ``Inclusive Labor 
Monitoring'' approach. How do you work with suppliers and businesses to 
rectify the problem when you find labor abuses in a supply chain? How 
can Congress help foster and encourage such public-private partnerships 
that monitor supply chains and root out abuses?
    Answer. Issara's system is basically one where we incentivize and 
enable multinational businesses to get a direct view of labor 
conditions across their supply chain, no matter how complex; support 
local suppliers to eliminate their labor risks and abuses, or risk 
being cut from the supply chain; and, offer technical assistance to 
progressive suppliers to fix broken labor recruitment and management 
systems. The three key elements of the model are partnership with 
business, data and technology, and on-the-ground solutions: taking a 
collaborative and science-driven approach but also an on-the-ground, 
within-supply chains-based methodology that draws upon the leverage 
that multinational brands have to drive improvements in their supply 
chains.
    Issara is currently partnering with 15 leading brands, retailers, 
and importers, including Nestle, Walmart, Mars, Red Lobster, Tesco, 
Marks and Spencer, Sainsbury's and Waitrose, to identify and address 
risks of trafficking and forced labor in their Thailand export-oriented 
supply chains. We do this through our Inclusive Labor Monitoring 
program, whereby business partners share their confidential supply 
chain data, and our team on the ground works directly with their 
suppliers (all tiers) to identify labor risks and support solutions 
that are ``owned'' by the supplier. The approach is inclusive because 
all workers have the opportunity to individually share information in 
confidence at their own time and location of choosing, and receive 
assistance and support via Issara's multiple worker voice channels.
    Issara builds trust with workers by engaging with them at the 
factory, in the community, and sometimes pre-departure in their home 
countries before migrating, and provides meaningful and timely 
information to help them navigate their journey. Trust is key because 
it underpins successful worker voice systems, and provides the concrete 
details for business and suppliers to understand what is happening in 
their factory and to take action. The end result is an integrated model 
where both workers and business see benefits, and there is impact to 
address trafficking in persons at scale. Having started out as a pilot 
in 2014, the Issara Inclusive Labor Monitoring approach has already 
made fundamental changes to exploitative working conditions for over 
60,000 workers last year, with over 5,000 of those directly helped out 
of situations of trafficking or forced labor.
    Support from USAID and the U.S. State Department have been critical 
for these efforts, for example, in providing the resources to Issara 
Institute to help develop its worker voice technologies. In addition to 
such funding, these government agencies also have the convening 
authority to incentivize businesses to work with on the ground civil 
society experts who can assist with supply chain remediation in a 
credible and independent manner.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Tomas J. Lares
    Building Partnerships. Florida had the third-highest number of 
reported cases to the national trafficking hotline in 2016. To 
strengthen the response to human trafficking, it takes a team approach 
across many disciplines.

    Question 1. How do partnerships like the Greater Orlando Human 
Trafficking Task Force, Inc. help address the rise in trafficking?
    Answer. A collaborative approach is critical to fully address the 
issue from prevention to identification to restorative care. No single 
agency can adequately do everything necessary to eliminate human 
trafficking. For example, the Greater Orlando Human Trafficking Task 
Force is comprised of many organizations both governmental and non-
governmental each tackling a piece of the continuum of care partnering 
together to make sure nothing or no one slips through the cracks.
    We have non-governmental agencies that help increase awareness of 
the issue. Awareness leads to the prevention of the crime by young 
people becoming less vulnerable to the lures of traffickers. As 
educated community members call the National Human Trafficking Hotline, 
Law Enforcement and care providers receive credible tips that aid 
investigations that recover victims and arrest traffickers. Once this 
occurs, the victims are connected with experienced case managers, 
therapists, and residential programs to receive the care they need. 
Many agencies are involved in making sure each victim heals and moves 
from merely surviving to thriving. Meanwhile, Law Enforcement works 
with Prosecutors to ensure the traffickers receive justice. As we work 
together seamlessly, each victim receives the care he or she needs to 
stay safe and we effectively prevent the crime from ever taking place.
    Florida Abolitionist, Inc. is a cofounder of the Greater Orlando 
Human Trafficking Task Force, Inc. who facilitates the quarterly 
Central Florida Human Trafficking Task Force Leadership Conference 
Calls, Annual Central Florida Joint Anti-Human Trafficking Forum at 
Valencia College Public Safety Institute and hosts the Annual Human 
Trafficking Awareness Day in January.

    Question 2. What additional actions can be taken to prevent 
trafficking from happening in the first place?
    Answer. While there are many actions that need to be taken to 
prevent trafficking from happening in the first place, three come to 
mind as the most important. First of all, addressing the root cause of 
economics. Sex trafficking is a problem because there is a demand for 
purchasing sex. This is a demand that traffickers are happy to supply 
with victims. However, many times when law enforcement intervenes, the 
victims are arrested and the purchasers walk free. By significantly 
increasing the penalties for the commercial sex customer, buying sex 
will come at a greater risk and we will see the demand decrease. Labor 
Trafficking is fuel by the demand for cheaper products thus this fuels 
the supply chain to use compromising sources including domestic and 
foreign based slave labor.
    The second way to decrease demand is to address the public health 
crisis of pornography. While many in our culture believe it is 
harmless, men and women are becoming addicted. Neuroscientists have 
proven that it is as addictive as illegal drugs releasing the same 
chemicals in the brain. Many commercial sex customers want to live out 
fantasies they see in pornography, so they pay for it with victims of 
human trafficking. As the pornography industry gets more and more 
violent and child pornography increases, the demand for violent 
fetishes/fantasies and sex with children increases. This demand fuels 
the fire of human trafficking. By stricter regulations on Internet 
providers and pornography producers, we can greatly curb the demand for 
human trafficking.
    Third, we need to mandate human trafficking education to children 
between the ages of 11-17 in the public school system. In the same way 
``Just Say No'' has decreased drug use in America significantly, this 
education would help young, vulnerable children learn how traffickers 
manipulate their victims and would prevent many from falling prey to 
these false promises. Such education would also empower youth to watch 
out for their friends and help keep them from growing up to exploit 
others. The Greater Orlando Human Trafficking Task Force, Inc. has 
created a poster campaign in Central Florida to ``Speak Out'' at the 
middle and high school grade levels. Florida Abolitionist, Inc. has 
established a 30-minute assembly addressing online safety, recruiting 
tactics of the traffickers and the value of having self-worth and a 
healthy self-esteem. This assembly is called, ``Set Free''. *See poster 
attachments.

    Question 3. How can the Federal Government help states and regions 
to meet their needs?
    Answer. The Federal Government can help address all of the three 
actions I recommended above with Federal legislation or by strongly 
encouraging them at the state level for sex, labor and domestic 
servitude including domestic and foreign-born victims, minors and adult 
victims and the LGBTQ+ communities who are vulnerable. In addition, for 
many, if not most, agencies involved in the fight against human 
trafficking, funds are very limited. Non-governmental agencies operate 
on shoestring budgets to raise awareness and care for victims. The 
majority of care providers/stakeholders in Florida are from faith based 
communities. In addition, funds limit law enforcement agencies. In most 
cases there are very few investigators of trafficking cases at the 
local, state, and Federal level. Increased funding across the board 
would greatly improve efforts to curb this horrible crime. It would 
provide the tools necessary to prevent and identify human trafficking 
while providing all the necessary assistance to victims to experience 
full healing. Orlando and Miami Florida have some of the highest calls 
in the Nation reporting trafficking, potential trafficking and/or 
related issues according to the National Human Trafficking Hotline. 
*See Attachment.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  <all>
</pre></body></html>
